<html>
<title> - LEGISLATIVE HEARING ON H.R. 3329, H.R. 3483, H.R. 3610, H.R. 3670, H.R. 3524, H.R. 4048, H.R. 4051, H.R. 4052, H.R. 4057 AND H.R. 4072</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
LEGISLATIVE HEARING ON H.R. 3329, H.R. 3483, H.R. 3610, H.R. 3670, H.R. 
     3524, H.R. 4048, H.R. 4051, H.R. 4052, H.R. 4057 AND H.R. 4072

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 8, 2012

                               __________

                           Serial No. 112-49

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
73-293                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             March 8, 2012

                                                                   Page

Legislative Hearing on H.R. 3329, H.R. 3483, H.R. 3610, H.R. 
  3670, H.R. 3524, H.R. 4048, H.R. 4051, H.R. 4052, H.R. 4057 and 
  H.R. 4072......................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared Statement of Chairman Stutzman......................    38
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared Statement of B. Braley..............................    38
Hon. Gus M. Bilirakis............................................     3
Hon. Timothy J. Walz.............................................     4
Hon. G. K. Butterfield...........................................     5
    Prepared Statement of G. K. Butterfield......................    39

                               WITNESSES

Mr. Richard F. Weidman, Executive Director for Policy and 
  Government Affairs, Vietnam Veterans of America................     7
    Prepared Statement of Mr. Weidman............................    40
Mr. Ryan M. Gallucci, Deputy Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States.........     9
    Prepared Statement of Mr. Gallucci...........................    55
Mr. Steve L. Gonzalez, Assistant Director, National Economic 
  Commission, The American Legion................................    11
    Prepared Statement of Mr. Gonzalez...........................    60
    Executive Summary of Mr. Gonzalex............................    65
Mr. Jason R. Thigpen, Co-Founder and President, Students Veterans 
  Advocacy Group.................................................    12
    Prepared Statement of Mr. Thigpen............................    66
    Executive Summary--Student Veterans Advocacy Group...........    68
The Hon. Steve Gunderson, President and CEO, Association of 
  Private Sector Colleges and Universities (APSCU)...............    24
    Prepared Statement of Hon. Gunderson.........................    69
    Executive Summary of Hon. Gunderson..........................    72
Dr. Allen L. Sessoms, President, University of the District of 
  Columbia, On Behalf of: American Association of State Colleges 
  and Universities (AASCU).......................................    26
    Prepared Statement of Dr. Sessoms............................    73
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................    30
    Prepared Statement of Mr. Coy................................    74
    Accompanied by:

      Mr. C. Ford Heard, Associate Deputy Assistant Secretary for 
          Procurement Policy, Systems and Oversight Office of 
          Acquisitions, Logistics and Construction
      Mr. John Brizzi, Deputy Assistant General Counsel, Office 
          of General Counsel
MG Ronald G. Young USA (Ret.), Director, Family and Employer 
  Program and Policy, U.S. Department of Defense.................    32
    Prepared Statement of MG Ronald G. Young.....................    78
Mr. Ismael ``Junior'' Ortiz, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of 
  Labor..........................................................    33
    Prepared Statement of Mr. Ortiz..............................    79

                       STATEMENTS FOR THE RECORD

Hon. Mike McIntyre (NC 07).......................................    83
U.S. Transportation Security Administration......................    83
Mr. Terry ``T.P.'' O'Mahoney, Chairman, Texas Veterans Commission    85
Dr. R. Scott Ralls, President, North Carolina Community College 
  System.........................................................    87
Iraq and Afghanistan Veterans of America.........................    90
Disabled American Veterans.......................................    93
Paralyzed Veterans of America....................................    96
Wounded Warrior Project (WWP)....................................   101

                   MATERIAL SUBMITTED FOR THE RECORD

Letters to Hon. G. K. Butterfield (NC-01)........................   102
Letter from Eric K. Shinseki, Secretary, Department of Veterans 
  Affairs to The Honorable Marlin Stutzman.......................   105


LEGISLATIVE HEARING ON H.R. 3329, H.R. 3483, H.R. 3610, H.R. 3670, H.R. 
     3524, H.R. 4048, H.R. 4051, H.R. 4052, H.R. 4057 AND H.R. 4072

                              ----------                              


                        Thursday, March 8, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present:Representatives Stutzman, Bilirakis, Johnson, 
Braley, and Walz.
    Also Present: Representative Butterfield.

         OPENING STATEMENT OF CHAIRMAN MARLIN STUTZMAN

    Mr. Stutzman. Good morning and welcome, everyone, to the 
Subcommittee on Economic Opportunity, a Subcommittee of the 
Veterans' Affairs Committee.
    Today we will receive testimony on the following bills: 
H.R. 3329 introduced by our colleague, Ms. Linda Sanchez; H.R. 
3483 introduced by Congressman Butterfield; H.R. 3524 
introduced by our Ranking Member, Mr. Braley; H.R. 3610 
introduced by Ms. Fox; H.R. 3670 introduced by Congressman 
Walz; H.R. 4048 introduced by another EO Subcommittee Member, 
Mr. Johnson; H.R. 4051 and H.R. 4052, two bills that I have 
introduced; and H.R. 4057 introduced by Mr. Bilirakis; and H.R. 
4072, a bill introduced by Chairman Miller.
    So we have got a good list of bills today that we are going 
to be discussing.
    Briefly my first bill, H.R. 4051, sets up a pilot program 
to increase opportunities to attend the TAP, Transition 
Assistance Program, by expanding TAP to offer classes at 
multiple off-base locations.
    And my second bill, H.R. 4052, sets up a progam to identify 
through a list of criteria schools that do a good job educating 
veterans.
    While I understand that some of the bills on today's agenda 
would make significant organizational changes to the Department 
of Labor and the Department of Veterans Affairs, the Committee, 
after it provided copies of these bills to staff several days 
prior, provided a formal hearing notice to both departments on 
Friday, February 17th, some 21 days ago.
    Yet, we did not receive VA's testimony until 6:38 p.m. last 
evening and Labor's testimony at 6:55 p.m. last evening and I 
personally find this unacceptable. And while I understand that 
it may have been out of the control of today's witnesses, I 
hope this situation is taken care of in the future.
    I also thank the sponsors for their bills and I look 
forward to hearing from our witnesses on each particular bill.
    I would also ask unanimous consent to allow Members with 
bills before us today to join us on the dais for the purpose of 
presenting their bills. Hearing no objection, I will recognize 
them shortly for their remarks.
    I now recognize the distinguished Ranking Member for his 
opening remarks.
    Mr. Braley.

    [The prepared statement of Hon. Stutzman appears in the 
Appendix]

          OPENING STATEMENT OF HON. BRUCE L. BRALEY, 
                   RANKING DEMOCRATIC MEMBER

    Mr. Braley. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Frank Capra made a great film during World War II called 
Why We Fight to give the American people some understanding of 
what was at stake in the Global War on Terror that existed at 
that time.
    Mr. Chairman, you have heard me talk on this Committee 
before about the profound impact that my father's service in 
World War II had on me. And that is why this hearing is so 
important today.
    Next week on Sunday, it will be the 31st anniversary of my 
father's death and I will be on the island of Guam that day 
escorting an 88-year-old marine from my hometown of Waterloo, 
Iowa back to Iwo Jima where my father served 67 years ago.
    And the reason this hearing today is important is because 
the same issues that faced my father and that 88-year-old 
veteran when they came home from World War II are facing 
today's veterans. And the bills in today's hearing seek to 
provide an improved veterans' benefits which is something we 
all care about.
    These bills will increase access to education, provide 
employment protection for disabled veterans, extend vocational 
rehabilitation and employment benefits, and improve contracting 
procedures.
    This Subcommittee has been committed to improving 
employment opportunities for our Nation's veterans. We have 
conducted oversight hearings and field hearings to examine the 
unemployment problems facing our Nation's veterans and passed 
legislation to try to mitigate those problems.
    Yet, few times have we discussed the unique needs of those 
with service-connected injuries. That is why I am pleased to 
have introduced H.R. 3524, the Disabled Veterans Employment 
Protection Act, which seeks to provide service-connected 
disabled veterans with employment protections in the workplace.
    My bill would provide service-connected disabled veterans 
and protect them against employment discrimination while they 
seek treatment for injuries they sustained while in the service 
or aggravated due to their military service. It would provide 
up to 12 weeks of unpaid leave in a calendar year.
    Currently under the Family Medical and Leave Act, 
caregivers are provided with up to 26 work weeks of unpaid 
leave in a calendar year for up to five years to care for their 
spouse, parent, child, or next of kin who is a servicemember 
and sustained an injury or illness during service.
    While caregivers are given this much disabled protection, 
those that have been directly inflicted with an injury or 
service-connected disability do not enjoy similar protections. 
It is time to remedy this inequity.
    I am also interested in making sure our veterans have good 
information when deciding to go back to college. I appreciate 
that Chairman Stutzman has introduced legislation that would 
recognize educational institutions that provide superior 
service to veterans as well as improve the TAP Program to 
provide information about post-secondary education.
    I also appreciate Representative Bilirakis' legislation 
that would improve outreach and transparency for veterans 
regarding information about going back to school. I believe 
having clear and reliable information is absolutely essential 
in helping veterans make good choices about post-secondary 
education.
    I look forward to working with Members of the Committee to 
make sure our veterans are receiving unbiased advice on the use 
of their GI Bill benefits and adequate information about the 
schools they may want to attend. They have served our country 
and deserve to have the best education possible including 
ongoing support once they are enrolled.
    Common-sense legislation to provide employment protection 
for veterans who need medical treatment for their service-
connected injuries or to provide complete information about 
educational opportunities is how we protect those who served 
and have volunteered to protect us.
    So thank you for holding the hearing. I look forward to a 
very robust conversation about these important bills and ways 
to improve them, and I yield back.

    [The prepared statement of Hon. Bruce L. Braley appears in 
the Appendix]

    Mr. Stutzman. Thank you.
    At this time, I am going to let any other Member who wishes 
to speak on their bill and we will start with, Mr. Bilirakis, 
if you would like to address or make any comments regarding his 
bills.

           OPENING STATEMENT OF HON. GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you very much, Mr. Chairman. I 
appreciate it very much.
    I also want to thank the Ranking Member.
    I have H.R. 4057, the Improving Transparency of Education 
Opportunities for Veterans Act, in today's legislation hearing. 
What my bill boils down to is that the veterans need to be 
armed with information. They need to know what resources are 
available to them.
    They need to know the value of services provided by 
specific institutions of higher education and training, but 
most importantly they deserve to have the resources in place to 
enable them to decide how their hard-earned GI benefit can best 
be used to meet their individual needs.
    This is exactly what my bill aims to do. It would require 
the secretary of Veterans Affairs to develop and implement a 
five-pronged policy to improve outreach and transparency to 
veterans and members of the armed forces with regard to 
institutions of higher learning.
    Specifically the policy would include, one, how to advise 
veterans and servicemembers about current educational and 
vocational counseling available, the best way to track and 
publish feedback from students and state approving agencies 
about the quality of instruction and accreditation, recruiting 
practices and post-graduate employment at institutions, the 
merit of and the way that state approving agencies will share 
information with accrediting agencies about the state approving 
agencies' evaluation of the institution of higher learning, the 
way information about institutions of higher learning is 
provided to individuals participating in TAP, and the most 
important and effective way to provide veterans and members of 
the armed forces with information about post-secondary and 
training opportunities.
    Lastly my bill would require that the secretary of VA 
conduct a market survey to determine if programs exist that 
would allow veterans and servicemembers to assess their level 
of college readiness and what post-secondary and training 
opportunities would coincide well with their skills and 
interests.
    I appreciate the widespread support for this bill and I 
look forward to testimony on this bill and working with my 
colleagues to move it forward in the legislative process.
    I yield back the balance of my time. Thank you, Mr. 
Chairman.
    Mr. Stutzman. Thank you, Mr. Bilirakis.
    Mr. Walz.

           OPENING STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Well, thank you, Mr. Chairman, for this hearing.
    And thank you to my colleagues for putting forward such 
great legislation.
    I would like to speak just a minute on my piece of 
legislation along with Mr. Bilirakis, H.R. 3670, again one of 
those you would find hard to believe that we would actually 
need to do this, but this is in relationship to USERRA, 
Uniformed Services Employment and Reemployment Act.
    The idea of this was is just to guarantee and make sure 
that when our servicemembers, whether it be active forces, 
guard, or reserves, when they go to do their duty to this 
Nation, when they come back home, the one thing they can count 
on is that their employment rights would be there. They would 
be able to maintain their seniority. They would be able to get 
their job back. They would be able to leave off, if you will, 
right where they were and try and stay on equal with their 
peers in that community. That is a pretty easy thing to do.
    And the vast majority of our employers are good actors in 
this. Unfortunately, one of the ones that does not seem to 
think this applies is the TSA, the Transportation Security 
Administration. They do not.
    And I want to be very clear about this. The women and men 
who serve in the TSA do this Nation a great service every 
single day. They are on duty. They are on watch and they are 
providing security for our needs, from airports across this 
country.
    But with that being said, there have been far too many 
cases brought to my attention of TSA does not adhere to USERRA 
and that is the way they see it. And, unfortunately, they were 
invited here today to explain to me why it was so important 
that they not look like a model employer.
    If the U.S. Government cannot be the model employer in 
taking care of our veterans, who can be? And how in goodness 
gracious can we go to the private sector and demand when USERRA 
comes after them.
    This is a very simple and basic piece of legislation. I 
would encourage my colleagues to support this. And let's just 
ask TSA to play by the rules, honor the services of our 
veterans, and there are so many in that service, and make sure 
their jobs are guaranteed.
    With that, I yield back, Mr. Chairman.
    Mr. Bilirakis. [Presiding] Thank you.
    Yeah, Mr. Butterfield, you are recognized, sir.

           OPENING STATEMENT OF HON. G.K. BUTTERFIELD

    Mr. Butterfield. Thank you.
    Let me thank you, Mr. Chairman, and to the Ranking Member, 
colleagues, thank you very much for letting me come by today 
and give you some information about a bill that I recently 
introduced. You have been very courteous in doing this.
    Mr. Chairman, I think all of us can agree that we owe our 
veterans every opportunity to get a quality education and enter 
the workforce with the tools needed to compete. These returning 
heroes face an inequity that forces those who attend public 
colleges to pay more out of pocket in tuition than veterans who 
attend private schools.
    This inequity has caused many veterans to drop out of 
college, transfer, or assume tremendous financial burdens to 
attend school. My bill, H.R. 3483, the Veterans Education 
Equity Act, addresses this problem by granting veterans equal 
benefits to attend any public or private institution.
    In January 2011, the Post-9/11 Veterans Educational 
Improvements Assistance Act became law reducing education 
benefits for veterans and separating education benefits for 
veterans who attend public institutions from veterans who 
attend private institutions.
    Before that act was passed, veterans could receive tuition 
and fee benefits up to the amount charged by the most expensive 
public institution in each state. Now, the education benefit 
for a veteran attending a private institution is capped at 
$17,500. The education benefit available to a veteran who 
attends a public institution is capped at the in-state tuition 
which is often less than $17,500.
    So often veterans who attend private institutions are 
eligible for more education benefits than those who attend 
public institutions.
    At East Carolina University, which is in my district, in-
state tuition and fees are $5,300 per year. Out-of-state 
tuition and fees are $17,900 per year.
    Under current law, a veteran with North Carolina residency 
attending this school would have his full tuition covered. A 
veteran who is not a resident of my state would be charged 
$17,900, but would only receive $5,300 in education benefits.
    So he or she would owe $12,500 out of pocket. However, if 
that veteran chose to attend a private institution which costs 
$17,900, he or she would receive $17,500 in education benefits 
and only pay $400 out of pocket.
    That is unfair, Mr. Chairman. There are 516 veterans at 
University of North Carolina institutions and 715 veterans at 
North Carolina community colleges who would be immediately 
assisted by this law.
    Air force veteran Ed Bailey who attends ECU received GI 
benefits to cover full tuition and fees for his first academic 
year only to face $6,000 in charges in the fall of 2011 after 
the bill passed. With five semesters left, this young veteran 
must pay $30,000 over the next two years or continue his 
education elsewhere or discontinue it completely.
    If we do not correct this problem, up to 30,000 veterans 
could face paying as much as $75,000 in out-of-pocket tuition 
costs in a tough economy and at a time when 13 percent of 
veterans are unemployed.
    Finally, we must continue to invest in the Post-9/11 GI 
Bill to provide timely educational benefits to enable each 
veteran to attend the institution of his or her choice. Let's 
treat all of our veterans fairly by passing the Veterans 
Education Equity Act out of this Committee and helping it 
become law.
    I respectfully ask for bipartisan support on this bill. 
Thank you. I yield back.

    [The prepared statement of Hon. G.K. Butterfield appears in 
the Appendix]

    Mr. Bilirakis. Thank you, Mr. Butterfield. Appreciate that 
very much.
    With us today, we have Mr. Richard Weidman from the Vietnam 
Veterans of America.
    Welcome, sir.
    And also Mr. Ryan M. Gallucci from the VFW.
    Welcome, sir.
    And we have Mr. Steve Gonzalez from The American Legion.
    Of course, welcome.
    And, finally, we have Mr. Jason Thigpen from the Student 
Veterans Advocacy Group.
    Thank you very much for being here, for your testimony. And 
we will begin with Mr. Weidman.
    You are recognized, sir, for five minutes. Thanks so much 
for being here.

STATEMENTS OF RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY 
 AND GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; RYAN M. 
   GALLUCCI, DEPUTY DIRECTOR, NATIONAL LEGISLATIVE SERVICE, 
    VETERANS OF FOREIGN WARS OF THE UNITED STATES; STEVE L. 
GONZALEZ, ASSISTANT DIRECTOR, NATIONAL ECONOMIC COMMISSION, THE 
 AMERICAN LEGION; JASON R. THIGPEN, CO-FOUNDER AND PRESIDENT, 
                STUDENT VETERANS ADVOCACY GROUP

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Mr. Chairman, thank you for the opportunity to 
present the views of Vietnam Veterans of America here this 
morning.
    I will work down through the list and summarize most of the 
major points.
    In regard to H.R. 3329, VVA does favor this bill and I will 
leave others to elaborate on reasons for it.
    H.R. 3483, the Veterans Education Equity Act of 2011, VVA 
has no objection to this bill.
    H.R. 3524, the Disabled Veterans Employment Protection Act, 
that was introduced by Mr. Braley, we believe that this is a 
strong bill and it is important that anything we can do to 
protect the rights of veterans and to extend periods 
including--because there are many reasons why people are not 
ready for school when they first come out.
    The PEW Charitable Trust recently, actually last week, 
published a report that showed the difficulty extending for 
years for some of those, particularly combat vets who return.
    H.R. 3610, Streamlining the Workforce Development Programs 
Act of 2011, let me comment that VVA staunchly opposes 
eliminating any of the tiny but effective worker training 
programs at the Department of Labor.
    Veterans comprise 14 percent of the labor force. Veterans 
receive .2 percent of the Workforce Investment Act monies.
    The myth is that VA does everything for everybody and the 
answer to that is it is not true. If you are not service-
connected, they cannot even help you with voc rehab. So it is 
important that we have access to those programs.
    Particularly HVRP or Homeless Veterans Reintegration 
Program is far and away the most cost-effective, most cost-
efficient grant administered by or through the Department of 
Labor. It is a results-oriented program where if they do not 
make the placements, they do not get the money. And it is more 
accountable and a cost per placement that is about a fifth of 
that which is the mean average of cost of placements in other 
programs at Labor.
    So we would be opposed to moving that because many of the 
recipients, most of the recipients actually of those HVRP 
grants are also multi-service agencies that help homeless 
veterans. And those 1,200 faith-based and community-based 
organizations are absolutely essential. Because they operate on 
a shoestring, the only way they can come up with a match for 
the VA's Grant and Per Diem Program is if they are successful 
in administering and scoring and then again getting the 
following year renewed HVRP.
    And if both of them are at VA, then they do not have any 
match and, therefore, would be frozen out of the game. So if we 
can circumvent that, we would not have exactly the same 
problems.
    The Jobs for Veterans Act of 2002 supposedly gave veterans 
priority of service in all Workforce Investment Act programs. 
However, regulations implementing most of that act were not 
published until December of 2008. It took over six years for 
them to even promulgate the draft regulations. The regulations 
became effective in calendar year 2009, program year 2008.

    [The attachment appears in the Appendix]

    Mr. Weidman. And I just call your attention to a chart that 
we have put together because Labor does not put it together of 
the number of disabled vets who have participated in Workforce 
Investment Act.
    And in Iowa, there were a total of seven in that 12 months. 
That is seven out of 28,849 adults served with Workforce 
Investment Act.
    In the State of Minnesota, there were 29 veterans served 
out of 45,000 adults served.
    And the figures are even tougher for where the unemployment 
among vets is which is the young group of under 24.
    Under 24 in the State of Minnesota, out of 3,897, only 
three veterans were served in the whole state.
    For the State of Florida, for the same period, only four 
disabled veterans were served out of 18,686 adults served.
    That under anybody's definition does not qualify for 
priority of service and it is clear to us anyway that--and 
incidentally, the overall vet figure for the State of Florida 
was 77 veterans out of 207,000 adults served by Workforce 
Investment Act.
    My point is this. If we are going to have laws, then they 
need to mean something because these are not just stats of 
whether or not somebody scored in a game. This has to do with 
whether or not these veterans can have a shot at having a 
decent life and getting retrained for the job force that is 
available today in their area. And it has been a dismal 
failure.
    In addition to what is already contemplated being moved 
over to VA, if Labor cannot turn that around, then I would 
suggest that 14 percent of all Workforce Investment Act and any 
other training dollars at the Department of Labor be moved over 
under the deputy under secretary of VA for economic opportunity 
because clearly Labor does not care about us.
    Labor is not taking the actions they should be taking to 
make sure that the state workforce development agencies 
implement veterans' priority of service and, yet, the services 
are very much needed, particularly by our returning veterans.
    I see I am over time and I thank you for your indulgence. 
And I would be happy to answer any questions. Thank you very 
much for holding this hearing and your strong leadership of all 
the Members of this Committee.

    [The prepared statement of Richard F. Weidman appears in 
the Appendix]

    Mr. Bilirakis. Thank you, Mr. Weidman. Appreciate it very 
much.
    Now we will recognize Mr. Ryan Gallucci from the VFW.
    You are recognized, sir, for five minutes. Thank you.

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Thank you, Mr. Chairman.
    Chairman Bilirakis, Ranking Member Braley, and Members of 
the Subcommittee, on behalf of more than two million members of 
the Veterans of Foreign Wars and our auxiliaries, I want to 
thank you for the opportunity to share our thoughts on today's 
pending legislation.
    With Iraq drawing to a close, withdrawal from Afghanistan 
on the way, proposals to scale back the active duty and 
continued high unemployment among today's veterans, the VFW 
believes economic opportunity for today's war fighters remains 
a national imperative.
    I hoped to quickly discuss VFW's position on each of 
today's bills, but in the interest of time, my remarks will 
first focus on H.R. 3610, 4072, 4052, and 4057, and I invite 
the Committee to review my full remarks which have been 
submitted for the record.
    The VFW opposes H.R. 3610 and encourages the Committee to 
take the appropriate steps to preserve veterans' workforce 
development programs through H.R. 4072.
    H.R. 3610 seeks to effectively terminate DoL veterans' 
workforce development programs leaving states to carry out 
similar programs on an ad hoc basis. The bill would also reduce 
oversight of veterans' programs by limiting audits to once 
every four years rather than today's annual requirement.
    With this in mind, the VFW supports H.R. 4072 which would 
move current DoLVETS' programs to the jurisdiction of VA. The 
VFW believes by placing all veterans' services under a single 
authority, we will improve oversight and efficiency.
    However, the VFW has concerns regarding implementation 
should either H.R. 4072 or 3610 become law.
    First, VFW requests clarity on TAP inclusion within the 
jurisdictional shift. Next if DVOP and LVER positions should be 
consolidated, training must be modified to ensure that all 
employees are fully trained to the new standard.
    The VFW also seeks assurances that no jobs would be lost in 
combining DVOPs and LVERs.
    Congress must also protect funding for DoLVETS' programs 
through H.R. 4072 should H.R. 3610 gain momentum.
    The VFW believes the shift from DoL to VA will ultimately 
ensure better services for veterans. However, any transition of 
authority must happen with minimal interruptions for the 
veterans who rely on the services and the employees who deliver 
them.
    Next the VFW supports the concept behind H.R. 4052, but has 
some concerns about specific evaluation metrics and 
implementation.
    The VFW recommends that VA offer a comparison of degrees 
conferred by a school or transfers when applicable to its total 
student body rather than graduation rates.
    The VFW also has concerns over SOC membership and Yellow 
Ribbon which we outlined specifically in our prepared remarks.
    The VFW would need assurances that VA would not preclude 
quality schools which diligently serve their student veterans, 
but either do not wish to sign on to SOC for academic reasons 
or do not need to participate in Yellow Ribbon.
    The VFW would also recommend specific caps on the number of 
schools that VA could recognize in an effort to mitigate 
confusion.
    Next the VFW wants to thank Congressman Bilirakis for 
introducing H.R. 4057, a bill that reflects the ideas put forth 
by the VFW and a broad coalition of veterans' advocates and 
education stakeholders.
    In light of recent Senate investigations and threats to the 
GI Bill, the VFW believes it is a top priority for VA to ensure 
that potential student veterans are well prepared to make a 
responsible educational choice.
    Post-9/11 GI Bill stands to be a transformative benefit for 
our Nation's heroes which is why student veterans must have 
reasonable access to counseling on how to best use the benefit 
and have recourse should they become victims of fraud, waste, 
or abuse.
    In addition to mandating a VA action plan to improve 
consumer education, the VFW would prefer to see Section 3697A 
of Title 38 also amended to ensure counseling for student 
veterans changes from a labor intensive opt in to an opt out 
model.
    GI Bill success story Senator Frank Lautenberg is currently 
drafting legislation in the Senate to improve student veteran 
consumer education. We encourage the Subcommittee to work with 
the senator to build a comprehensive bill that can move quickly 
and help fulfill the promise we made to offer quality education 
to our Nation's heroes.
    The VFW supports H.R. 3329. However, the delimiting date 
for voc rehab must be eliminated altogether. The obligation to 
ensure our service-disabled veterans are employable has no 
expiration date.
    The VFW supports H.R. 3483 to ensure equitable 
reimbursement for all public school students, student veterans. 
Today's nonresident students deserve an equitable benefit 
without ridiculous out-of-pocket burdens.
    The VFW also supports H.R. 3524, but we have concerns about 
how employers may respond to the length of time outlined in 
this bill and ask the Committee to responsibly discuss an 
appropriate timeframe.
    We also continue to call on the VA to adapt its scheduling 
practices taking into account the life demands of today's 
veterans. Veterans who have earned the right to receive care at 
VA must not be punished in the workplace.
    The VFW supports H.R. 3670. After 9/11 standing up TSA 
required certain exemptions, but ten years later, it is time to 
close the USERRA loophole. Both our veterans and TSA stand to 
benefit from this bill.
    The VFW supports H.R. 4048 ensuring that VA and all Federal 
agencies comply with veterans' contracting preference.
    VFW also supports H.R. 4051. Servicemembers have no way to 
reasonably anticipate all of the challenges they may face once 
they transition into civilian life which makes TAP after 
separation critical.
    I think I was able to cover everything. Chairman Bilirakis, 
Ranking Member Braley, this concludes my statement, and I am 
happy to answer any questions you may have.

    [The prepared statement of Ryan M. Gallucci appears in the 
Appendix]

    Mr. Bilirakis. Thank you, sir.
    Mr. Gonzalez from The American Legion, you are recognized 
for five minutes, sir.

                 STATEMENT OF STEVE L. GONZALEZ

    Mr. Gonzalez. Good morning, Mr. Chairman and Ranking Member 
and Members of the Subcommittee. Thank you for this opportunity 
for allowing me to present The American Legion's view on 
several pieces of legislation being considered by the Committee 
today.
    The Streamlining Workforce Development Programs Act of 2011 
aims to consolidate and streamline redundant and ineffective 
Federal workforce development programs to increase 
accountability, reduce administrative bureaucracies, and put 
Americans back to work.
    The legislation consolidates 33 programs into four funding 
streams of workforce investment funds. One of great concern is 
the veterans' workforce investment fund which will provide 
formula funds to states for employment and training services to 
America's veterans.
    The bill authorizes $218 million annually for fiscal year 
2013 through 2018. In comparison to the other three investment 
funds, the veterans' workforce investment fund will be 
underfunded, ill-equipped, and a disservice to America's 
veterans utilizing this program to reenter the workforce.
    Even though the key provision of this legislation is to 
address the overlapping programs provided by the Federal 
Government, it does little, if anything, to address the 
differences in eligibility objectives and service delivery to 
their respective clients, in this case America's veterans. The 
American Legion opposes this bill.
    The American Legion, however, does support H.R. 4072, 
Consolidating Veteran Employment Services for Improvement 
Performance Act of 2012 which aims to improve employment 
services for veterans consolidating various programs in the 
Department of Veterans Affairs.
    Our country's economic and social environments have changed 
dramatically. However, the policy and operational direction 
governing the provision of employment services to veterans 
remain from an earlier era. Veterans' employment services as 
they are now organized and delivered will not be adequate or 
effective for helping servicemembers and veterans find jobs in 
the 21st century.
    If priority of service is intended to enhance a veteran's 
probability of securing gainful and meaningful civilian 
employment as he or she transitions from the military, then the 
emphasis must be placed on priority of delivering service at 
the time of transition.
    The American Legion supports placing all of DoL vets' 
programs dedicated to serving veterans under Department of 
Veterans Affairs, in turn increasing the coordination between 
the various education, rehabilitation, and employment programs 
whose sole goals are to enable veterans to successfully compete 
in the workforce.
    Veterans' employment services need to be totally 
reengineered to meet the new reality of a highly automated, 
integrated, and consumer focused environment.
    Lastly, The American Legion supports H.R. 4057, Improving 
Transparency of Education Opportunities for Veterans Act of 
2012. One of the biggest hurdles veterans face is the 
information that is disclosed is provided through so many 
formats and descriptors as it renders this information all but 
useless for consumers who wish to compare colleges. Higher 
education information has to be positively provided to 
consumers in a manner that explains both its meaning and how to 
use it.
    Second, state approving agencies are the boots on the 
ground in the area of oversight and outreach for the GI Bill. 
If the state approving agencies are to provide service in this 
area, VA must work with the SAAs to secure adequate funding to 
provide such services.
    Requiring the VA to report clear, concise consumer data to 
veterans is the minimum necessary action for policymakers to 
take if they want higher education information to have any 
impact on consumer choice. And H.R. 4057 does just that.
    This concludes my testimony. The American Legion 
appreciates the opportunity to comment on the bills being 
considered by the Subcommittee. I will be more than happy to 
answer any questions you might have. Thank you very much.

    [The prepared statement of Steve L. Gonzalez appears in the 
Appendix]

    Mr. Bilirakis. Thank you very much.
    And now Mr. Jason Thigpen from the Student Veterans 
Advocacy Group.
    Sir, you are recognized for five minutes.

                 STATEMENT OF JASON R. THIGPEN

    Mr. Thigpen. Thank you, Chairman Bilirakis and Ranking 
Member Braley and distinguished Members of the Committee. Thank 
you for the opportunity to testify here in front of you today.
    Our efforts to assist and ensure veterans are able to 
utilize their earned education benefits as intended is an 
economical benefit to our local and national community.
    While the current economy causes us to make budget 
constraints, it would be short-sighted not to consider those 
who would be affected most when essentially taking educational 
opportunities and benefits away which are veterans, not 
foundations.
    This is simply not right, especially considering the only 
reason our Nation did not implement a draft on this War on 
Terror is because of the volunteer effort our servicemembers 
and veterans made.
    The unintended result of the adverse changes made to the GI 
Bill will most certainly be a detriment to the short and long-
term economic success of our Nation, the United States of 
America.
    The detrimental impact suffered by student veterans across 
North Carolina and approximately 40 other states due to the 
change in Federal law, the Post-9/11 Veterans Education 
Assistance Act of 2010 on January 4th of 2011. As a direct 
result of this change in law, thousands of student veterans and 
prospective student veterans alike face a never before issue of 
in-state residency for tuition purposes.
    In a sense, our active servicemembers and current student 
veterans who by and large had no idea their state of residency 
for tuition purposes would invariably be the determining factor 
as to whether they could afford much less attain the 
educational benefits promised to them for their sacrifices they 
made to protect our Nation.
    One student veteran e-mailed me stating after proudly 
serving my country for more time deployed than home with my 
family, while losing friends in Iraq, then moving my family to 
North Carolina for a better tomorrow, it is just not fair for 
my country to take the educational benefits from me, leaving me 
to have to move my family back to Washington and in with our 
family just so I could afford to pay the $10,000 a year out of 
pocket just to use my GI Bill. This is not the kind of 
principles I was taught from my time of service.
    As student veterans attending UMC Wilmington and North 
Carolina, as supporters for both our active servicemembers and 
veterans and as a disabled American veteran myself, I was 
nearly brought to tears during another student veteran saying I 
am supposed to graduate in December of 2012 and may not be able 
to now.
    Another student veteran e-mailing stating had it not been 
for close friends and family in the last few months helping me 
out, I would be living out of my car. That is simply not right.
    I met with student veterans across North Carolina system 
and now across the Nation.
    Three-quarters into the semester, another states I may have 
to drop out of school by week's end. I received an e-mail from 
the school's finance office that said I have a week to pay the 
balance of $3,500 I owe to the school while using my GI Bill.
    According to Public Law 111-377, the Post-9/11 Veterans 
Education Assistance Act of 2010, the Congressional Budget 
Office estimates a potential cost savings of $1 million over 
the 2011 to 2015 period and a savings of $734 million over the 
2011 to 2020 period.
    From the inception of the GI Bill in the 1940s, nearly 
eight million servicemembers were transformed from the 
educational benefits never known before. The yield to this was 
a $7.00 yield for every $1.00 invested into our veterans 
getting their education.
    According to a working group comprised of UMC system 
officials named UMC Serves in their April 2011 report to the 
President, veterans earn better grades and have a 75 percent 
graduation rate. With the exception of white males, veterans in 
all other races and gender groups earn more money than their 
non-veteran counterparts.
    Veterans start more small businesses. In general, veterans 
outperform non-veterans.
    To realize this potential, our state must actively and 
Nation must actively support military affiliated students and 
its system of public higher education. We want these students 
to choose our university system schools.
    Additionally, one must consider the estimated economical 
impact on our Nation expected to be $26.5 billion in 2013 due 
to our veterans getting their education.
    Setting aside the simple fact that the educational benefits 
were promised as in signing a promissory note which is past 
due, veterans just wanted to collect what was promised to them, 
getting their education, the outcome of which, by changing this 
law is many of our veterans will no longer be able to achieve 
their educational goals, leaving more unemployed, whereby 
owning fewer businesses directly resulting in an inverse 
effect, contradicting the economical forecast previously 
researched and authored, yielding a now negative return.
    Now we have an opportunity. Our group has done research 
within the budget to help offset the cost that this bill has 
been scored to cost at $137 million a year for the first three 
years. We found nearly $311 million within our budget that 
could more than cover the cost to offset this. This would be a 
positive economical impact on our Nation.
    Would you rather have our veterans going to school or 
staying in the unemployment line? I think that is simple.
    I am going to quote Theodore Roosevelt here and state a man 
who is good enough to shed his blood for his country is good 
enough to be given a square deal afterwards.
    Thank you so much.

    [The prepared statement of Jason R. Thigpen appears in the 
Appendix]

    Mr. Bilirakis. Thank you very much.
    And now I will recognize myself for five minutes to start 
the questioning.
    To all the VSOs on the panel, when Congress passed the 
Post-9/11 fixed bill that was authored in the Senate, it left 
about $700 million in mandatory offsets on the table, money 
they will never be able to use.
    I believe nearly every VSO, correct me if I am wrong, with 
the exception, of course, of the VBA, supported the PI 111-275. 
It appears that H.R. 3483 will require about $1.4 billion in 
mandatory offsets, an amount that would clearly be a challenge 
for this Committee to identify.
    My question is, why did your organizations support, if it 
did, why did it support legislation that reduced the tuition 
and fee payments for out-of-state veteran students like Mr. 
Thigpen here without a grandfather clause in the first place?
    Whoever would like to begin.
    Mr. Weidman. VVA did not support that and we said at the 
time it was going to do a terrible disservice to the students 
who moved or in any, many cases returned to where their family 
was or where their wife's family was from where they had legal 
residence at the time that they separated. And we said this is 
short-sighted and we were shouted down by some of our younger 
colleagues.
    And there oftentimes is some value in knowing the history 
and the history of the Cold War GI Bill is something that we 
knew very well because we lived through it. And that is reason.
    All of the things that are in incidentally, the 4057, are 
things that did exist when your father participated in getting 
the Cold War GI Bill passed lo many years ago and then 
required, because the same thing happened after Vietnam as is 
happening today with some both for-profit and some not-for-
profit schools, not being square with the veterans and putting 
out good information.
    So everything that that bill and more is asking for was 
done 40 years ago. So let's not go through a painful period 
where veterans are left with debt and/or have to drop out of 
school before we get to the point where we give people good 
intel.
    Without good intel, you do not make good decisions out in 
the battlefield and right now there is not good intel available 
to veterans about whether or not the school that is hustling 
them is, in fact, worth going to.
    But in any case, the fix on the tuition assistance, we said 
we had no objection, but it is more than that. We support it.
    Mr. Bilirakis. Thank you.
    Anyone else?
    Mr. Gonzalez. Sir, I recently just came into this new 
portfolio, overtaking this portfolio of The American Legion, 
overseeing now education. My predecessor prior to me was one of 
the advisors and why The American Legion supported it.
    Coming into this new role, I have been able to literally, 
as Mr. Weidman so highly suggested, is understanding what the 
history is, what has been some of the implications from the 
actual GI Bill, and what is happening throughout history.
    And that is why we are kind of looking at this from a 
different perspective now and actually analyzing what will be 
the best outcome for actually veterans within entering post-
secondary institutions, sir.
    Mr. Bilirakis. Okay. Anyone else want to comment?
    Mr. Gallucci. I want to build on what Mr. Gonzalez was just 
saying. At the time, I would have to look back through the 
VFW's testimony to see exactly what they said, but at the time 
I was working for another veterans' organization and I know 
that through our discussions, we were kicking and screaming 
about some of these changes to the Post-9/11 GI Bill.
    I am a student veteran myself. I graduated before the Post-
9/11 GI Bill went into effect. However, my brother uses the 
Post-9/11 GI Bill and is affected by these changes. And it is 
something that we need to be very vocal about and do the right 
thing now. And I think we have an opportunity to do that.
    Mr. Bilirakis. Thank you.
    Yes, sir.
    Mr. Thigpen. Our organization formed as a result of this. 
Myself as a student veteran in my senior year doubling in 
accounting and finance, I tend to get a little involved with 
analysis of matters such as this.
    I think our organization wants to make it clear that we do 
not believe that this was an intended impact or result having 
signed that law. We feel truly that this is an un--there is no 
way to forecast that this was going to be the impact felt by 
this.
    But distinguished Members of the Committee, we have an 
opportunity to be heroes again to our servicemembers and 
veterans and I think we should take that opportunity with your 
help.
    Mr. Bilirakis. Thank you very much.
    I do not want to go over my time because I believe we have 
votes at 11:30, so I will go ahead and recognize Mr. Braley for 
five minutes, the Ranking Member. Thank you.
    Mr. Braley. Thank you, Mr. Chairman.
    And, Mr. Weidman, thank you for the strong support that you 
and VVA have voiced for the Disabled Veterans Employment 
Protection Act.
    I want to come back to you and talk about the Disabled Vets 
Workplace Investment Act and specifically some of the 
observations you made about that.
    Mr. Gallucci, in our written remarks, you did address the 
VFW's support for my bill, but also raised some concerns about 
the potential effects on the businesses and corporations we are 
encouraging to employ veterans. So I just want to engage you 
briefly in that conversation because I get it. I know that 
employers are always concerned.
    But part of what we do in these legislation hearings is set 
the legislative history for bills that eventually get passed so 
that when people want to look back and divine the intent of 
Congress, they have a better sense of what we intended when we 
introduced this legislation.
    And what I am talking about in this bill is not a one-week 
vacation for disabled veterans for every month they have in the 
workforce. What we are talking about is the worst case scenario 
where disabled veterans like some of the ones I see at Walter 
Reed or at Bethesda with lifetime disabilities that are going 
to flare up at unforeseen moments when they are hopefully in 
the workforce and requires an accommodation for a worst case 
scenario that could take up to 12 weeks in a calendar year to 
accommodate.
    And I am assuming that you know people who are members of 
your organization who have had that exact problem occur to 
them.
    Mr. Gallucci. Well, thank you for the question, Congressman 
Braley.
    I do want to respond to that. You are absolutely right. I 
know personal friends who I deployed with who are affected by 
this and this has actually been a personal issue that I had to 
deal with in my own experiences as well.
    What the VFW is talking about here is to continue this 
discussion about what an appropriate period of time would be. 
We absolutely support your bill and we absolutely support the 
intent of what you are trying to do because this is a major 
problem for our veterans.
    What happens now is many times a veteran will go to a VA 
medical center and be prescribed with a long rehabilitative 
process. You need to come in once a week every week for the 
next six months in order to go through this intensive treatment 
program.
    For instance, one of the ones that comes to mind is 
prolonged exposure therapy for those who suffer from post-
traumatic stress disorder. Some of these appointments are only 
available during the day, say, well, you can come in from ten 
a.m. to noon on Wednesdays for the next six months, just as an 
example.
    And that can put an incredible burden on a servicemember 
who has to hold down a job at the same time. You can exhaust 
all of your sick leave within that time and there has to be 
accommodations made to allow them to go to those appointments 
to get the treatment that they are entitled to which is why we 
do support your bill.
    But what we were really trying to express is that we have 
an open and candid discussion about what the period of time 
would be and where an appropriate level would be because at the 
same time what we are trying to do is make sure that we see the 
veterans' employment crisis now, particularly for young 
veterans of Iraq and Afghanistan, and the last thing we would 
want is an unintended consequence where employers come back to 
this Committee and say, well, our veterans are not ready to 
enter the workforce, they come with all this extra baggage. And 
so we think it is an important discussion to have.
    Mr. Braley. And I welcome that conversation and want to 
thank you for your comments about your own personal experience 
and the people that you served with because one of the things 
we know is we want to encourage employers to do everything they 
can to address the alarming rate of unemployment among our 
veteran population.
    But at the same time, they deserve the protection for the 
sacrifices they have made and we should all be willing to have 
that conversation.
    Mr. Gonzalez, thank you and The American Legion for your 
support of this legislation.
    And, Mr. Thigpen, I want to talk to you about your 
observation because Mr. Walz and I represent states that were 
involved in the longest single deployment of any combat unit in 
Iraq and then their reward when they came home was to have the 
Pentagon cut their orders short deliberately by one, two, 
three, four, and five days so they would be denied the benefit 
of an additional measly $250 a month in additional educational 
assistance benefits under the GI Bill.
    And we went to war over that decision and got those orders 
changed and learned that nearly 20,000 National Guard members 
around the country had been denied that same benefit and were 
not even aware of it.
    So we appreciate your bringing light to this serious 
problem about how educational assistance benefits are impacted 
by the decisions we make and I want to thank you for your 
testimony.
    But before I leave, Mr. Weidman, I want to come back to you 
because can you tell us--you shared statistics from Minnesota, 
Iowa, and Florida about the low-level of participation rate for 
veterans in the Disabled Vets Workforce Investment Act.
    So based on your analysis of those rates, why is that? What 
is causing that to happen or not happen?
    Mr. Weidman. Well, there is a history behind why that 
particular clause made it into the Jobs for Veterans Act which 
was misnomered, by the way, in retrospect, of providing 
priority of service for veterans which means veterans go to the 
head of the line if they are otherwise eligible for that title 
or that program.
    And disabled veterans go in front of all the vets and the 
special disabled, meaning those with 30 percent or more 
service-connected disabled, go to the very end of the line. 
This is not rocket science stuff, but the states do not do it.
    OEO, the old Office of Economic Opportunity, was created 
because, frankly, racism in many of the job services and to 
reach populations who had been excluded. And it was not just in 
the southern states. And OEO transmogrified into MDTA or 
Manpower Development Training Act which transmogrified into 
SETA and which also then transmogrified in the Job Training 
Partnership Act and, hence, to today which is Workforce 
Investment Act.
    At the local level, even though they are starting to retire 
now, the people who ran those OEOs, MDTA offices were those of 
my generation who did not go. And you do not hear it much 
anymore, but people used to say to us, we asked them for their 
support, and they would say, well, you know, I mean, I oppose 
the war. I said what the hell makes you think that everybody 
who fought it supported it. Supporting the veterans is a whole 
different deal and that is why we had to start VVA.
    So the prejudice that was there within the society was 
strongest in ETA, Employment and Training Administration. That 
act of 2002 did many other things, many of which were really 
bad, only complicated and made worse a situation that was not 
very good, that led us to seek legislative remedy.
    So it is partly cultural and the other part of that is 
nobody has been checking for the last ten years. U.S. DoL does 
not do any checking, particularly the Employment and Training 
Administration.
    And the figures that I quoted to you, those have been 
brought to the very top or to the number two person who is the 
chief operating officer at U.S. DoL and it has been basically 
deep sixed and ignored and they are going to continue to ignore 
it until The Hill focuses their attention appropriately. Let me 
put it that way.
    Mr. Braley. Well, with that, I will yield back, Mr. 
Chairman, and I recommend to the Chairman that we conduct a 
future hearing on this important topic and that we see some 
significant change in those numbers.
    Mr. Weidman. That would be great. I also because there are 
so many important topics here today did not get a chance to 
point out the appendix to my statement. And I encourage you to 
look at that because not only did VVA sign that, but two of my 
colleague organizations, The American Legion and the VFW, also 
signed on to the Military and Veteran Students Educational Bill 
of Rights.
    And they are all simple things. They are all 
straightforward and it is information that should be required 
from every single educational institution that wants to receive 
government monies. If they do not want to comply, that is fine. 
Then you do not get any government money. But there should be 
standards that we hold people to and mostly it has to do with 
transparency and accountability.
    Mr. Bilirakis. Thank you, Mr. Weidman. Thank you.
    Now I will recognize Mr. Johnson for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    I would first like to say a few words about legislation I 
recently introduced, H.R. 4048, the Improving Contracting 
Opportunities for Veteran-Owned Small Businesses Act.
    This legislation is straightforward. It would clarify that 
small business provisions of the Veterans First Contracting 
Program, Public Law 109-461, pertain to contracts awarded 
through the Federal supply schedule or FSS for the purposes of 
meeting the percentage goal of contracting with service-
disabled veteran-owned small businesses.
    Past VA statements regarding the application of the small 
business provisions in Public Law 109-461 now codified in Title 
38, Section 8127 of the United States Code have created 
confusion regarding FSS purchases.
    My legislation would clarify that these small business 
provisions do apply to FSS purchases. It is not intended to 
expand the original intent of the law. By law, all Federal 
agencies are required to contract with SDVOSBs.
    In 1999, Public Law 106-50 established a goal of awarding 
three percent of Federal contracts to SDVOSBs. Additionally, 
executive order 13360 which was issued by President Bush in 
2004 requests that Federal agencies increase Federal 
contracting and subcontracting opportunities for service-
disabled veteran businesses. However, most Federal agencies 
have not reached this goal.
    Additionally, while the small business goal report for 2010 
reports 20 percent of VA contracts are with SDVOSBs, but Linda 
Fynn of VA OIG testified at the July 28th House Oversight and 
Investigation Subcommittee that, and I quote, although VA 
reported awarding 23 and 20 percent of its total procurement 
dollars respectively to VOSBs and SDVOSBs in fiscal year 2010, 
VA OIG projected that these figures were overstated by three to 
17 percent because of awards made to ineligible businesses.
    I strongly believe America would greatly benefit from 
contracting with more veteran-owned small businesses and I am 
hopeful that the clarification in H.R. 4048 will help to create 
more contracting opportunities for SDVOSBs.
    I would like to, in getting to my questions, I would like 
to thank the VFW and The American Legion for their support of 
my bill 4048.
    Mr. Weidman, I understand from your written testimony that 
the Vietnam Veterans of America are unsure of the intent of 
this legislation and which of your two interpretations may be 
correct.
    First question. Has my statement helped to clarify what the 
intent of H.R. 4048 is?
    Mr. Weidman. It does. And also, I had a long discussion 
with some of your staff about this and would be glad to discuss 
it directly with you, that if you do not make it abundantly 
clear in the Committee report that is referenced, if you will, 
in the black letter law, that then they give it to general 
counsel.
    And I do not know how much experience you have had in 
dealing with VA general counsel, but if they can goof it up, 
seemingly they do.
    Mr. Johnson. This is my first term, sir, and I can assure 
you that I have experienced that abundantly.
    Mr. Weidman. So what I am saying is in the Committee report 
to take out all the wiggle room in which case after having 
talked to Mike about the intent, we would strongly favor this 
bill.
    Mr. Johnson. Do you have any new concerns other than those 
you just stated about the legislation?
    Mr. Weidman. Well, it comes down to the biggest thing is 
not--I do not know how you address this, Congressman. The 
acquisition leadership believes it is not their mission to 
assist veteran-owned and service-disabled veteran-owned 
businesses, meaning it is not their mission, meaning not VA's 
mission. And so----
    Mr. Johnson. Why do you----
    Mr. Weidman. Sir.
    Mr. Johnson. I am going completely off script now because 
that dumbfounds me. It absolutely dumbfounds me that the VA 
does not think that it should be part of their mission to 
assist these businesses.
    Why do you think that would be true? Does that come from 
the top?
    Mr. Weidman. That does not come from the 10th floor. That 
comes from the chief of acquisitions that it is not their 
purview.
    Mr. Johnson. Okay. I will look forward to asking him some 
questions then at the appropriate time.
    Mr. Weidman. That would be great.
    Mr. Johnson. Mr. Thigpen, what other avenues--I am sorry 
for moving on, but I have got limited time--what other avenues 
has your group undertaken to resolve the out-of-state tuition 
issue for NC student veterans?
    Mr. Thigpen. Thank you, sir.
    We have been addressing this on a state level in North 
Carolina for approximately a year. Our organization formed in 
response to the change in law and we saw it was directly 
impacting our fellow student veterans actually at UMC 
Wilmington.
    Once we started to see further impact was actually felt on 
more than just a local level, actually throughout North 
Carolina, we had other student veterans reaching out to us 
seeking our assistance to help represent them with regard to 
their residency for tuition purposes which we have done. I wish 
we could get out there and represent every single one 
individually, but we simply cannot do it.
    We try to work with our state legislators. We have got a 
tremendous amount of support. Facts being what they are, we are 
here today trying to make sure that we do not leave any veteran 
behind. So to address this just on a state level in North 
Carolina, we would leave so many other states and so many other 
veterans nationwide behind in this. We want to see it happen on 
a Federal level. Let's take care of all of our student veterans 
in every state.
    Mr. Johnson. Mr. Chairman, I have additional questions, but 
I see my time is expired, so I will yield back.
    Mr. Bilirakis. Thanks so much.
    And I now recognize Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman.
    Thank each of you for being here again. This is one of the 
most enjoyable parts of this job is coming, learning. I 
appreciate the preparation that is put into this and it helps 
us understand and serve our constituents much better.
    And I kind of segue off to something Rick said. I also 
think this panel is very healthy for the way things are at. It 
is good to see a mix here of young veterans and slightly less 
young veterans, if you will.
    Mr. Weidman. I think you mean veterans who it is astounding 
that they stand up and take nourishment.
    Mr. Walz. Yes. I would include myself in that group. But I 
do want to thank you. I think it brings a real perspective and 
it brings a problem-solving ability to us that is sorely 
missing many times. So thank you for that.
    I wanted to get out and I struggle with this idea in how we 
make sure there is a fairness. My first concern is that 
fairness to those veterans to make sure they get the benefits 
they so richly earn, but making sure that we do get them a 
useable skill with their education, making sure we are 
investing all those dollars wisely for them and for the 
taxpayers so that they can take a place in society.
    And with that, I know that sometimes our blanket 
generalizations, there are some very good for-profit 
universities out there and there are some suspect ones. And we 
need to make sure that we are using a laser and a scalpel and 
not the ax, if you will, to make sure we are differentiating.
    And so I am really curious just maybe to hear, and I do not 
know, maybe start with you, Mr. Thigpen, and I know each of you 
have expertise in this across the board, just something as 
simple as how are we going to determine which institutions 
deserve awards for excellence in service because I am trying to 
get this all together and I love to be data-driven, but I would 
have to think my illustrious institution would probably be 
penalized because my undergraduate degree was the best six 
years of my life and I think they did a nice job.
    And I am wondering how when we make these determinations, 
how we did that. So, Mr. Thigpen, I know this is somewhat 
subjective, but just help me understand how you see it of how 
we would do this.
    Mr. Thigpen. Yes, sir. Thank you.
    And just for the record, I am on ten years right now, so I 
have got you beat there.
    With regard to H.R. 4052, 4057, we strongly support that. 
We cannot be here just to support our veterans in being able to 
properly use their GI Bill benefits through whatever 
institution they decide to go through. We need to make sure 
that there is transition not just in coming home and entering 
the college that they choose to get their higher education 
from, but we also need to make sure that there is further 
assistance in assisting them to transition into the working 
community alike. So these bills help ensure that that is going 
to be possible.
    I think what our organization has found by and large is 
that there needs to be a separate Committee for our 
institutions comprised of student veterans that are not 
accountable per se to an advisor or the institution itself for 
listening to their feedback and being bombarded with not being 
able to actually assist the student veterans that they purport 
to represent.
    You know, they need to represent the student veterans first 
and then so long as they are accountable to the system, doing 
things in the proper manner, I think that is going to be the 
only way we are going to actually be able to really service and 
assist our student veterans nationwide.
    In addition to that, our organization has started student 
vets and it is going to be a Web site portal to create 
consistency across the board nationwide for any veteran coming 
home wanting to go to school no matter what state they live in. 
It will be we call it a one-stop shop that they can submit 
every single form to whatever school they want to go to and 
have every opportunity to be able to see that.
    And that is going to create consistency across the board 
because that is going to be the last component that is left. If 
we can create consistency across the board for student veterans 
in Washington State, Ohio, Florida, Texas, Maine, we will 
ensure better success within the corporate community.
    Mr. Walz. Do you think, Mr. Thigpen, that we can get that? 
I want to be very clear. I would like to have this, you know, 
the good housekeeping seal of approval, if you will, that these 
are the places you can go. But I also want to be very fair as 
we put that stamp on folks because I think it could be very, 
very powerful on where it is at. And so I think you are right 
on how we get that.
    Rick, do you think it is VVA's, you know, ten principles 
here that you should adhere to and are graduation rates in some 
of these, you know, we want to be as objective as possible, but 
we also want to, and I know this, I hear from my veterans who 
say, you know, the reason I really like this school is their 
flexibility to work with us on this, they have been good about 
that?
    I mean, there are some intangibles here. And I see my time 
is up. If I could, maybe we will come back again. But, Rick, 
what do you think is----
    Mr. Weidman. Well, the statement that is appendix one was 
worked on by the veterans' organizations working with the White 
House and others over the course of about two months. So we put 
a lot of thought in it and a lot of work into it.
    And one of the things that is key is VA take the step 
forward. You can now go to www.va.gov and look up any hospital 
in the country, whether it is Minnesota or Indiana or any 
place, and you can look at all the various criteria about how 
this hospital is doing in each category. And you will get a 
yellow if it is caution, green if it is exceeding standards, 
and a red for that one if it is not meeting standards.
    There is no reason why that same technology, which VA 
already owns, cannot be applied and used on the VBA's part of 
the site and the educational services part of the site to make 
it clear and interactive.
    Right now if you look at that section, it is densely worded 
and it is like reading a credit card contract which if you have 
ever tried to do that, actually read it, I mean, you know, it 
will bore you to tears and you will fall asleep even though 
somewhere in there you know that you are getting the short end 
of the stick.
    And so they can make it appropriate to where younger 
veterans, and that is primarily who we are talking about, will 
have the information and then look further. And that is where 
it should happen.
    And VA's job is to make all of that disclosure readily 
available to any member of the veterans' community or their 
families because it is families can use the 21st GI Bill, 21st 
century GI Bill if a veteran does not want to and spouses also 
it would be available to.
    Thank you, sir.
    Mr. Walz. No, I appreciate that.
    I yield back, Mr. Chairman. Thank you.
    Mr. Bilirakis. Thank you, Mr. Walz. I appreciate it very 
much. And thanks for the information and I know we will have 
further discussion on this.
    I welcome you to come to my office and discuss this with me 
and most of the Members have a lot of interest in this area. So 
it is a priority for us.
    Mr. Braley. Mr. Chairman, can I just make----
    Mr. Bilirakis. Yeah, go ahead.
    Mr. Braley. --one brief observation that came out of Mr. 
Thigpen's testimony? And that is in the State of Iowa right now 
any veteran is eligible for the in-state tuition. And you 
mentioned that this effort is ongoing in North Carolina. So 
while we have a responsibility to address this at the Federal 
level, there is nothing preventing states from taking action on 
their own to do the right thing by veterans.
    Mr. Thigpen. You are exactly right. We have been saying the 
same thing. If a state is going to purport and sell itself to 
be military friendly, we need to hold them accountable to that.
    Mr. Braley. Absolutely.
    Mr. Thigpen. We are still working on that. The facts speak 
for themselves. North Carolina has not done it yet. We are 
seeking your assistance. You guys get to be the heroes here.
    Thank you.
    Mr. Bilirakis. Thank you.
    I thank the panel and I ask the second panel to come 
forward. This panel is comprised of the Honorable Steve 
Gunderson who is a former Member of this body and is now the 
president and CEO of the Association of Private Sector Colleges 
and Universities.
    And we will also hear from Dr. Allen Sessoms who is the 
president of the District of Columbia who is representing--I do 
not know if that is right here in the script, but the president 
of the District of Columbia who is representing, I guess the 
University of District of Columbia. He is representing the 
American Association of State Colleges and Universities.
    And now we will begin with Congressman Gunderson. Thank you 
very much.
    And I know we are supposed to have votes around 11:30, so 
hopefully we can at least finish up with the testimony.
    You are recognized, sir.

 STATEMENTS OF STEVE GUNDERSON, PRESIDENT AND CEO, ASSOCIATION 
 OF PRIVATE SECTOR COLLEGES AND UNIVERSITIES (APSCU); ALLEN L. 
 SESSOMS, PRESIDENT, UNIVERSITY OF THE DISTRICT OF COLUMBIA ON 
     BEHALF OF: AMERICAN ASSOCIATION OF STATE COLLEGES AND 
                      UNIVERSITIES (AASCU)

                  STATEMENT OF STEVE GUNDERSON

    Mr. Gunderson. Mr. Chairman, thank you very much.
    And I want to begin with two personal comments, if I might. 
First of all, I have to say to you, Mr. Chairman, I had the 
honor and privilege of working with your dad. And you are 
continuing his legacy of service in this particular area and I 
just got to commend you. He was a dear, dear friend when we 
were both here and really think a lot of that.
    Second, I need to tell all of you, I need to say thank you. 
While I sit here, my 87-year-old father who is a veteran is 
being cared for in the VA hospital in Tomah, Wisconsin with 
pneumonia and congenital heart disease at this moment. And so 
on behalf of my family, we say to all of you thank you for what 
you do for these particular veterans.
    On behalf of the association and the roughly 230,000 
veteran students who choose to attend private-sector colleges 
and universities using their Post-9/11 GI benefits, I want to 
thank you for this opportunity to support all of the 
legislative issues that are in front of you.
    We have looked them over and there is only one concern that 
we have. And I have been motivated by listening and learning 
myself because the one issue that I think we have to look at on 
this issue that Congressman Walz brings up which is the 
graduation rates, it really indicates the problem.
    And I am veering totally off my prepared testimony here. It 
really indicates the issue and the challenge for serving 
veterans properly.
    If you would have your staff go to the Chronicle on Higher 
Education, this week's issue, it is focused on graduation 
rates. But when you look at that data, it is for all students.
    The Department of Education calculates graduation rates 
based on first-time, full-time students. Most of our veterans 
are not first-time, full-time students. They are veterans. They 
are returning to school after their military service. And so 
they do not even come into the calculations for what these 
graduation rates are.
    So we stand ready to work with all of you to find ways in 
which we can develop the information that is easily understood 
and correctly used by veterans to make the right determinations 
on where they should pursue their education.
    I would also like to recognize the VFW. And you have all 
been aware of the coalition that was brought together on this 
issue of veterans' education. The VFW needs a special 
commendation for bringing a rather diverse group of us together 
around a common issue. And I think that becomes important.
    It is important also, I think, to recognize something about 
the veterans and the ability of all post-secondary education to 
provide a quality education. It is meaningless if it does not 
also provide their objective which is job placement, one of 
those issues you have just been talking about.
    Today, as you know, our country has an 8.3 percent national 
unemployment rate, yet veterans' unemployment rates are much 
higher than that, especially for the younger veterans.
    The key to narrowing this gap and reducing veterans' 
unemployment has to be an all hands on deck approach from all 
post-secondary education. We must be part of the solution and 
accountable for national experience and outcomes for all 
students, especially the veterans.
    Policymakers, those of you on that side of the dais, are 
tasked with a critical imperative to ensure that all 
stakeholders work collaboratively to provide our veterans with 
the tools and resources that they need to make the right 
decisions.
    The pivotal transition period as soldiers become students 
is often wrought with challenges. As a result, many veterans 
fail to achieve their academic goals. We believe the 
legislation in front of you begins this effort.
    Specifically many of the bills direct the secretary of the 
VA to develop a comprehensive policy to ensure that veterans 
have the tools necessary to make informed decisions about their 
post-secondary education.
    We believe the academic success of our veteran students is 
a shared responsibility for the VA, the student, and all of our 
institutions. The VA should ensure the veterans are provided 
with the information and resources. The veterans should use the 
information to make informed education decisions. And our 
institutions should provide the quality of education veterans 
deserve through their benefits.
    In closing, I want you to understand that the veterans' 
education is often different than that of the typical 18 to 24-
year-old who goes into college on a first-time, full-time 
basis. They appreciate, as you will see in my written 
testimony, the ability to have flexible and focused delivery of 
curriculum.
    I talked to this wonderful veteran, Alexander Garrido in 
Miami. He is returned from Iraq and he told me this story about 
the fact that he could have gone to the University of Miami, he 
could have gone to Florida International, USF. He chose one of 
the private-sector colleges. Why? Because it offered him the 
flexibility of scheduling and the focus of one course 
intensively at a time. And he said, Steve, he said, that is how 
I now learn. It is different than when I was in school.
    So we stand ready to work with all of you. We commend what 
you are doing, and I yield back the balance of my time or the 
28 seconds I exceeded.

    [The prepared statement of Steve Gunderson appears in the 
Appendix]

    Mr. Johnson. [Presiding] I thank the gentleman for yielding 
back.
    We will begin with questioning at this point. Oh, I am 
sorry. Dr. Sessoms, you have a statement. You are recognized.

                 STATEMENT OF ALLEN L. SESSOMS

    Mr. Sessoms. Thank you, sir.
    Chairman Johnson, Ranking Member Braley, and distinguished 
Members of the Subcommittee, I am Dr. Allen Sessoms, president 
of the University of District of Columbia, the only public 
institution of higher education here in our Nation's capitol.
    I am testifying on behalf of the American Association of 
State Colleges and Universities, commonly known as AASCU. AASCU 
represents 420 institutions and university systems across 49 
states, the District of Columbia, Puerto Rico, Guam, and the 
Virgin Islands.
    Thank you for holding this hearing and providing me the 
opportunity to present testimony in support of H.R. 3483, the 
Veterans Education Equity Act of 2011, introduced by the 
Honorable G.K. Butterfield of North Carolina.
    I ask that my testimony be entered into the record.
    If enacted, H.R. 3483 would remedy a serious inequity that 
currently exists under the Post-9/11 GI Bill Education Benefits 
Program.
    The current structure of the Post-9/11 GI Bill Education 
Benefits Program provides a tuition assistance benefit to a 
veteran who attends one of our country's prestigious public 
colleges or universities that is equal to the in-state tuition 
rate charged by the institution. This benefit is worth on 
average about $8,244 per year.
    On the contrary, if one of our veterans chooses to attend 
an out-of-state private institution, he or she will 
automatically qualify for up to $17,500 per year. Simply put, a 
veteran who chooses to attend a public institution is entitled 
to on average less than half of the benefit a veteran who 
chooses to attend a private institution receives.
    In addition to the disparate treatment of our veterans 
attending public versus private institutions, the current Post-
9/11 GI Bill benefit structure also asks our veterans to pick 
up the difference between in-state and out-of-state tuition.
    This can amount to over $13,000 per year in some states and 
averages $4,282 across the country. Not only are we providing 
our veterans with different tuition benefits depending on the 
type of institution they choose to attend, we are also asking 
them to pick up the tab if they choose to attend a public 
institution in a different state.
    In a metropolitan area such as the national capitol region 
where students regularly travel across state lines to earn 
their degrees, this significantly limits the number of 
institutions our veterans may realistically choose from.
    For example, veterans attending the University of District 
of Columbia but living in Maryland or Virginia are required by 
District of Columbia law to pay the nonresident tuition rate of 
$13,380. This amounts to $7,000 per year for a full-time 
baccalaureate student.
    The Yellow Ribbon Program does provide a $500 tuition 
assistance benefit to our nonresident veterans. However, this 
is only a fraction of a nonresident tuition premium.
    The current GI 9/11 Bill structure also harms those who 
have recently relocated to a state and enrolled in a state's 
public institution but do not yet qualify for in-state tuition. 
Many states have enacted minimum residency requirements that 
students must meet to be eligible for in-state tuition rates.
    For example, in the District of Columbia to receive the in-
state tuition rate, a veteran or any resident, citizen must 
reside in the District of Columbia for a full year to become 
eligible. This may cause a recently relocated veteran to put 
off pursuing a degree until he or she is eligible for a lower 
tuition rate.
    Passage of this bill is especially important at a time when 
unemployment for our veterans is extremely high. According to 
recent statistics from the U.S. Chamber of Commerce's Hire Our 
Heroes Program, unemployment for veterans age 18 to 24 is 30 
percent. For those in the national guard, it is 14 percent. 
These numbers are well above the national average.
    Our research has shown that individuals with more than a 
high school diploma are more likely to be employed. Passing 
H.R. 3484 will give our veterans a greater opportunity to 
select the post-secondary program and institution best suited 
for them and by doing so put them on a path to employment.
    As a grateful Nation, we are committed to providing our 
veterans with the maximum benefits they vitally deserve. Let's 
make sure we are also providing the flexibility our veterans 
need to use them.
    On behalf of the 420 members of the American Association of 
State Colleges and Universities, I urge Congress to pass the 
Veterans Education Equity Act of 2011 without delay.
    Thank you, Mr. Chairman.

    [The prepared statement of Allen L. Sessoms appears in the 
Appendix]

    Mr. Johnson. I thank the gentleman for yielding back.
    We will now begin with questioning for this panel and we 
will go as long as we can.
    What steps have your members taken to improve the amount of 
data that is collected on veteran students?
    Mr. Gunderson. Mr. Chairman, each of our schools tries to 
do that individually. We do not yet have collective data for 
all of our schools across the country.
    The one thing I can share with you is that earlier this 
week at our board meeting, we looked at our operating plan for 
the next year and the board said will you please find ways to 
lift up the data collection, the information and the service to 
the veterans as one of your priorities in the next fiscal year.
    So within the next year, I might be able to come back to 
you and say we have one central data collection point, but we 
do not have that today.
    As I also indicated, that is going to take a major 
investment because the data under the National Center for 
Education Statistics, the first-time, full-time, that is not 
the data we need to accurately reflect what these veterans are 
doing and what outcomes they have.
    Mr. Johnson. Okay. I thank the gentleman for his answer.
    And for the sake of time, I am going to submit the rest of 
my questions written. And I hope that the panel would respond 
in writing to those.
    I am going to yield now to Mr. Braley if he has questions.
    Mr. Braley. Well, I want to thank you both for testifying.
    And I am glad to hear you say, Mr. Gunderson, that the key 
is job placement because I think when we look at the alarming 
problem of unemployment with our Nation's veterans, the thing 
that we want to see happen no matter what type of educational 
institution they attend is that they have a job waiting for 
them at the end of their educational journey, whether it is six 
years in the case of Mr. Walz or ten years in the case of our 
previous witness.
    But one of the things that I guess I am going to ask you 
both is why haven't more states done what my state has done and 
said this is an important enough priority, we are going to make 
in-state tuition apply to every veteran regardless of where 
they separated?
    Mr. Sessoms. Let me try to answer it for the public 
universities. Every issue related to the funding of public 
universities has become exceptionally political in states. And 
it requires significant political will on the part of state 
legislators to do that.
    I would argue that in the case of Iowa, there may be more 
political will than there is in the case of, say, the District 
of Columbia where we had discussions just the beginning of the 
week and there is resistence to that. There is resistence to 
subsidizing out-of-state residents.
    I think it is very important to do that. We are pushing as 
a university to do that in significant cases, certainly in the 
case of veterans, but others as well. It is just a very hard 
political nut to crack right now in this economic environment.
    Mr. Braley. Well, just in response to your question, I can 
tell you it is not because we do not face those same economic 
pressures.
    Mr. Walz just showed me a headline from today that the 
University of Northern Iowa which is a regents institution ten 
miles from my home in Waterloo is cutting 70 academic programs 
in response to those economic pressures while at the same time 
taking on this responsibility of giving veterans an affordable 
choice.
    So I think that is the answer to critics who are standing 
in the way of doing the right thing by our veterans.
    Mr. Sessoms. Well, let me comment, Congressman. I can only 
agree with you. I think we want to do that, but we are 
politically constrained.
    I think the University of Northern Iowa, I know it very 
well, I know the president there, is also reviewing another 
dozen programs for restructuring because of the pressures. We 
are all doing that.
    I think it would be very helpful if a clear message was 
sent from Congress that this is something that they, in fact, 
would like to see nationally. That would sort of help give us a 
political push. But I can only agree with you.
    Mr. Braley. Do you know whether most state universities' 
tuitions are set by a governing board of some type or the state 
legislature or do they have the discretion individually to make 
this opportunity available to veterans?
    Mr. Sessoms. It is rare that the institution can treat 
residents and nonresidents in the same way. There is a law in 
general defined by the state. In very many cases, in fact, I 
would guess in half the cases, the tuition and fee structure is 
actually set by the state legislature.
    It is rare that an institution can set it itself, but it 
can not violate state law when it comes to residents and 
nonresidents. There is nothing an institution individually can 
do about that. It requires the state to make a determination 
that that is for these particular classes of students something 
that they will agree to across the board.
    Mr. Braley. Thank you, Mr. Chairman. I yield back.
    Mr. Johnson. The gentleman yields back. We will go to Mr. 
Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you both for your testimony, as I said, helping 
us understand this.
    And, Representative Gunderson, I wish the best for your 
father. St. Tomah is in my sphere of responsibility, so I get 
over there and look at that. It is a beautiful institution with 
committed staff. And I assure you your father will get the best 
care anywhere as he deserves.
    Mr. Gunderson. Well, you do not have to worry. He has been 
well served throughout his aging process by the Veterans 
Administration and we have no doubt about that. But thank you.
    Mr. Walz. And I do appreciate these comments. I concur with 
my colleague from Iowa. Contrary to popular belief, we share a 
lot of commonality from Minnesota and Iowa. And of the things 
we share is that 34th Division and those soldiers.
    And I would have to say something. As we are getting at the 
heart of this, because I, too, will echo that sentiment on job 
placement and career potential, of not just providing all the 
options and then a hit and miss and take it and decide that a 
couple years at a post-secondary was not the right way and you 
used your GI Bill and now you are going somewhere else.
    We know some of that is going to happen. It is personal 
choice, but something I think we could use more around here, 
and I will commend the states of Iowa and Minnesota and public/
private partnerships. We have got that same red bull division 
that Mr. Braley was talking about. They are deployed again. 
They are in Kuwait bringing the troops out.
    So they have been there on another year deployment, but 
this time we are not going to make the mistake we made last 
time. We already know that of that brigade combat team 511 of 
them are either going to go to school or unemployed. We are 
there matching them up right now in Kuwait this week as we 
speak with a job fair there, not once they get back, not once 
they had unemployment.
    Every one of those 511 will either be matched up with a 
proper institution and a proper track or they will have a job 
when they come back matched up with the employers. That 
database is there. It is a captive audience. The first 
sergeants and the commanders have assisted in that. That is the 
right proactive way to go.
    And I think the more information we push out trying to do 
that, as you are saying, and getting good data is certainly 
going to--well, it is to serve our veterans better, but let's 
just be brutally honest. It is going to save money in the long 
run too.
    And so I want to thank you both for being a part of this 
and helping. I think what I will do in the essence of time with 
the Chairman is submit questions if we have them and yield 
back.
    Mr. Johnson. I thank the gentleman for yielding back.
    And Members are encouraged to submit their questions in 
writing, and I thank the panel for being with us today.
    And you will get us answers to those questions, correct? 
Okay. Thank you.
    Without objection, so ordered.
    I now call up our third panel which includes Mr. Curtis Coy 
from the Veterans Benefits Administration. He is accompanied by 
Mr. C. Ford Heard from the Office of Acquisitions, Logistics 
and Construction and Mr. Keith Wilson from VA's Education 
Service.
    We also have Major General Ronald Young from the Department 
of Defense and Deputy Assistant Secretary Junior Ortiz from the 
Department of Labor.
    Let's start with Mr. McCoy. Oh, I am sorry. Mr. Coy. I 
apologize. Yes, Mr. Coy, you are recognized.

    STATEMENTS OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR 
 ECONOMIC OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS ACCOMPANIED BY: C. FORD HEARD, 
 ASSOCIATE DEPUTY ASSISTANT SECRETARY FOR PROCUREMENT POLICY, 
 SYSTEMS AND OVERSIGHT, OFFICE OF ACQUISITIONS, LOGISTICS AND 
    CONSTRUCTION AND KEITH WILSON, DIRECTOR, VA'S EDUCATION 
SERVICE; RONALD G. YOUNG, DIRECTOR, FAMILY AND EMPLOYER PROGRAM 
   AND POLICY, U.S. DEPARTMENT OF DEFENSE; ISMAEL ``JUNIOR'' 
  ORTIZ, DEPUTY ASSISTANT SECRETARY, VETERANS' EMPLOYMENT AND 
           TRAINING SERVICE, U.S. DEPARTMENT OF LABOR

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Thank you, sir.
    Mr. Chairman and other Members of the Subcommittee, good 
morning. I am pleased to be here today to provide the views of 
the Department of Veterans Affairs on pending legislation 
concerned with veteran education, employment, and small 
business contracting issues.
    Joining me today is Ford Heard, Associate Deputy Assistant 
Secretary for Procurement Policy and Mr. Keith Wilson, our 
Director of Education Services.
    I apologize for the delay in providing VA's testimony. As 
noted in my written testimony, VA defers to other departments 
and agencies on several bills.
    In my oral statement, I would like to highlight VA's views 
on the remaining bills.
    I want to begin by stating that every initiative has the 
admirable goal of assisting our Nation's veterans and 
servicemembers.
    H.R. 3329 would extend the period during which a veteran 
may be afforded a rehabilitation program under Chapter 31. VA 
supports extending the period of eligibility. Individuals may 
need voc rehab services during mid-life when disabilities 
worsen or when changing careers or later in life when in need 
of independent living services.
    By extending the period of eligibility, VA's Vocational 
Rehabilitation & Employment Program will be able to provide 
individuals who meet those eligibility entitlement criteria 
under Chapter 31.
    In addition, by extending the period of eligibility, VR&E 
Program will be in line with the Post-9/11 GI Bill period of 
eligibility.
    H.R. 3483, the Veterans Education Equality Act, would 
revise the formula for the payment of tuition and fees for 
individuals entitled to educational assistance under the Post-
9/11 GI Bill and pursuing programs of education at public 
institutions of higher learning.
    While VA supports the intent to provide payment equality or 
equity to individuals training under the Post-9/11 GI Bill, VA 
does not support this legislation as written.
    Separate rules for tuition and fee changes would add 
another level of complexity to the program for both 
beneficiaries and schools. We continue to receive complaints 
from beneficiaries regarding understanding exactly how much 
they will receive in tuition and fees under the Post-9/11 GI 
Bill.
    This bill would exacerbate that problem. We would be happy 
to work with the Subcommittee to satisfy what we understand to 
be the overall intent of the legislation.
    Although we regret we were unable to estimate cost of this 
proposal at this time, VA notes that any change in benefit 
levels would increase the total cost of the program and would 
necessitate the identification of offsets.
    H.R. 4048, improving contracting opportunities for veteran-
owned small businesses would amend Section 8127 by adding a new 
subsection providing for the purposes of meeting under 
Subsection A, the Secretary shall include the acquisition of 
goods and services through the use of Federal supply schedule 
of GSA.
    VA is continuing to analyze this legislation and will 
provide its views to the Committee when we complete that 
analysis.
    VA respectfully defers to the Department of Labor on the 
merits of H.R. 4051, the TAP Modernization Program, but we 
would note, however, that VA, of course, will be a component of 
those TAP briefings and as a result, there is a cost impact for 
VA that is noted in my written statement.
    H.R. 4052, Recognizing Excellence in Veterans Education 
Act, would establish an honorary education and veterans' 
education award to recognize institutions of higher learning 
that provide superior services to veterans.
    Mr. Chairman, we have seen some great examples of schools 
that have shown leadership and energy in providing great 
support and services to veterans. We think we should take 
opportunities to recognize those schools and that can be a 
model for others for what they provide to our veterans.
    We do have some concerns with some of the provisions of the 
bill as written, particularly the criteria with respect to 
Yellow Ribbon and the collection of graduation rates and some 
of that data. We would need additional resources as well to 
implement this legislation.
    4057, Improving Transparency of Education Opportunities for 
Veterans, would direct VA to develop a comprehensive policy to 
improve outreach and transparency to veterans and members of 
the armed services.
    VA supports providing veterans with better information 
about their educational opportunities, but does not believe 
legislation is necessary because policies and programs are in 
place already at VA, the Department of Education, and DoD.
    And we will continue to work with these agencies to enhance 
that level of data sharing and information sharing. As well, we 
are in the process of also revising our TAP Program as an 
initiative for both VA and DoD.
    4072, Consolidating Veteran Employment Services, would 
transfer a number of functions performed under program----
    Mr. Johnson. Mr. Coy, I apologize. We are going to have to 
take the rest of your testimony----
    Mr. Coy. Yes, sir.
    Mr. Johnson. --written, your time has expired, for the sake 
of time so we get all the testimony in.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Mr. Johnson. General Young, you are now recognized.

                  STATEMENT OF RONALD G. YOUNG

    General Young. Mr. Chairman, Ranking Member Braley, and 
distinguished Members of the Committee, thank you for your 
invitation to participate in this hearing and to share DoD's 
views on a number of pieces of legislation that have been 
introduced.
    In my capacity as the Director of Family and Employer 
Programs and Policy under the Assistant Secretary of Defense 
for Reserve Affairs, I have oversight into only one of the 
bills before your Committee today, but welcome the opportunity 
to provide you with the requested comments and concerns of the 
Department of Defense as a whole.
    The department has comments on four of the bills. The 
Department of Defense opposes a provision in House Resolution 
3610, a bill that would among other things repeal Section 509 
of Title 32, USC Code, the National Guard Youth Challenge 
Program of opportunities for civilian youth.
    Mandated by Congress since 1993, over 100,000 students have 
successfully graduated from the program with 80 percent earning 
their high school diploma or GED. On average, 26 percent go on 
to college, 20 percent enter the military, and the remainder 
join the workforce and career jobs. There are 33 youth 
challenge programs in 27 states and one territory across the 
country.
    The number of high school dropouts each year is a national 
security issue and can cost the American economy billions in 
lost productivity and earnings over the students' lifetime. The 
12 million students projected to drop out over the next decade 
will cost our economy more than $3 trillion.
    A recent RAND cost-benefit analysis study reported that the 
Youth Challenge Program generates $2.6 in benefits for every 
dollar spent on the program. The estimated return on investment 
in the Challenge Program is 166 percent. It is for those 
reasons that we oppose eliminating the Youth Challenge Program.
    H.R. 3670 would require the Transportation Security 
Administration to comply with USERRA. If legislation is passed, 
I am not aware of any cost the department would incur.
    Over the last three years, ESGR has handled about 20 USERRA 
cases that involve TSA. During this same period, 75 percent of 
all cases were resolved including administrative closures. In 
fiscal year 2011, eleven cases we handled and eight were 
resolved for a resolution rate of 73 percent.
    ESGR will continue to assess guard and reserve 
servicemembers employed by TSA in addressing all their USERRA 
issues.
    Furthermore, if 3670 were to amend Public Law 107-71, we 
are prepared to assist TSA with USERRA training materials and 
training opportunities for their supervisors and employees.
    Concerning H.R. 3524, the department does not oppose H.R. 
3524. However, we do suggest that the legislation further 
clarify the status of the persons that would be absent from 
positions with the Federal Government.
    My reading of the resolution speaks to them being in a 
furlough status or I believe a leave of absence status and 
perhaps a more appropriate status would be an administrative 
leave status that we would like to work with you on.
    Regarding H.R. 4072, the Department of Defense believes 
that the separating servicemembers including guard and reserve 
need effective services to help them successfully transition to 
the civilian workforce. However, DoD defers to Department of 
Labor and Veterans Affairs on the specifics of this bill.
    I thank you for this opportunity here today and for your 
support of our servicemembers, veterans, families, employers, 
and for the 4,800 ESGR volunteers across the country. I look 
forward to your questions.
    [The prepared statement of Ronald G. Young appears in the 
Appendix]
    Mr. Johnson. Thank you for your testimony, General Young.
    Mr. Ortiz, you are now recognized for five minutes.

              STATEMENT OF ISMAEL ``JUNIOR'' ORTIZ

    Mr. Ortiz. Good morning, Mr. Chairman, Ranking Member 
Braley, and distinguished Members of the Subcommittee. Thank 
you for the opportunity to appear before you today and to 
discuss the U.S. Department of Labor's view on pending 
legislation.
    I am Junior Ortiz, DoL's Employment and Training Service, 
and I would like to begin by apologizing to the Committee for 
the lateness of the department's testimony.
    While there are numerous bills on the agenda, my testimony 
will focus on H.R. 3524, 3610, 4051, and 4072.
    H.R. 3524, the Disabled Veterans Employment Protection Act, 
would extend certain protections under USERRA to individuals 
receiving treatment for service-connected disabilities.
    As directed or as drafted, the department has a few 
technical concerns regarding the bill's potential interaction 
with the Family and Medical Leave Act and USERRA's reemployment 
eligibility provisions.
    However, we look forward to working with the Subcommittee 
to better understand the intent of the legislation and to 
provide technical assistance.
    The next bill I would like to discuss is H.R. 3610. The 
bill repeals most of labor grants programs for veterans. These 
programs include the JVSG Program that funds DVOP's and LVER 
staff, the Transition Assistance Program, the Homeless Veterans 
Reintegration Program, and the Veterans Workforce Investment 
Program.
    In their place, the bill establishes a single veterans' 
workforce investment fund to provide states with resources for 
employment services to veterans.
    Disabled veterans currently get the intensive service they 
need from specialized DVOP staff. H.R. 3610 would repeal the 
DVOP Program without assuring that the same services will be 
provided by the remaining LVER staff that are included in the 
legislation.
    Similarly, repealing the HVRP programs could leave 
thousands of homeless veterans without the intensive service 
this program provides including veteran stand-downs, homeless 
female veterans, and Homeless Veterans with Families Program.
    If the bill is enacted, transitioning servicemembers and 
their spouses could also lose the valuable needed services 
provided by TAP.
    In 2011, DoL provided more than 4,200 TAP employment 
workshops generating 145,000 participants. This number is 
expected to increase dramatically as TAP becomes mandatory in 
the transition services under the VOW Act. However, this 
legislation would leave DoL without the authority or funding to 
fulfill the VOW Act mandate and to provide these needed 
services.
    In conclusion, the department has concerns of the potential 
impact H.R. 3610 has on veterans and looks forward to working 
with the Subcommittee to ensure that the veterans and others 
receive the high-quality service they need to succeed in the 
workforce.
    Next I would like to discuss H.R. 4051 which would 
authorize three-year grant program requiring DoL to provide TAP 
to veterans and their spouses on off-base locations. DoL has 
concerns with this legislation for the following reasons:
    To begin with, the current TAP employment workshops are 
designed specifically for transitioning servicemembers and 
their spouses. As a result, the curriculum is not appropriate 
for all veterans. However, one-stop career centers provide 
specific workshops for all veterans on resume writing, 
interviewing, and how to conduct job search.
    As such, the proposed legislation appears to be duplicative 
and we would look forward to working with the Subcommittee to 
identify any needed program improvements.
    Finally, I would like to discuss H.R. 4072 that would 
transfer most veterans' employment services and protection from 
the DoL to VA. Veterans' services are integrated into the 
larger DoL workforce system which includes over 2,500 one-stop 
career centers and veterans' services are provided by and with 
the support of numerous agencies within the department 
including ETA and OFCCP.
    In 2010, this system served over 1.7 million veterans 
ensuring priority of service were provided when doing so.
    Much of what DoL does for veterans and other eligible 
persons concentrates on maximizing the employment and training 
opportunities developed through our relationship with the state 
workforce agencies.
    DoL is also a worker protection agency with extensive 
experience protecting eligible veterans and servicemembers from 
discrimination under various statutes such as USERRA, VEOA and 
VEVRAA. The proposed legislation would transfer USERRA and 
VEVRAA responsibilities to the VA and would leave VEOA 
responsibility to DoL.
    The Veterans' Employment and Training Service in 
partnership with the Department of Labor agencies serves 
veterans and transitioning servicemembers by providing 
resources and expertise to assist and prepare them obtaining 
meaningful careers, maximize employment opportunities, and 
protect their rights.
    DoL looks forward to working with the Subcommittee and our 
partners to ensure that we provide effective assistance to 
veterans.
    Mr. Chairman, this concludes my statement and I would be 
happy to entertain any questions the Members may have. Thank 
you.

    [The prepared statement of Ismael ``Junior'' Ortiz appears 
in the Appendix]

    Mr. Johnson. Thank you, Mr. Ortiz.
    You know, I thank the members of the panel for their 
testimony. I find it astounding that with three weeks to 
prepare for this hearing the testimony of the Department of 
Labor and VA avoid taking a position on what is admittedly the 
most controversial bill on today's agenda, Chairman Miller's 
H.R. 4072.
    Mr. Coy says they are, quote, ready to discuss these 
organizational issues with the Subcommittee and our Department 
of Labor partners at any time.
    The Department of Labor after reciting a litany of 
services, VETS and other Department of Labor agencies provide 
to veterans, fails to identify any technical issue that would 
prevent a continuation of those services after VETS moves to 
VA.
    Secretary Ortiz concludes his testimony by saying the 
Department of Labor looks forward to working with the 
Subcommittee and our partners to ensure that we provide 
effective assistance to veterans.
    Gentlemen, that is exactly why we are here today.
    To summarize, VA fails to state whether they would like to 
assume responsibility for VETS and its programs and the 
Department of Labor fails to identify any substantive reasons 
why VETS and its Federal staff, programs, and funding would 
create havoc with veterans' employment programs under their 
auspices.
    Votes have just been called. For the sake of time, I am 
going to yield to the Ranking Member to ask a question. We will 
do one quick round and then we will submit additional questions 
for the record and ask the panel to respond in writing.
    With that, Mr. Braley, I yield to you.
    Mr. Braley. Thank you, Mr. Chairman.
    And, General Young, thank you for your testimony in support 
of the bill that I have pending before the Committee today.
    And we look forward to working with you to address the 
concern you have raised that specifically impacts 
classification of Federal employees. And my staff will follow-
up with you to talk about that.
    Mr. Ortiz, I appreciated your comments about that same bill 
in your written statement. And one of the things I was struck 
by in looking at the concerns you have identified is they seem 
very remarkably similar to concerns expressed before Congress 
passed the Americans With Disabilities Act, before Congress 
passed the Family Medical Leave Act.
    Anything that we do that impacts what employers do with 
their personnel, policies, and practices always sets off 
alarms. But I think that the purpose behind this legislation I 
have introduced is to stand up for veterans, disabled veterans, 
and make sure they are getting protections in the workplace 
that they have earned with their blood.
    So we look forward to working with your department as well 
and as we continue to work on this important legislation.
    With that, I will yield back.
    Mr. Johnson. I thank the gentleman for yielding back.
    Mr. Stutzman.
    Mr. Stutzman. Thank you.
    And I apologize I was not here for most of the hearing due 
to a budget meeting.
    But, Mr. Coy, I do have a question. When can we expect the 
final regulations for Public Law 11-275?
    Mr. Coy. That is the VRAP legislation, sir?
    Mr. Stutzman. The fix bill, the GI Bill.
    Mr. Coy. I am not prepared to answer that, sir. We will 
have to take that for the record and we will get back to you as 
quickly as we can.
    Mr. Stutzman. Okay. All right. And then in your testimony, 
you state that VR&E Service already has a commercial off-the-
shelf system that assesses the servicemember's readiness to 
attend post-secondary training.
    Would VR&E consider making this tool available to veterans 
on their Web site and is the use of this tool going to be part 
of any TAP Program?
    Mr. Coy. That tool, sir, that we have now is an off-the-
shelf product and we buy licensing for it for our VRE 
counselors. It is not really a good tool for someone to do a 
self-assessment or do it downloading from the Web.
    We are looking at a number of different sort of off-the-
shelf tools, but that particular VR&E tool we are looking at 
right now and trying to figure out how we could possibly use 
that with respect to sort of a bigger Web-based situation.
    With respect to the TAP Program, we are working very, very 
hard with DoD and Department of Labor of completely revamping 
the entire TAP Program and tools like that in terms of 
readiness assessments for our veterans and servicemembers as 
part of that new TAP.
    Mr. Stutzman. Okay. And then finally, do you know 
approximately how many veterans does VR&E turn away every year 
due to delimiting date expiration?
    Mr. Coy. We went back and looked at our records and it is 
on average about 500.
    Mr. Stutzman. Thank you. I will yield back.
    Mr. Johnson. I thank the gentleman for yielding back.
    And I would remind the panel we will be submitting 
additional questions that because of time and the voting 
schedule we are not going to be able to get to at this point. 
And we would ask the panel to respond to those questions in 
writing.
    In addition to our panels, we have statements for the 
record from Congressman Butterfield, Congressman McIntyre, the 
U.S. Transportation Security Administration, the Paralyzed 
Veterans of America, Disabled American Veterans, the Texas 
Veterans Commission, the North Carolina Community College 
System, Congresswoman Sanchez, Wounded Warrior Project, and 
Iraq and Afghanistan Veterans of America.
    I ask unanimous consent these statements be included in the 
record. Hearing no objection, so ordered.

    [The prepared statement of G.K. Butterfield appears in the 
Appendix]


    [The prepared statement of Mike McIntyre appears in the 
Appendix]


    [The prepared statement of U.S. Transportation Security 
Administration appears in the Appendix]


    [The prepared statement of Paralyzed Veterans of America 
appears in the Appendix]


    [The prepared statement of Disabled American Veterans 
appears in the Appendix]


    [The prepared statement of Terry ``T.P.'' O'Mahoney appears 
in the Appendix]


    [The prepared statement of Dr. R. Scott Rails appears in 
the Appendix]


    [The prepared statement of Wounded Warrior Project appears 
in the Appendix]


    [The prepared statement of Iraq and Afghanistan Veterans of 
America appears in the Appendix]

    Mr. Johnson. I would also ask that all members have five 
legislative days in which to revise and extend their remarks 
and include any extraneous materials associated with today's 
hearing. Again, hearing no objection, so ordered.
    I would like to recognize--well, we are not going to have 
closing remarks today for the sake of time.
    There being no further business before this Subcommittee 
today, we intend to hold a markup on some of these bills on 
March 29th, and with that, this hearing is adjourned.

    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. Marlin Stutzman, Chairman
    Good morning. Today, we will receive testimony on the following 
bills: H.R. 3329, introduced by our colleague, Ms. Linda Sanchez, H.R. 
3483, introduced by Congressman Butterfield, H.R. 3524, introduced by 
our Ranking Member, Mr. Braley, H.R. 3610, introduced by Ms. Foxx, H.R. 
3670, introduced by Congressman/Mr./Sgt Major Walz, H.R. 4048, 
introduced by another EO Subcommittee Member, Mr. Johnson, H.R. 4051 
and H.R. 4052, two bills I introduced, H.R. 4057, introduced by Mr. 
Bilirakis, and H.R. 4072, a bill introduced by Chairman Miller.
    Briefly, my first bill, H.R. 4051 sets up a pilot program to 
increase opportunities to attend the Transition Assistance Program by 
expanding TAP to offer classes at multiple off-base locations. My 
second bill, H.R. 4052 sets up a program to identify, through a list of 
criteria, schools that do a good job educating veterans.
    While I understand that some of the bills on today's agenda would 
make significant organizational changes to the Department of Labor and 
the Department of Veterans Affairs, the Committee, after provided 
copies of this bills to staff several days prior, provided a formal 
hearing notice to both Departments on Friday, February 17th, some 21 
days ago.
    And yet we did not receive VA's testimony under 6:38 PM last 
evening and Labor's testimony at 6:55 PM last evening. I find this 
unacceptable and while I understand that it may have been out of the 
control of today's witnesses I hope this situation is rectified in the 
future.
    I thank all the sponsors for their bills and I look forward to 
hearing from our witnesses on each bill. I would also ask unanimous 
consent to allow Members with bills before us today to join us on the 
dais for the purpose of presenting their bills. Hearing no objection, I 
will recognize them shortly for their remarks.
    I now recognize the distinguished Ranking Member for his opening 
remarks.

                                 <F-dash>
              Prepared Statement of Hon. Bruce L. Braley, 
                       Ranking Democratic Member
    The bills included in today's hearing seek to provide and improve 
veterans' benefits. These bills will increase access to education, 
provide employment protection for disabled veterans, extend vocational 
rehabilitation and employment benefits, and improve contracting 
procedures.
    This Subcommittee has been committed to improving employment 
opportunities for our nation's veterans. We've conducted oversight 
hearings and field hearings to examine the unemployment problems facing 
our nation's veterans and passed legislation to try and mitigate these 
problems. Yet, few times have we discussed the unique needs of those 
with service-connected injuries. That is why I am pleased to have 
introduced H.R. 3524, the Disabled Veterans Employment Protection Act, 
which seeks to provide service-connected disabled veterans with 
employment protections.
    H.R. 3524 would protect service-connected disabled veterans against 
employer discrimination while they seek treatment for injuries they 
sustained while in service or aggravated due to their military service. 
It would provide up to 12 weeks of unpaid leave in a calendar year. 
Currently Public Law 110-181, under the Family and Medical Leave Act, 
provides caregivers with up to 26 work weeks of unpaid leave in a 
calendar year for up to five years to care for their spouse, parent, 
child or next of kin who is a servicemember and sustained an injury or 
illness during service. While caregivers are given this much deserved 
protection, those that have been directly inflicted with an injury do 
not enjoy similar protections. It is time to remedy this inequity.
    I am also interested in making sure our veterans have good 
information when deciding to go back to college. I appreciate that 
Chairman Stutzman has introduced legislation that would recognize 
educational institutions that provide superior service to veterans, as 
well as improve the TAP program to include information about post-
secondary education.
    I also appreciate Rep. Bilirakis's legislation that would improve 
outreach and transparency for veterans regarding information about 
going back to school. I believe having clear and reliable information 
is essential in helping veterans make decisions about post-secondary 
education.
    I look forward to working with Members of this Committee to make 
sure our veterans are receiving unbiased advice on the use of GI Bill 
benefits and adequate information about schools they may want to 
attend. They have served their country and deserve to have the best 
education possible, including ongoing support once they are enrolled.
    Common sense legislation to provide employment protection for 
veterans who need medical treatment for their service-connected 
injuries or to provide complete information about educational 
opportunities is how we protect those who have volunteered to protect 
us.

                                 <F-dash>
              Prepared Statement of Hon. G. K. Butterfield
    Chairman Stutzman and Ranking Member Braley, thank you for the 
opportunity to testify before your Subcommittee.
    We owe our veterans every opportunity to get a quality education 
and enter the workforce with the tools needed to compete. These 
returning heroes face an inequity that forces those who attend public 
colleges to pay more out-of-pocket in tuition than veterans who attend 
private institutions. This inequity has caused many veterans to drop 
out of college, transfer, or assume tremendous financial burdens to 
attend school. H.R. 3483, the Veterans' Education Equity Act, addresses 
this problem by granting veterans equal benefits to attend any public 
or private institution.
    In January 2011, the Post-9/11 Veterans' Educational Improvements 
Assistance Act became law, reducing education benefits for veterans and 
separating education benefits for veterans who attend public 
institutions from veterans who attend private institutions. Before that 
act was passed, veterans could receive tuition and fees benefits up to 
the amount charged by the most expensive public institution in each 
state. Now, the education benefit for a veteran attending a private 
institution is capped at $17,500. The education benefit available to a 
veteran who attends a public institution is capped at in-state tuition, 
which is often less than $17,500. So, often veterans who attend private 
institutions are eligible for more education benefits than those who 
attend public institutions.
    The table below illustrates how my bill would improve current law 
by showing its impact on Post-9/11 GI Bill education aid available to 
veterans at three institutions in North Carolina:


----------------------------------------------------------------------------------------------------------------
                                                                                 Total out of      Total out of
                                                 In-state       Out-of-state   pocket cost for   pocket cost for
                 Institution                  tuition and      tuition and      non-resident      non-resident
                                            fees  2011-2012  fees  2011-2012    under current    under H.R. 3483
                                                                                     law
----------------------------------------------------------------------------------------------------------------
Elizabeth City State University (Public)             $3,828          $13,572            $9,744                $0
Elizabeth City, North Carolina
----------------------------------------------------------------------------------------------------------------
East Carolina University (Public)                    $5,317          $17,896           $12,579              $396
Greenville, North Carolina
----------------------------------------------------------------------------------------------------------------
Bennett College (Private)                           $16,794          $16,794                $0                $0
Greensboro, North Carolina
----------------------------------------------------------------------------------------------------------------

    At Elizabeth City State University (ECSU), in-state tuition and 
fees are $3,828 per year and out-of-state tuition and fees are $13,572. 
Under current law, a veteran with North Carolina residency attending 
ECSU would have his full tuition covered. A veteran who is not a 
resident of North Carolina would be charged $13,572 but only receive 
$3,828 in education benefits, so he would owe $9,744 out-of-pocket. At 
East Carolina University (ECU), in-state tuition and fees are $5,317 
per year and out-of-state tuition and fees are $17,896, so a veteran 
with North Carolina residency who attends ECU would have his full 
tuition covered. A veteran who is not a resident of North Carolina 
would be charged $17,896 but only receive $5,317 in education benefits, 
so he would owe $12,579 out-of-pocket. However, if that veteran chose 
to attend Bennett College which costs $16,794, his education benefits 
would cover full tuition and fees.
    There are 516 veterans at University of North Carolina institutions 
and 715 veterans in North Carolina Community Colleges who would be 
immediately assisted by this law. In my District, Air Force veteran 
Edward Bailey, who attends ECU, faced $6,000 in charges before classes 
began in fall 2011 after the Post-9/11 Veterans' Educational 
Improvements Assistance Act became law. He was forced to take out a 
$5,000 loan and borrow $1,000 from friends to stay in school. With five 
semesters of college left, he must find a way to pay for $30,000 in 
tuition and fees or continue his education elsewhere. Marine Corps 
veteran Nan Lopata, who also attends ECU, received GI benefits to cover 
full tuition and fees for her first semester in spring 2011, only to 
face $6,800 in charges before her second semester in fall 2011. She was 
unable to afford to continue as a full-time student, potentially 
delaying her graduation. Two other students attending ECU--James and 
Mary Murtha--received full tuition GI benefits for their first three 
academic years before receiving bills in fall 2011 totaling $38,000 to 
complete their senior years. Their father, active duty Marine Corps 
Colonel Brian Murtha, was forced to withdraw $36,000 from his 
retirement funds. We owe it to veterans and their families to protect 
the benefits they were promised when they joined our military.
    Veterans have limited options when their Post-9/11 GI Bill 
education benefits do not cover their expenses. Veterans may 
participate in the Yellow Ribbon GI Education Enhancement Program which 
can cover a portion of the tuition and fees that exceed the base Post-
9/11 GI Bill benefit where it exists. However, the Yellow Ribbon 
Program is only available at institutions which opt into agreements 
with the U.S. Department of Veterans' Affairs Veterans' Administration 
to match the amount not already covered by the basic Post-9/11 GI Bill. 
In North Carolina, only 7 out of 74 public institutions participate in 
the Yellow Ribbon Program, forcing many veterans to pay out-of-pocket 
tuition and fees that are not covered by Post-9/11 GI Bill education 
benefits.
    For those reasons, this bill has broad support including 57 
bipartisan cosponsors. Additionally, veterans' service organizations 
(VSOs) including the Student Veterans Advocacy Group (SVAG), Iraq and 
Afghanistan Veterans of America (IAVA), Veterans of Foreign Wars (VFW), 
the American Legion, American Veterans (AMVETS), American Military 
Retirees Association (AMRA), and the Armed Forces Foundation, have 
endorsed this bill. The bill is supported by the American Association 
of State Colleges and Universities (AASCU), the Association of Public 
and Land-Grant Universities (APLU), the Association of American 
Universities (AAU), the University of North Carolina System, and the 
North Carolina Community Colleges System.
    The Congressional Budget Office's (CBO's) preliminary cost estimate 
of H.R. 3483 is $1.4 to $1.5 billion over 10 years. When averaged, the 
annual cost would be only a 2 percent increase from the roughly $7.7 
billion spent on the Post-9/11 GI Bill in 2011. The CBO also provided a 
preliminary cost estimate if the bill were to include a 3 year sunset 
provision of $400 million over 3 years. The CBO's preliminary estimate 
also indicated that up to 30,000 veterans would benefit from this bill. 
I urge the Subcommittee to consider offsets based on efficiencies which 
do not compromise service or benefits for our veterans.
    Lastly, legislation to address inequities in tuition and fees 
benefits under the Post-9/11 Veterans' Educational Improvements 
Assistance Act is not unprecedented. In fact, Chairman Miller 
introduced H.R. 1383, the Restoring GI Bill Fairness Act, which exempts 
certain veterans who were enrolled in private colleges from the $17,500 
tuition cap. That bill made private institutions more affordable for 
veterans and unanimously passed the House before being enacted in 
August 2011. I encourage my colleagues to support this bill in similar 
bipartisan fashion, and I look forward to your Subcommittee's approval. 
If we do not correct this problem, up to 30,000 veterans could face 
paying as much as $75,000 in out-of-pocket tuition costs in a tough 
economy, and at a time when 13.1 percent of veterans are unemployed.
    Let's treat all of our veterans fairly by passing the Veterans' 
Education Equity Act out of Committee and helping it become law.


                                 <F-dash>
                 Prepared Statement of Richard Weidman
    Good afternoon Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the House Subcommittee on Economic 
Opportunity. On behalf of Vietnam Veterans of America (VVA) National 
President John Rowan and our officers and members, we thank you for the 
opportunity to appear today to share our views on H.R. 3329, H.R. 3483, 
H.R. 3610, H.R. 3670, H.R. 3524, H.R. 4048, H.R. 4051, H.R. 4057 and 
H.R. 4072.
    I ask that you enter our full statement in the record, and I will 
briefly summarize some of the most important points of our statement.
    H.R. 3329, introduced by Representative Linda T Sanchez [D-CA], 
extends from 12 to 15 years after discharge or release from active-duty 
service the authorized period for veterans with service-connected 
disabilities to enroll in certain Department of Veterans Affairs (VA) 
vocational training and rehabilitation programs.
    VVA favors this bill, as it is often the case that returning 
servicemembers have to spend a significant number of years readjusting 
and acclimating to civilian society after their return, especially from 
a combat zone. The Pew Charitable Trusts produced an excellent report 
on this very subject in 2011 that we recommend to the Members of the 
Committee. (A copy of same was provided to key staff on both sides of 
the aisle.) Anything that affords more opportunity for deserving 
veterans to be trained in marketable skills is a good thing in the view 
of VVA.
    H.R. 3483, the Veterans Education Equity Act of 2011, introduced by 
Representative G.K. Butterfield (D-NC), revises the formula for the 
payment by the Department of Veterans Affairs of tuition and fees for 
individuals entitled to educational assistance under the Post-9/11 
Educational Assistance Program and pursuing programs of education at 
public institutions of higher learning to include, as an additional 
payment formula, the greater of: 1) the actual net costs for in-state 
tuition after applying the receipt of any tuition waivers, reductions, 
scholarships, or other assistance; or 2) $17,500 for the academic year 
beginning on August 1, 2012 (such amount to be increased each 
subsequent year by the average percentage increase in undergraduate 
tuition costs).
    VVA has no objection to this bill.
    H.R. 3524, the Disabled Veterans Employment Protection Act, is 
introduced by Representative Bruce Braley (D-IA). This legislation 
would entitle a person who is absent from employment by reason of the 
receipt of medical treatment for a service-connected disability to: 1) 
be retained by the person's employer; 2) the seniority and other rights 
and benefits determined by seniority that the person had on the 
commencement of such treatment plus the additional seniority and rights 
and benefits that the person would have attained if the person had 
remained continuously employed; and 3) be considered on furlough or 
leave of absence during such treatment and therefore entitled to other 
rights and benefits not determined by seniority as are other persons of 
similar seniority, status, and pay who are on furlough or leave of 
absence, and terminates such entitlement when a person knowingly 
provides written notice of the intent not to return to such position 
following treatment.
    This bill would also allow the absent employee to use any vacation, 
annual, medical, or similar leave with pay accrued before the 
commencement of the treatment.
    It also provides that an employer shall not be required to comply 
with the requirements of this Act if: 1) the employer's circumstances 
have so changed as to make such compliance impossible or unreasonable; 
2) such compliance would pose an undue hardship on the employer; or 3) 
the employment in question is for a brief, non-recurring period without 
a reasonable expectation of continuing indefinitely or for a 
significant period. This proposal limits the application of this Act to 
periods of absence of not more than 12 workweeks during any 12-month 
period.
    The bill applies health insurance continuation requirements to 
absences from employment described in this Act. It would prohibit any 
employer discrimination or acts of reprisal against an absent employee.
    Vietnam Veterans of America strongly favors enactment of this 
legislation to protect the rights of veterans who have service-
connected disabilities from losing their jobs because they have to take 
time to properly address the wounds, maladies, injuries, and illnesses 
that are adjudged by the Secretary of Veterans Affairs to be directly 
connected to and resulting from the individual's military service.
    Frankly, this is legislation that should have been enacted forty 
years ago to protect the veterans who served in Vietnam from reprisals 
from employers, including Federal agencies, because they had to take 
time to seek treatment for service-connected conditions. It was all too 
often a common story from Vietnam veterans that as they were all but 
felled from injuries such as PTSD and conditions resulting from 
exposure to Agent Orange and other herbicides, tropical parasites, 
hepatitis C due to blood transmissions. Too many of these veterans were 
fired for seeking necessary medical help.
    Even though this will not be of widespread help to our generation, 
or the fine young Americans who have served since 9/11 who have been 
the subject of discrimination and/or firing because they had to seek 
and receive treatment for their service-connected conditions over the 
past decade, it will be of significant assistance to returning veterans 
in the future. We salute Mr. Braley for his bold leadership on this 
important issue, and urge early enactment of this legislation.
    H.R. 3610, Streamlining Workforce Development Programs Act of 2011, 
introduced by Representative Virginia Foxx [R-NC], legislation would 
consolidate and streamline redundant and ineffective Federal workforce 
development programs to increase accountability, reduce administrative 
bureaucracies, and put Americans back to work.
    VVA staunchly opposes eliminating any of the (tiny but highly 
effective) Workforce Investment Act (WIA) programs for veterans, 
including the VWIP program. Furthermore, VVA strongly believes that the 
Homeless Veterans Readjustment Program (HVRP) should stay at the United 
States Department of Labor (DoL), but needs to be funded at the full 
authorized level of $50 million per year. This program is far and away 
the most cost-effective, cost-efficient program administered by the 
DoL. The primary reason why it needs to be at DoL is so that it can be 
used as ``match'' funds by the highly effective, cost-effective 
community-based organizations (CBOs) and faith-based organizations 
(FBOs) which need to ``match'' VA Grant & Per Diem grant monies.
    For more than 40 years the veteran community-based organizations 
(VCBOs), although never properly funded, have continued to deliver the 
most cost-effective and cost-efficient services to veterans, especially 
veterans most in need.
    While we need a Veterans Health Administration (VHA) that provides 
easy access to quality medical care, and we need other Federal and 
state entities, it has consistently been the community-based 
organizations, and (often) the veteran service organizations (VSOs), 
that have been there for the veterans most in need. Unless this match 
requirement can be met another way, or surmounted by other means, we 
will oppose any move toward transferring the HVRP program to the VA.
    Furthermore, it has been a decade since the inappropriately named 
``Jobs for Veterans Act of 2002'' was enacted. (It was inappropriately 
named because the Employment & Training Administration (ETA) and the 
rest of DoL did everything they could to prevent ``priority of 
service'' from occurring at DoL or at the so-called Workforce 
Development Agencies. Sadly, for these reasons, not many veterans have 
ever gotten a job via this act, despite the noblest of intentions of 
the Congress.) Even though VVA repeatedly brought these failings to the 
attention of the top leadership of DoL, the previous Administration's 
appointees there seemingly did everything they could to keep from 
promulgating regulations to implement the provisions of this law until 
the very last month they were in office.
    The provisions have now been promulgated in regulation, but it 
appears from afar that the Chief Operating Officer at the Department of 
Labor in the current Administration has little or no interest in 
enforcing ``priority of service'' in Workforce Investment Act programs. 
It also seems to be the case that those inside of DoL who have tried to 
raise some very appropriate questions about this terrible (and some 
would suggest anti-veteran) record of non-achievement in regard to 
participation of military veterans being able to enter into WIA-funded 
programs at the state and local level, have been silenced and in some 
cases had their character besmirched unfairly.
    The absolutely abysmal record of veterans participating in WIA 
training is demonstrated by the charts of states in Appendix I to this 
statement.
    While we applaud the good intentions, strong leadership, and hard 
work of Representative Foxx, we would like to see some of that resolve 
applied to guaranteeing that returning veterans get a fair deal in 
seeking classroom vocational training programs or On-the-Job-Training 
placements. Right now veterans are not getting anything like a fair 
deal, much less ``priority of service'' in these programs. As bad as 
the participation of veterans in WIA across the country, we have good 
reason to believe that many state and Service Delivery Area (SDA) 
entities could not survive even a cursory audit of this paltry tax 
record. (In plain word, imagine how bad their record would look if they 
hadn't exaggerated veteran participation!)
    Whatever else this proposed legislation in its final form does, it 
must set aside a proportional amount of WIA funds in each state to be 
at least the proportion of veterans in the population of those who are 
unemployed or who have dropped out of the labor force solely because 
they are so discouraged by looking for work to no avail that they 
become clinically depressed and hence unable to continue to look for 
work.
    VVA also urges Congresswoman Foxx and her colleagues to reiterate 
``priority of service'' as a requirement for any and all employment & 
training programs funded by or through the DoL. Further, VVA strongly 
urges creation of meaningful redress measures and sanctions for those 
states and for those SDA delivery areas which do not adequately 
demonstrate ``priority of service'' for veterans is occurring in all 
DoL-funded programs. As a last resort, the funding should be recaptured 
from the state and contracted out to entities (i.e., CBOs, VSOs, faith-
based organizations, and other private or non-profit service providers) 
within that state who value veterans, and which have the expertise, 
creativity, and the will to assist veterans into jobs that will lead to 
a career.
    Mr. Chairman, VVA urges you to also ask the General Accountability 
Office (GAO) to look into this area to discern whether this public 
record of the participation rate of veterans in WIA programs in each 
state is either incomplete or inflated, why ``priority of service'' to 
military veterans is not occurring at the service delivery level as 
required by law, and recommend course(s) of action for both DoL (in 
cooperation with VA) and the Congress to correct any deficiencies 
found.
    VVA looks forward to working with the distinguished Members of this 
storied Subcommittee, and with the distinguished Members of the HELP 
Committee, to improve on the bill as introduced, so that VVA and others 
in the veterans' community can enthusiastically endorse this proposed 
legislation.
    H.R. 3670, To require the Transportation Security Administration to 
comply with the Uniformed Services Employment and Reemployment Rights 
Act, introduced by Representative Timothy Walz (D-Mn), this legislation 
amends the Aviation and Transportation Security Act to require the 
Transportation Security Administration (TSA) to comply with the 
Uniformed Services Employment and Reemployment Rights Act when carrying 
out certain personnel decisions with respect to the employment of air 
transportation passenger and property screeners. (Please note that 
Senator Joseph Lieberman (D-CT) has introduced a companion bill, 
S.1990.)
    As usual, Command Sergeant Major Walz is to be commended for his 
efforts to address a real problem for National Guard and Reserve 
personnel. VVA strongly favors enactment of H.R. 3670, to require the 
Transportation Safety Administration (TSA) to abide by the ``Uniformed 
Services Employment and Reemployment Act''(USERA). There is no reason 
for TSA, or any other Federal agency or entity, to not be subject to 
the requirements of USERA.
    VVA strongly favors speedy enactment, and expedited implementation, 
of this proposed law.
    It has come to the attention of VVA that there are parts of the VA 
and of DoD that have abridged the rights of returning veterans who are 
demobilized from active duty, and qualify for protection under USERA. 
VVA strongly urges this Subcommittee to work with the appropriate 
Subcommittee of the Government Oversight & Reform Committee to make 
violation or abridgement or threatened abridgement of a servicemember's 
rights under USERA a ``prohibited personnel practice'' that shall 
subject a manager or supervisor who commits such an act to immediate 
reprimand, up to and including suspension and possible dismissal in any 
and all Federal entities. At minimum, such an act should result in a 
two-year suspension of awarding a bonus for any reason to that manager.
    Further, VVA urges this Subcommittee to work with that same 
Subcommittee on the Federal Workforce of the Committee on Oversight & 
Government Reform to strengthen veterans' preference. There should be 
no exception of any Federal department, agency, or entity from being 
subject to veterans' preference in all hiring, at all grades.
    While the Veterans Employment Opportunity Act of 1998 (VEOA) 
strengthened veterans' preference in many ways, it is now way past time 
to correct a number of flaws in the VEOA. The statute made it a 
``prohibited personnel practice'' to violate the rights of a veterans' 
preference-eligible person. First among those flaws is that the word 
``knowingly'' was slipped into the law before ``violate a person's 
veterans' preference rights.'' This has enabled those same SES folks to 
avoid punishing managers and supervisors for the past fourteen years. 
Frankly, if a manager or supervisor does not know veterans' preference 
laws by the time he or she gets into a position of authority, then they 
should be removed and dismissal proceedings started for either 
misfeasance and/or incompetence. (Incidentally, the word ``knowingly'' 
does not appear in the language that defines all other ``prohibited 
personnel practices,'' only in the veterans' preference clause.)
    It is also time to admit that the Senior Executive Service (SES) is 
a failure that has not met any of the supposed goals of the program 
that were used to justify exempting SES from veterans' preference laws. 
As it has played out at the VA, at DoD, and at other departments and 
agencies, this exemption has enabled ``Jody'' (those who avoided the 
draft or enlistment to serve our country in the armed forces) to make 
sure that there are very few veterans or surviving spouses in SES 
positions. There is a generally patronizing attitude toward veterans 
that has been allowed to flourish in many quarters of the Federal 
government. Even as the size of the Federal workforce shrinks, these 
outrageous abuses must end.
    I would be remiss if I did not note that the current Administration 
has tried very hard to increase the hiring of veterans and the use of 
tools for agencies to increase the employment of veterans, particularly 
disabled veterans. There has, as perhaps you might come to expect, a 
great deal of lip service and passive resistance from the careerists. 
It has however resulted in some gains for veterans, but we must not 
only keep the pressure on them to do better, but also move to 
strengthen the law. Frankly there are very few things that you can do 
to really assist veterans, particularly disabled veterans, and 
dramatically improve their lives while also strengthening the 
effectiveness of the Federal workforce that do not cost money in a time 
of both real and perceived austerity.
    Making the veterans' preference laws stronger is one of those few 
no-cost things you have the latitude to accomplish even in a tough year 
which can really improve the lives of disabled veterans. VVA urges you 
and your colleagues to seize this moment of opportunity, and act with 
alacrity and determination.
    H.R. 4048, Improving Contracting Opportunities for Veteran-Owned 
Small Businesses Act of 2012, introduced by Representative Bill Johnson 
(R-OH), would amend title 38, United States Code, to clarify the 
contracting goals and preferences of the VA with respect to small 
business concerns owned and controlled by veterans.
    This legislation can be read in two very different ways with very 
different consequences: 1) that the Federal Supply Schedule (FSS) and 
the misnomered ``strategic sourcing initiative'' (which is not based on 
any statute we can locate, and which has less than nothing to do with 
national security) has precedence over small business in general and 
service-disabled veteran- owned small business ``Vets First'' 
provisions of law in particular; or 2) that Service-Disabled Veteran-
Owned Small Businesses (SDVOSBs) and Veteran-Owned Small Businesses 
(VOSBs) who are on the delegated (from the General Services Agency) 
Federal Supply Schedules shall have preference over all others on the 
VA-run FSS.
    If the intent is the second meaning, then VVA can enthusiastically 
support this proposed law.
    If, however, the intent is to let the VA continue to ignore much of 
small business law that has been on the books for years, and to ignore 
the ``Vets First'' contracting provisions of Title 38, then VVA must 
rigorously oppose this legislation. The Veterans Entrepreneurship Task 
Force (VET-Force) will also vigorously oppose this legislation if that 
is the case.
    As there was no summary on thomas.loc.gov that made clear the 
intent of HR 4048, and there were no remarks upon introduction that we 
could locate, the bill as written leaves us in a bit of a quandary. If 
we are in a quandary as to what was intended, we can only speculate and 
marvel at the mess the VA General Counsel's office (never mind the 
Acquisitions people) will make of this proposal should it become law as 
currently worded, with no clear and unequivocal Committee report. We 
urge that this be re-written and expanded for clarity, and a clear 
Committee report be written, no matter which way the Committee decides 
to proceed.
    H.R. 4051, TAP Modernization Act of 2012, introduced by 
Representative Marlin A. Stutzman (R-IN), would direct the Secretary of 
Labor to provide off-base transition training.
    The Transition Assistance Program (TAP) has needed a significant 
overhaul for some time. The common vernacular description of the TAP 
program as it exists on military bases today is ``death by power-
point.'' Many of those slides in the standard presentation date back to 
when some of the separating servicemembers were in elementary school. 
What is particularly needed is not only an up to date and interactive 
experience that will engage those separating, but also to deliver this 
program to those who are members of the National Guard and the Reserves 
demobilizing, and are nowhere near a military base where this program 
is currently offered.
    It is also true for many of the active duty servicemembers when 
they separate from the service and return home that they are not near a 
military base that offers TAP. Reportedly, this is the most rural Armed 
Forces we have fielded since World War I, with about 40% coming from 
towns of 25,000 or less. What this means is that we must alter our 
paradigm and shape these very important services in such a way that the 
service(s) and vital information for these veterans and their spouses 
can be delivered where the new veterans can seize this opportunity, and 
in such a manner that they will grasp this important set of services 
and information.
    Our Nation spends a great deal of time and treasure to train these 
young Americans to be effective soldiers, sailors, Marines, and members 
of the Air Force and Coast Guard. This prepares them to be not only the 
best trained and equipped armed forces in the world, but the best in 
the history of the world. Surely we can spend the time and resources to 
train these young Americans to successfully reintegrate into civilian 
life.
    VVA does favor enactment of this legislation at an early date, but 
urges that you and your colleagues consider speeding up the pilot to a 
much faster pace than three years in only five states. The services are 
needed now, not in the distant future.
    H.R. 4057, Improving Transparency of Education Opportunities for 
Veterans Act of 2012, introduced by Representative Gus M. Bilirakis, 
(R-FL), would amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to develop a comprehensive policy to 
improve outreach and transparency to veterans and members of the Armed 
Forces through the provision of information on institutions of higher 
learning.
    VVA commends Congressman Bilirakis for continuing the tradition in 
his family of bold advocacy for the men and women who have pledged 
their life and limb in defense of the Constitution.
    VVA favors enactment of this proposed legislation, but we strongly 
urge that it be strengthened. Let me be blunt: VVA has good reason to 
believe that some predatory for-profit schools set out to enrich 
themselves and their investors by taking the hard-earned GI Bill for 
the 21st Century dollars, and then arranging ``easy financing'' of 
additional costs from what turns out to be a finance company owned by 
the same investors that locks these brave young people into a debt 
structure that is a heavy burden at exorbitant (if not usurious in the 
biblical sense). Then it is only after wasting time and all of their 
benefits that these veterans discover that the schools are not really 
properly accredited, that their ``degrees'' are phony and worthless as 
said ``credentials'' are not accepted by employers or licensing 
agencies or graduate schools.
    In the most extreme of these cases, the future has literally been 
stolen from these veterans. These predators are practicing ``Stolen 
Valor'' in the extreme.
    Let me state that VVA does not believe that all distance learning 
is bad, nor that being a for-profit school inherently means that the 
school can't offer fair value for a fair price. They can - but the 
predatory for-profit schools do not.
    We ask that you take into account these considerations:

    (1) Basic Eligibility Threshold: No GI Bill or TA dollars if the 
graduate is not eligible to get licensed in that field. In the Military 
and Veteran Students Educational Bill of Rights, one provision is, ``If 
receiving a degree or certificate will fulfill the licensing 
requirements in a particular field.'' As our friend and colleague Ted 
Daywalt, founder and president of VetJobs always says, a program's 
graduates must be eligible for state licensing so that graduates can 
actually get a job in the area they studied for (for example, a nursing 
program must be approved so that its graduates can be licensed to 
practice nursing). You could also suggest basic eligibility thresholds 
for graduation and job placement rates (such as, no GI Bill dollars if 
a school has a terrible graduation or job placement rate).
    (2) Risk-Based Audits and Reviews: Senator Webb is proposing a 
risk-based review system where State Approving Agencies would be tasked 
with performing an audit if one of these triggers occurred: rapid GI 
enrollment, student complaints, high drop-out rates, high loan default 
rates, or legal action by a state or the feds against a particular 
college. To quote from the Military and Veteran Students Educational 
Bill of Rights: ``Review any institution that shows a rapid increase in 
student dropout rates or student loan defaults, an increase in student 
complaints, a state lawsuit or probation, etc. VA and DoD should 
decertify or terminate from TA and GI Bill eligibility any institution 
of higher education that has been put on probation or terminated by a 
state government from its student aid program, has been found by a 
government agency to have engaged in grossly deceptive recruiting 
practices, or has admitted fraud or been successfully sued for fraud. 
VA and DoD should share information with the Departments of Education 
and Justice, and communicate information on adverse findings by those 
agencies with the State Approving Agencies for institutions that may 
require additional inspections or remedial action.''
    (3) Data Collection, Student Disclosures and Reporting: Here's the 
applicable paragraph from the Educational Bill of Rights: ``Track the 
data on school performance and student outcomes under Tuition 
Assistance, Montgomery and Post-9/11 GI Bills, and Top-Up. Currently 
DoD and VA track dollars out the door, but not what those dollars have 
bought. (No agency is currently tracking even dollars out the door 
under Top-Up.) At a minimum, DoD and VA should track the number of 
credits earned and whether students remain enrolled, have successfully 
completed a program, or have dropped out. Metrics should be regularly 
reported to Congress.''
    (4) Disclosures. You've got a serious list in the attached 
Educational Bill of Rights: ``Disclose relevant educational and 
financial information to DoD/VA and to prospective students in plain 
language and in easily accessible, obvious places on all materials and 
Web sites:

       i. The actual costs per credit hour and/or degree or other 
relevant measures, including all lab and student fees;
       ii. Whether or not credits are transferrable to that state's 
public universities and community colleges;
       iii. If receiving a degree or certificate will fulfill licensing 
requirements in a particular field;
       iv. If the institution of higher learning (IHL) has been 
accredited by what national and/or regional accrediting entity;
       v. That programs of study have been approved for GI Bill 
benefits by a State Approving Agency;
       vi. Whether the institution is a public, private non-profit, or 
private for-profit institution; and if it is a for-profit entity, it 
should be required to disclose its profitability, executive 
compensation, and shareholder return annually and semi-annually, as 
well as what percent of its budget goes to marketing and recruitment; 
to career placement; and to actual instruction;
       vii. What the overall graduation and job placement rates have 
been for the past five years, as well as in the specific field of study 
in which a prospective student is considering majoring;
       viii. What the dropout rates have been over the past five years; 
The student debt and default rates on loans at one year, two years, and 
three years after a student has graduated or has otherwise left the 
school;
       ix. Whether the college has dedicated support staff to assist 
students
       x. negotiate the educational terrain, especially support staff 
for military, veterans, and military families - in particular disabled 
veterans (it's one thing to get into a school; it's quite another to 
attain a degree while juggling family and work and studies); and 
whether or not the college has certified counselors available to assist 
students seek scholarships and other forms of financial aid;
       xi. The qualification level of the teaching and tutoring staff, 
e.g., what percentage of instructors have achieved a terminal degree in 
their field of discipline;
       xii. Whether or not the school has a career placement office 
with paid, dedicated staff to assist students in their job search upon 
graduation; or, in the case of online institutions, what is the 
availability of career placement services for students and alumni;
       xiii. What percentage of the institution's budget is spent on 
advertising, marketing, recruitment, commissions, and sales; how much 
has been taken as profit over an institution's past five fiscal years; 
and the total annual individual executive compensation package for the 
senior corporate or college staff over the past years, as well as 
shareholder returns quarterly and annually over the same period.''

    H.R. 4072, Consolidating Veteran Employment Services for Improved 
Performance Act of 2012, introduced by Representative Jeff Miller (FL-
1), would amend title 38, United States Code, to improve employment 
services for veterans by consolidating various programs in the 
Department of Veterans Affairs.
    VVA supports the part of this bill that would create the position 
of Deputy Undersecretary of VA for Veterans Employment and Economic 
Opportunities, and move the DoL Veterans Employment and Training 
Service (VETS) to VA. While this begs the question as to the lack of 
accountability of the state workforce development agencies in regard to 
the proper deployment of the veterans' personnel to work on assisting 
veterans, especially disabled veterans, to obtain and sustain 
meaningful employment at a living wage, it is at least a start in the 
right direction.
    VVA still strongly believes that all of the veterans' staff 
positions currently known as Disabled Veteran Outreach Program 
specialists (DVOPs) and Local Veteran Employment Representatives 
(LVERs) that are currently state employees should be federalized. VVA 
holds that this is necessary because there is presently no effective 
oversight of how the states are utilizing these personnel. Experience 
would suggest, however, that we are lucky if we are able to get the 
equivalent of one day a week of these half-time LVERs and DVOPs devoted 
to veterans. At minimum VVA strongly urges you to authorize only full-
time positions as veterans' personnel, and ensure that there is a 
meaningful oversight system to ensure veterans get their money's worth 
of effort from each full-time position funded by DoL to serve only 
veterans. Lastly, we need more meaningful objective measures than the 
current mass scale manifestation of the ``post hoc, ergo propter hoc'' 
logical fallacy. We need real placements, not the current phony system.
    However, VVA opposes the part of this bill that would move the HVRP 
grant program from DoL to the VA per VVA 2011 National Convention 
resolution: ``HV-7 Homeless Veterans Reintegration Program to Remain at 
the US Department of Labor (DoL) and be fully funded at $50M''; 
resolved, that Vietnam Veterans of America opposes the transition of 
the HVRP Program from the US Department of Labor and further, that DoL 
should be held accountable for this program's function, oversight, and 
performance. Additionally, VVA urges full funding to the authorized 
level for the HVRP program.''
    As noted above, the key issue here is that the very effective CBOs 
and faith-based organizations (FBOs), which operate on a very close 
margin, need the HVRP funds from DoL to serve as ``match'' funds in 
order to receive ``Grant & Per Diem'' funds from VA. Frankly, these 
CBOs and FBOs produce effective services to very poor and homeless 
veterans at much less cost than government can get the job done. 
Veterans tend to trust them more than the VA or other government 
agencies when beginning the process of trekking the long road back from 
the street to a productive role in society. If this ``match'' problem 
can be surmounted, then VVA would reconsider this position.
    Many thanks for the opportunity to appear here today to share the 
views of VVA.

                               Appendix I
         MILITARY & VETERAN STUDENTS EDUCATIONAL BILL OF RIGHTS

    The VSOs and MSOs indicated below urge the Administration to 
establish an interagency working group, from among the Departments of 
Defense, Veterans Affairs, Education, and Justice, to develop 
appropriate protocols to protect active duty servicemembers, reservists 
and members of the National Guard, veterans and family members who seek 
to use their GI Bill and Tuition Assistance benefits to pursue higher 
education from unethical and predatory institutions of higher learning. 
Several of our ideas on reining in the abuses that we know have been 
harming troops and veterans are offered below. We defer to the 
Administration on the appropriate agency or mechanism to implement 
these ideas, and are available to provide more specifics as needed. We 
have referred to the Military Student Bill of Rights developed by the 
Servicemembers Opportunity Colleges Consortium (SOCC) as a touchstone 
on this issue. We also encourage reference to section 559 of the FY'12 
National Defense Authorization Act.

    1. REQUIRE (either through strong Memoranda of Understanding from 
both DoD and VA or through Executive action) all institutions of higher 
learning that want to accept students under Tuition Assistance or the 
Post-9/11 or Montgomery GI Bills to:

    a. DISCLOSE relevant educational and financial information to DoD/
VA and to prospective students in plain language and in easily 
accessible, obvious places on all materials and Web sites:

       i. The actual costs per credit hour and/or degree or other 
relevant measures, including all lab and student fees;
       ii. Whether or not credits are transferrable to that state's 
public universities and community colleges;
       iii. If receiving a degree or certificate will fulfill licensing 
requirements in a particular field;
       iv. If the institution of higher learning (IHL) has been 
accredited by what national and/or regional accrediting entity;
       v. That programs of study have been approved for GI Bill 
benefits by a State Approving Agency.
       vi. Whether the institution is a public, private non-profit, or 
private for-profit institution; and if it is a for-profit entity, it 
should be required to disclose its profitability, executive 
compensation, and shareholder return annually and semi-annually, as 
well as what percent of its budget goes to marketing and recruitment; 
to career placement; and to actual instruction.
       vii. What the overall graduation and job placement rates have 
been for the past five years, as well as in the specific field of study 
in which a prospective student is considering majoring.
       viii. What the dropout rates have been over the past five years;
       ix. The student debt and default rates on loans at one year, two 
years, and three years after a student has graduated or has otherwise 
left the school;
       x. Whether the college has dedicated support staff to assist 
students negotiate the educational terrain, especially support staff 
for military, veterans, and military families - in particular disabled 
veterans (it's one thing to get into a school; it's quite another to 
attain a degree while juggling family and work and studies); and 
whether or not the college has certified counselors available to assist 
students seek scholarships and other forms of financial aid;
       xi. The qualification level of the teaching and tutoring staff, 
e.g., what percentage of instructors have achieved a terminal degree in 
their field of discipline;
       xii. Whether or not the school has a career placement office 
with paid, dedicated staff to assist students in their job search upon 
graduation; or, in the case of online institutions, what is the 
availability of career placement services for students and alumni;
       xiii. What percentage of the institution's budget is spent on 
advertising, marketing, recruitment, commissions, and sales; how much 
has been taken as profit over an institution's past five fiscal years; 
and the total annual individual executive compensation package for the 
senior corporate or college staff over the past years, as well as 
shareholder returns quarterly and annually over the same period.

    b. REQUIRE institutions of higher learning to report data on 
graduation and dropout rates and other relevant measures of their 
commitment to providing quality higher education to the National Center 
for Education Statistics' College Navigator.
    c. MANDATE that any institution of higher learning that receives 
Tuition Assistance, Post-9/11 or Montgomery GI Bill funds has a career 
placement office with dedicated, paid staff to assist students in their 
job search upon graduation; or, in the case of online institutions, 
provides career placement services for students and alumni.
    d. MANDATE institutions of higher learning provide support services 
for military, veterans, including disabled veterans, and their 
families.
    e. MANDATE under penalty that no institution of higher learning may 
provide incentive payments to recruit; and that no financial incentives 
may be offered to current or former students to recruit; nor may a 
school use GI Bill or TA dollars for recruiting or marketing.
    f. MANDATE under penalty that any institution of higher learning 
receiving GI Bill or Tuition Assistance dollars must be brought under 
the rules of Title IV of the Higher Education Act governing 
institutions that receive Pell grants and Federal student loans.
    g. ENSURE that currently enrolled students will be given sufficient 
notice if an institution of higher learning declines to sign the MOU.
    2. CLOSE the 90/10 loophole. A cornerstone of any effort must be 
closing the loophole in which GI Bill and Tuition Assistance funds are 
considered ``private'' funds, not ``federal'' funds in the 90/10 
equation. This has opened the floodgates to extreme targeting of 
military and veteran students by predatory for-profit colleges, and has 
led to the waste of hundreds of millions of dollars. (Note: The 
American Legion does not have a Resolution that supports this 
proposal).
    3. MANDATE counseling about educational benefits and the potential 
for abuse to the uneducated consumer student. Active duty troops should 
be informed by DoD and VA personnel about educational opportunities 
available to them - and their families - and the risks for abuse by 
predatory institutions, prior to receiving benefits. National Guard and 
military families should also receive counseling through appropriate 
avenues. Potential students should be told about the College Navigator. 
Those who are considering enrolling in an institution of higher 
learning, and those who are about to separate from service, should 
attend mandatory sessions that focus on what factors potential students 
need to consider when choosing a school. Similarly, all levels of 
command, from company commander through installation commander, should 
be alert to the risks of predatory institutions and take steps if 
necessary to bar these recruiters and their principals from coming onto 
their base. All levels of command should be encouraged to disseminate 
information through publications and periodic briefings by MSO and VSO 
representatives. Institutions of higher education should not themselves 
be given a platform to conduct education counseling under Chapter 36 or 
other avenues.
    4. DEVELOP an online college comparison tool (e.g., a mandatory, 
not a voluntary, College Navigator) that can assist students compare 
actual costs, transferability of credits, eligibility to get licensed, 
key indicators or measures of student success, e.g., drop-out rates, 
graduation rates, student loan default rates, and job placement 
successes. This tool would also catalog an online database of student 
complaints. And this College Navigator should allow for social media 
integration so that potential students can rate schools by learning of 
the experiences of students at these institutions.
    5. ESTABLISH an Ombudsman system at VA and DoD to take student 
complaints at a toll-free number, such as 1-800-GI BILL1, facilitated 
through existing infrastructure at the VA call center in Muskogee, 
Oklahoma. Student complaints could be made available online and 
connected to College Navigator, with all personal information redacted, 
so prospective students might see complaints about the schools they are 
considering. Require VA to develop an Education Benefits Customer 
Service portal, where student veterans can file complaints about 
benefits and report fraud waste and abuse. Veteran complaints should be 
assigned a case file and tracked as the VA works with agencies to find 
resolution to the problem.
    6. TRACK the data on school performance and student outcomes under 
Tuition Assistance, Montgomery and Post-9/11 GI Bills, and Top-Up. 
Currently DoD and VA track dollars out the door, but not what those 
dollars have bought. (No agency is currently tracking even dollars out 
the door under Top-Up.) At a minimum, DoD and VA should track the 
number of credits earned and whether students remain enrolled, have 
successfully completed a program, or have dropped out. Metrics should 
be regularly reported to Congress.
    7. REVIEW any institution that shows a rapid increase in student 
dropout rates or student loan defaults, an increase in student 
complaints, a state lawsuit or probation, etc. VA and DoD should 
decertify or terminate from TA and GI Bill eligibility any institution 
of higher education that has been put on probation or terminated by a 
state government from its student aid program, has been found by a 
government agency to have engaged in grossly deceptive recruiting 
practices, or has admitted fraud or been successfully sued for fraud. 
VA and DoD should share information with the Departments of Education 
and Justice, and communicate information on adverse findings by those 
agencies with the State Approving Agencies for institutions that may 
require additional inspections or remedial action.
    8. ADDRESS access to military installations in CONUS and overseas. 
Installation commanders should utilize the rule against commercial 
solicitation on their base, as well as JAG procedures to ban predatory 
commercial entities. They should be encouraged to enter into MOUs with 
community and non-profit schools to teach on post; no national 
educational entity, e.g., Kaplan or Colorado Tech, should have entre 
into a national MOU with DoD or one of the services to have unfettered 
access to all bases. It should be in the province of a local commander 
and his/her educational officers to determine who is authorized to 
teach on campus, but there should be no limit to the number of MOUs 
they can sign. Access to bases by former servicemembers should be 
limited if they are paid by schools to recruit on base.
    9. TRADEMARK or otherwise protect such terms as ``GI Bill'' and 
``Military friendly'' but provide a carve-out for recognized VSOs. (Web 
sites owned by for-profit lead generators include GIBillAmerica.com, 
MilitaryGIBill.com, GIBill.Com, GIBenefits.com, and US-Army-Info.com.) 
The Federal government has already trademarked terms such as ``Social 
Security,'' ``Medicare,'' ``No Guts, No Glory,'' ``PTSD Coach,'' 
``VetBiz,'' and ``MyFuture.com.''
    10. DESIGN a method of recourse for servicemembers and veterans who 
have lost their benefits because they were duped or tricked by a 
predatory practice by an institution of higher learning. If a troop or 
veteran has wasted his/her benefits on a worthless degree or 
certification because of misrepresentations made by unscrupulous 
representatives of predatory for-profits, they should be permitted to 
petition the Court of Appeals for Veterans Claims to have them 
reinstated.
    The undersigned organizations have endorsed this military and 
veteran students' educational Bill of Rights:

      John R. ``Doc'' McCauslin
      Chief Executive Officer
      Air Force Sergeants Association

      Rear Adm. (Ret.) Casey Coane
      Executive Director
      Association of the U.S. Navy

      Tom Tarantino
      Deputy Policy Director
      Iraq and Afghanistan Veterans of America

      Vice Adm. (Ret.) Norbert R. Ryan, Jr.
      President
      Military Officers Association of America

      Joe Wynn
      Legislative Liaison and Regional Director
      National Association for Black Veterans
      President, Vets Group

      Maj. Gen. (Ret.) Gus Hargett
      President
      National Guard Association of the U.S.

      Carl Blake
      National Legislative Director
      Paralyzed Veterans of America

      Michael Dakduk
      Executive Director
      Student Veterans of America

      Peter Gaytan
      Executive Director
      The American Legion

      Raymond C. Kelley
      National Legislative Director
      Veterans of Foreign Wars of the U.S.

      Ted Daywalt
      President
      VetJobs

      Heather L. Ansley, Esq., MSW
      Vice President of Veterans Policy
      VetsFirst, United Spinal Association

      Rick Weidman
      Executive Director for Policy &
      Government Affairs
      Vietnam Veterans of America

                      VIETNAM VETERANS OF AMERICA
                           Funding Statement
                             March 8, 2012
    The national organization Vietnam Veterans of America (VVA) is a 
non-profit veterans' membership organization registered as a 501(c) 
(19) with the Internal Revenue Service. VVA is also appropriately 
registered with the Secretary of the Senate and the Clerk of the House 
of Representatives in compliance with the Lobbying Disclosure Act of 
1995.
    VVA is not currently in receipt of any Federal grant or contract, 
other than the routine allocation of office space and associated 
resources in VA Regional Offices for outreach and direct services 
through its Veterans Benefits Program (Service Representatives). This 
is also true of the previous two fiscal years.
    For Further Information, Contact:
      Executive Director of Policy and Government Affairs
      Vietnam Veterans of America
      (301) 585-4000, extension 127

    [GRAPHIC] [TIFF OMITTED] 73293.001
    
    [GRAPHIC] [TIFF OMITTED] 73293.002
    
    [GRAPHIC] [TIFF OMITTED] 73293.003
    
    [GRAPHIC] [TIFF OMITTED] 73293.004
    
The State Of WIA Adult Priority Of Service
    During PY '09, WIA Adult (plus supplemental Recovery Act funding) 
was a $1.352 billion program for job training and intensive job search 
for low income adults. The Jobs For Veterans Act of 2002 (JVA) was 
written to guarantee veterans priority of service in WIA and all other 
Federal employment and training programs. A decade after the JVA, The 
percentage of veterans enrolled in WIA Adult has actually declined in 
the decade; 53% of the states saw a decline of less than 20% and 14% 
declined even more sharply. Only 16% have met priority of service.
[GRAPHIC] [TIFF OMITTED] 73293.006


    <bullet>  Despite massive jumps in unemployment during PY `09, 35 
states and the District used over 20% of their WIA Adult slots for 
those already employed. 25% of the states allocated over 30% of their 
slots for those already employed with Florida allocating 85%. None of 
the 35 states met veterans' priority of service. In only three states 
did the percent of total veterans exceed the percent of non-low income 
non-veterans in a program Congress intended to address low income 
employment concerns.
    <bullet>  PY '09 WIA Adult was particularly disturbing in terms of 
providing services to veteran sub-populations with significant barriers 
to employment. If you remove from consideration the five states that 
co-enroll, in PY '09 there were 197, 839 non-low income non-vets 
exiting WIA Adult; the lowest priority group. There were only 1,295 
service disabled veterans served in those states; approximately one for 
every three counties. In PY '09, in the states without co-enrollment, 
there were 1,428 veterans recently separated in the Gulf War era who 
exited WIA. Contrast that to 60,199 non-low income non-veterans who 
already had jobs when they entered a program to help people find jobs.
    <bullet>  The first quarter of the present WIA Adult program year 
is just as bad. In the 46 non-co-enrollment states, there were 2,850 
veterans exiting contrasted to 29,521 non-low income non-vets (the 
lowest priority group). 61% of the Workforce Investment Areas exited 
nine or fewer veterans in the twelve week period. Only 36% exited more 
than nine veterans. 3% exited no veterans. 111 service disabled 
veterans exited nationally during the 1st quarter; roughly two per 
state in twelve weeks. Nothing looks any better during this program 
year.
Required Federal Contractor Outreach Would Get Far More Veterans Into 
        WIA Adult
PL 107-288 (HR 4015) November 7, 2002 Jobs For Veterans Act
    2035 (a) (1) Any contract in the amount of $100,000 or more entered 
into by any department or agency of the United States for the 
procurement of personal property and non-personal services (including 
construction) for the United States, shall contain a provision 
requiring that the party contracting with the United States take 
affirmative action to employ and advance in employment qualified 
covered veterans. This section applies to any subcontract in the amount 
of $100,000 or more entered into by a prime contractor in carrying out 
any such contract.
    The Jobs For Veterans Act Of 2002, reacting to several GAO studies, 
most notably in September 2001,critical of the Federal contractor 
program's impact on One Stop life, for the first time formally gave a 
staff person in the One Stop employer relations responsibilities with 
an eye toward more closely integrating employers into One Stop life and 
linking LVERs with WIA for the purposes of facilitating priority of 
service:
Expansion Of LVER Duties To Deal With Federal Contractors And WIA In 
        Veterans
    ``(b) PRINCIPAL DUTIES.--As principal duties, local veterans' 
employment representatives shall----
    ``(1) conduct outreach to employers in the area to assist veterans 
in gaining employment, including conducting seminars for employers and, 
in conjunction with employers, conducting job search workshops and 
establishing job search groups; and
    ``(2) facilitate employment, training, and placement services 
furnished to veterans in a State under the applicable State employment 
service delivery systems.
    DoL reiterated the importance of a strong employer relations 
outreach program in 20 CFR Part 1010 RIN 1293-AA15 Federal Register of 
December 19, 2008 when they state DoL funded employment and training 
programs should work with employers to ensure that the value a veteran 
brings to the table is understood and to address any concerns that 
employers may have about hiring veterans.
The Office Of Federal Contract Compliance (OFCCP) Has Defined What 
        Veterans Affirmative Action In Hiring Means For Federal 
        Contractors
    In the Federal Register /Vol. 72, No. 152 /Wednesday, August 8, 
2007 /Rules and Regulations, OFCCP formally defined Federal contractor 
responsibilities in providing affirmative action in hiring qualified 
veterans. They mandated active outreach not only with neighboring LVERs 
but also with many other entities as a term of maintaining compliance 
with their contract obligations.
    (1) The contractor should enlist the assistance and support of the 
following persons and organizations in recruiting, and developing on-
the-job training opportunities (OJT) . . . to fulfill its commitment to 
provide meaningful employment opportunities to such veterans:
    (i) The Local Veterans' Employment Representative in the local 
employment service office nearest the contractor's establishment;
    (ii) The Department of Veterans Affairs Regional Office nearest the 
contractor's establishment;
    (iii) The veterans' counselors and coordinators (``Vet-Reps'') on 
college campuses;
    (iv) The service officers of the national veterans' groups active 
in the area of the contractor's establishment;
    Federal contractors are not at all expected to be passive in their 
outreach to those serving veterans' needs:
    (2) Formal briefing sessions should be held, preferably on company 
premises, with representatives from recruiting sources. Plant tours, 
clear and concise explanations of current and future job openings, 
position descriptions, worker specifications, explanations of the 
company's selection process, and recruiting literature should be an 
integral part of the briefing. Formal arrangements should be made for 
referral of applicants, follow up with sources, and feedback on 
disposition of applicants.
Federal Contractors Are An Under Tapped Resource In Every WIA Area In 
        Every State
    There are Federal contractors contractually required to provide 
affirmative action in hiring to veterans in two thirds of the nation's 
counties. They are far from a small handful of major defense 
contractors. In March 2011, there were over 57,000. Federal contractors 
are found in rural America, in small town America as well as large 
cities. They represent every industry with over one third found in 
manufacturing which is important for the legion of mid-life veterans 
displaced from lifelong careers in manufacturing. Contractors are a 
valuable vastly underutilized resource for veterans in search of work. 
Federal contractors should be providing the link between the LVERs and 
WIA enrollment of far more veterans since WIA enrolls those they 
believe might find work and having LVERs aggressively working their 
core of Federal contractors and local veteran owned businesses provides 
veterans the job leads that would make WIA comfortable making the 
enrollment decision.
Conclusions
    There is no shortage of veterans showing up at WIA to enquire about 
services. Besides their own outreach efforts, the LVERs and DVOPs of 
the nation's public Employment Service referred 129,855 veterans for 
WIA services during Program Year `09.
    There is no conspiracy in every part of the Nation to not serve 
veterans in WIA. It's simply a matter of habit in a program which is 
judged by its performance standards. Staff select to enroll those that 
they have had success with in the past and they don't have a 
familiarity with veterans. Linking the LVERs closely with WIA makes 
sense; targeting contractually obligated Federal contractors and 
veteran owned business to help WIA help veterans find work.
Proposed
    A $4,000,000 Challenge Grant To The States To Integrate WIA/LVERs 
And Co-Enroll Veterans
    State and local WIA will only come to the table and enroll many 
more veterans when there is an incentive to make changes. Were moral 
persuasion the deciding change factor, priority of service would have 
been achieved years and years ago. State Veteran Service Organizations 
will not only pass resolutions of support and appear before the State 
Council. They will also lend a hand in the employer outreach effort.
    $40,000 Private Sector Grant To Strengthen WIA Intensive For 
Veterans In The 668 WIA Entities
    An innovative video/Internet based individualized job search 
workshop that integrates updated local Federal contractor information 
will be made available for free to all 668 WIA entities for use with 
LVER/DVOR coordinated workshops for co-enrolled veterans. Focusing on 
strengthening WIA Intensive provides a far less costly veteran 
participation experience for WIA entities.
    A $55,000 DoL Contract To Provide Enhanced Contract Information To 
LVERs/DVORs And WIA
    The Department of Labor will partner with the existing system for 
providing Federal contract information to bring the presentation online 
in a password protected environment. Central Contract Registry data 
will be integrated to allow LVERs access to the name and phone numbers 
of Contract contacts to make their outreach far more time effective.
    DoL Veterans Employment And Training Will Revise The VETS-100 Form 
For Federal Contractors
    The Department of Labor will simplify the annual required VETS -100 
form for Federal contractors. To facilitate employer compliance with 
the OFCCP required outreach requirement, the revised form will require 
the signature of an LVER for submission as well as the signature and 
contact information for the person responsible for the business' 
veterans affirmative action policy.
    States Will Be Allowed To Consider Veterans As An Acceptable 
Category For UC Profiling
    Since co-enrollment of claimants who are veterans would be 
encouraged and there would be additional targeted resources available 
in WIA Incentive for veterans provided by a private grant, veterans 
could be considered as a target population should states wish to do so. 
States would additionally be strongly encouraged to adopt the Wisconsin 
model and automate their UC systems to automatically WOTC pre-certify 
all UCX claimants on the fifth week of their claim as they will have 
met the requirements for the tax credit that week.

                                 <F-dash>
                 Prepared Statement of Ryan M. Gallucci
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    On behalf of the more than 2 million men and women of the Veterans 
of Foreign Wars of the U.S. (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on today's pending 
legislation. With the conflict in Iraq drawing to a close, withdrawal 
from Afghanistan on the horizon, and proposals to scale back our 
nation's active duty military, the VFW believes economic opportunity 
for today's war-fighters is a national imperative that continues to 
demand the kind of decisive action we saw with last year's passage of 
the VOW to Hire Heroes Act. Recent unemployment numbers indicate that 
veterans of the current conflicts remain unemployed at a higher rate 
than their civilian counterparts, with young veterans and female 
veterans experiencing unemployment rates well over twice the national 
average. The VFW is happy to see that this Subcommittee continues to 
take this situation seriously, and we are honored to share our thoughts 
on today's bills in an effort to ensure our veterans have the 
opportunities they have earned to succeed in a cut-throat economy after 
leaving military service.

    H.R. 3329, to amend title 38 United States Code, to extend the 
eligibility period for veterans to enroll in certain vocational 
rehabilitation programs:
    The VFW believes that our Nation has an obligation to ensure that 
our service-connected disabled veterans are employable, and this 
obligation has no expiration date. Unfortunately, today's service-
connected disabled veterans are relegated to a 12-year window in which 
to receive vocational rehabilitation, or Voc Rehab, services. The VFW 
continues to believe that this delimiting date for Voc Rehab services 
is unacceptable and we will continue to advocate for Vocational 
Rehabilitation for Life. If our nation's recent economic downturn has 
taught us anything it is that industries constantly evolve. Job 
descriptions can alter drastically and some jobs can go away 
altogether, which is why service-disabled veterans must always have 
access to the training and career counseling services available through 
Voc Rehab. The VFW is proud to support H.R. 3329, as it extends the 
current delimiting date on Voc Rehab to 15 years. However, our 
organization believes that this delimiting date must ultimately be 
eliminated altogether.

    H.R. 3483, Veterans Education Equity Act of 2012:
    In 2008, the VFW played a key role in securing the Post-9/11 G.I. 
Bill, offering unprecedented educational opportunities for today's 
veterans. The purpose of the Post-9/11 G.I. Bill was simple: Offer a 
free public education for those who served after 9/11. Unfortunately, 
since the bill was designed to reimburse student-veterans at the cost 
of an in-state public education, student-veterans who chose to attend 
private schools were subject to wildly disparate reimbursement rates 
for their academic programs based on geography. In an effort to offer 
an equitable benefit for student-veterans who wished to attend private 
schools, Congress established a reimbursement cap of $17,500 regardless 
of the state in which the program was administered. Unfortunately, the 
$17,500 cap only applies to students-veterans who enroll at private 
colleges and universities, meaning student-veterans attending public 
schools are still only entitled to receive the highest in-state tuition 
and fee payments, regardless of whether or not they meet residency 
requirements for the state. As a result, many student-veterans who do 
not qualify for in-state tuition face significant out-of-pocket costs 
to attend the public school of their choice, unlike their counterparts 
whose education at a private school may nearly be fully financed. 
According to the Congressional Budget Office, this inequity affects 
25,000-35,000 veterans each year; veterans who may not have been able 
to satisfy residency requirements due to the rigors of military life. 
H.R. 3483 will extend the $17,500 reimbursement cap for non-resident 
public school student-veterans, and the VFW is proud to support this 
bill. H.R. 3483 will ensure equitable reimbursement rates for all 
student-veterans regardless of the academic program they choose, as we 
intended.

    H.R. 3610, Streamlining Workforce Development Programs Act of 2011:
    The ``Streamlining Workforce Development Programs Act of 2011'' is 
an attempt to reduce bureaucracy and increase accountability across all 
federally-funded state workforce investments. For the purpose of this 
hearing, I will limit my comments to the sections that directly impact 
programs for military veterans.
    Currently 27 workforce initiatives receive Federal funding, 
including Chapters 20 and 41 of title 38 and Chapter 11 of title 10. 
These three programs provide funding for the Department of Labor 
Veterans Employment and Training Program (DoLVETS), which funds the 
operations of the disabled veterans outreach program (DVOP) specialists 
and local veterans' employment representatives (LVER), the homeless 
veterans reintegration programs, and military transition assistance 
program (TAP). The VFW is concerned with how the bill affects the 
implementation of these programs. The current veteran workforce program 
is not perfect, but it already supports an infrastructure to train 
workforce employees, provides employment outreach and training to 
veterans in local communities, offers $36 million in homeless veterans 
transitional housing grants, and provides resources for servicemembers 
to transition from military service to civilian life. H.R. 3610 seeks 
to effectively terminate these specific programs, leaving it to the 
discretion of the states to carry out veterans' employment and 
transition services on an ad-hoc basis.
    At a time when veteran unemployment is disproportionately high, 
tens of thousands of servicemembers are scheduled to leave military 
service, and veteran homelessness appears to be in decline, the VFW 
believes that ending these programs to reproduce them at a state level 
will be detrimental to the veterans who rely on the services. Unlike 
other workforce investment programs, Department of Labor's veteran-
specific systems have strict annual reporting mandates, and frequent 
audits have demonstrated that the programs are cost effective in their 
current form. Not only will H.R. 3610 appropriate equal funding for 
fewer veteran services, but the bill will also reduce oversight of the 
quality and reporting of employment trends by requiring reports only 
every four years. The VFW opposes H.R. 3610 and encourages the 
Committee to take the appropriate steps to preserve veterans' workforce 
development programs, which we will continue to discuss with H.R. 4072.

    H.R. 3670, to require the Transportation Security Administration to 
comply with the Uniformed Services Employment and Reemployment Rights 
Act:
    Currently, the Uniformed Services Employment and Reemployment 
Rights Act (USERRA) protects members of the National Guard and Reserve 
from employment discrimination based on military service obligations. 
Over the past decade, USERRA has become vitally important to our 
nations Reserve forces. Without it, regular deployments, both stateside 
and abroad, would greatly exacerbate unemployment problems for our 
Reserve Component servicemembers, who already face significant 
disadvantages in a competitive job market as a result of increased 
operational tempo. USERRA helps ensure that members of the Guard and 
Reserve who are called to active duty can return to their civilian jobs 
and their seniority when they return from military service. Today, 
USERRA protects all civilian and Federal employees with the exception 
of one Federal employer, the Transportation Security Administration 
(TSA). In an effort to quickly stand up a new and effective law 
enforcement agency to ensure security after 9/11, Congress created TSA 
with a specific exemption from traditional employment protections, 
including USERRA, for its employees. More than a decade later, TSA is 
still not required to hold positions and promotions for employees who 
are called away to serve. The VFW believes it is time for this loophole 
to be closed. The Reserve Component employees at TSA must receive the 
employment and reemployment rights they have earned, and TSA should 
come into compliance with the rest of the Federal government. Closing 
this loophole is not only beneficial for our servicemembers, but the 
VFW believes the TSA will also benefit by offering our military's best 
and brightest the opportunity to pursue a meaningful civilian career 
without the persistent threat of possible termination for service 
obligations. In discussions with TSA, officials have not indicated this 
change will have any adverse effects on security, so closing the 
loophole would not impact TSA's effectiveness in the field; it would 
simply offer Reserve Component employees the piece-of-mind they 
deserve. It is our hope that the passing of this legislation will send 
a clear message that veteran employment is an extremely important 
issue, and the Federal government must take a leadership role in its 
promotion. We thank the Committee for taking the lead on this 
initiative and offer the support of the VFW for H.R. 3670.

    H.R. 3524, Disabled Veterans Employment Protection Act:
    The VFW supports H.R. 3524, the Disabled Veterans Employment 
Protection Act, but also has concerns about potential effects on the 
businesses and corporations that we are encouraging to employ veterans.
    The legislation guarantees that a veteran who must be absent from 
work to receive medical treatment for a service-connected disability 
cannot be terminated from their job because they are seeking such 
medical attention. The VFW fully supports affording veterans employment 
protections as they receive care in conjunction with an injury incurred 
through their military service. Such protections are critical to 
helping veterans be productive in the workforce.
    This legislation outlines a limitation of 12 workweeks during any 
12 month period, and we understand that questions have been raised 
about the necessity for a protection that covers a full week per month. 
Though the perils of a life of military service often cause veterans to 
need regular visits as they work to overcome the visible and invisible 
wounds of war, we must achieve a balance that does not jeopardize the 
career potential of a veteran seeking medical treatment. Potential 
employers are cognizant of the struggles a veteran faces, and they 
often are willing to make limited sacrifices to employ a veteran. Over 
the years, the VFW has worked with companies to promote veteran 
entrepreneurship and employment. Congress must do everything in its 
power to ensure veterans have every career opportunity, and that effort 
must focus on eliminating unnecessary hardships veterans encounter 
while seeking care.
    To help ensure the partnership between veterans and employers is an 
enduring one, and to provide the best possible care while minimizing 
interference in the career endeavors of our disabled veterans, we 
strongly believe VA must reform their medical care appointment 
practices and procedures with an emphasis on efficiency for the 
veteran. VA must do much more to ensure timely access to high-quality 
and efficient care. Among other things, we believe VA must prioritize 
the consecutive scheduling of appointments, must begin open access 
scheduling and provide expanded hours for appointments, and must put in 
place measures to prevent the need to reschedule an existing 
appointment. We understand that VA aims to alleviate these concerns 
through the Patient-Aligned Care Team model of care, and we fully 
support these and other efforts to streamline the impact of a veteran's 
care regimen at VA on their daily lives.
    Veterans who have earned the right to receive care at VA must not 
be punished in the workplace as a result; yet these protections are 
critical to prevent medical conditions from being used as a precursor 
to termination from employment. Such practices must be eliminated 
wherever they are found, and this added protection is a welcome change 
for veterans. Veterans want to be productive members of society, and 
providing the tools and opportunities to that end must always be a top 
priority.

    H.R. 4048, Improving Contracting Opportunities for Veteran-Owned 
Small Businesses Act of 2012:
    H.R. 4048 clarifies provisions of the Veterans First Contracting 
Program (P.L. 109-461) as it pertains to contracts awarded through the 
Federal Supply Schedule (FSS) for the purpose of meeting the percentage 
goal for contracting with Service-Disabled Veteran-Owned Small 
Businesses (SDVOSBs), and the VFW is proud to support this bill.
    Sections 502 and 503 of P.L. 109-461 authorized a set of special 
contracting tools that make it easier for contracting officers to offer 
contracts to SDVOSBs. These tools include a statement of priorities 
relative to other set-aside groups, such as 8(a), as well as dollar 
thresholds for certain type of procurement actions such as sole source 
contracts. It also provides continuation of veteran-owned status for 
surviving spouses of 100-percent service disabled veteran owners for a 
period of 10 years.
    Past VA statements regarding the application of the small business 
provisions is P.L. 109-461, now codified in title 38 U.S.C. Section 
8127, have created confusion regarding FSS purchases, leading VA to the 
perception that they must first satisfy other contracting set-aside 
mandates before seeking out SDVOSBs for FSS contracts. VA has even 
admitted that under certain circumstances, SDVOSBs seemed to be last in 
line to receive FSS work. The VFW believes that veterans should come 
first, as outlined in P.L. 109-461. H.R. 4048 would simply clarify that 
the small business provisions of Section 8127 apply to FSS purchases 
and do not expand the original intent of the law. By law, all Federal 
agencies have a goal to award at least three percent of their contracts 
to SDVOSBS. We understand that VA awarded nearly $450 million last year 
to SDVOSBs through the Federal Supply Schedules and we believe this 
clarification will encourage SDVOSBs to qualify for VA procurements 
through the FSS, and ensure all government agencies play by the same 
rules with regard to veteran set-aside contracts.

    H.R. 4051, TAP Modernization Act of 2012:
    As the debate on whether or not to mandate participation in the 
military's transition assistance program (TAP) unfolded, the VFW 
learned that many servicemembers on active duty failed to understand 
why they would need to participate in the program. However, once 
servicemembers left the military, many wondered why they never received 
comprehensive training and information on how to access their earned 
benefits and successfully transition from military to civilian life. 
Unfortunately, a veteran has no way to reasonably anticipate all of the 
challenges he or she may face once out of the military, which is why 
the VFW believes TAP resources must be available to veterans after they 
have transitioned off of active duty. The VFW supports H.R. 4051 and 
its pilot program to offer off-base TAP to communities where veterans 
have been hit disproportionately hard by difficult economic times.

    H.R. 4052, Recognizing Excellence in Veterans Education Act of 
2012:

    The VFW supports the idea behind this bill, but has some concerns 
about the bill's specific criteria for the Secretary to determine 
Excellence in Veterans Education Awards. The VFW believes that VA would 
be interested in offering this kind of rating to schools that 
consistently go above and beyond to best meet the needs of their 
student-veterans, and we support offering this kind of easy-to-
understand evaluation for student-veterans. The difficulty is 
determining quality criteria with which to evaluate institutions. The 
VFW believes student-veteran advisory boards, student-veteran services, 
and additional criteria determined by VA are good criteria. However, we 
are concerned that membership in Servicemembers Opportunity Colleges 
(SOC) and graduation rates would not effectively capture whether or not 
a school serves the needs of its student-veterans. Graduation rates are 
a flawed statistic as currently compiled by Department of Education 
since the department only tracks first-time, full-time college 
attendees. The VFW believes today's graduation statistics are nearly 
irrelevant for non-traditional students like student-veterans and could 
skew decisions when used to evaluate how schools best serve their 
student-veterans. The VFW recommends instead that VA evaluate schools 
on a ratio of degrees conferred compared to enrollment each year. 
Discussions with the National Center on Education Statistics indicate 
that schools must already report these data points to the Department of 
Education, meaning the data should be readily available.
    SOC membership poses the perpetual question about universal 
acceptance of credits and reduced residency policies. The VFW wholly 
supports the mission of SOC and we encourage schools to sign on, but we 
understand that some colleges and universities must reserve the right 
to evaluate transferred credits on a case-by-case basis, only award 
credit where appropriate, and hold fast to reasonable residency 
requirements for all students. The VFW would support criteria that a 
school is either a member of SOC or offers a clear policy on evaluating 
and accepting military college credits. Two examples of non-SOC schools 
that have excellent track records in serving today's veterans are 
Georgetown University and Columbia University. Both schools have 
dedicated considerable resources to attracting veterans to their 
campuses and offering the tools they would need to succeed. The VFW 
would need assurances that VA would not preclude schools like 
Georgetown and Columbia from recognition solely for failing to 
participate in SOC.
    The VFW also has questions over how VA will evaluate Yellow Ribbon 
participation. For example, many state schools do not necessarily need 
to sign Yellow Ribbon agreements since their enrollment policies 
already ensure that student-veteran costs are completely reimbursed 
through the Post-9/11 G.I. Bill. For example, my alma mater, the 
University of Rhode Island (URI), is not a Yellow Ribbon participant, 
but Chapter 33 already covers the full cost of education. The VFW would 
need assurances that schools like URI, which have instituted proactive 
policies to best meet the financial needs of student-veterans, would 
not be penalized for non-participation in Yellow Ribbon.
    Finally, the VFW has questions over how many schools VA could 
recognize and whether VA should establish a reasonable threshold for 
its schools of excellence. We agree with the three-year evaluation 
model, but caution that recognizing too many schools could only lead to 
further confusion for student-veterans when choosing an academic 
program. The VFW suggests limiting the awards to one school from each 
of the following categories in each state: Public, 4-year; public, 2-
year; private, non-profit; proprietary. The VFW would also suggest that 
VA develop a ``Top 10'' list for schools in each of these categories 
nationwide.

    H.R. 4057, Improving Transparency of Education Opportunities for 
Veterans Act of 2012:
    Last year, a Senate investigation spearheaded by Sen. Tom Harkin 
(D-IA) indicated that veterans may not be receiving the quality 
education we had intended through the Post-9/11 G.I. Bill. The VFW 
believes this investigation caught the attention of deficit hawks on 
Capitol Hill, who subsequently asked the Congressional Budget Office to 
score several scenarios on how to scale back the Post-9/11 G.I. Bill 
benefit. The VFW believes this is the wrong approach. The Post-9/11 
G.I. Bill stands to be a transformative benefit for today's veterans. 
The VFW believes it has the potential to mold our nation's next 
Greatest Generation of leaders, and any efforts to scale back the 
benefit are a disservice to the men and women who have fought in 
defense of our Nation for the last decade. With this in mind, the VFW 
sought to understand why numbers seemed to indicate that proven 
battlefield leaders were making potentially bad decisions on how to use 
their education benefits. The VFW discovered a critical gap in VA's 
efforts to provide quality information to potential student-veterans 
with which they could make an informed, data-driven educational 
decision. When we prepare our troops to go to war, we ensure they have 
the best possible training to make life or death decisions in a 
moment's notice. When we prepare our veterans for college, the VFW 
believes we must offer the same due diligence in preparing them to 
choose a quality school.
    Since VA implemented the Post-9/11 G.I. Bill, the department has 
primarily focused on ensuring student-veterans receive timely, accurate 
payments to finance an education. The VFW agrees that this had to be 
VA's top priority for the fledgling benefit. Unfortunately, as more and 
more veterans sought to take advantage of their earned educational 
opportunities, VA was left without the proper resources to ensure that 
veterans knew how best to use their benefits. Under Section 3697A of 
title 38, VA is obligated to offer educational and career counseling to 
any separating servicemember or G.I. Bill eligible veteran. 
Unfortunately, this counseling is only offered through a meticulous 
``opt-in'' process, and total available counseling is capped at $6 
million each year. In 2011, the VA proudly touted that nearly 1 million 
veterans were enrolled in G.I. Bill programs. However, during the same 
year, only 6,400 veterans received counseling on their benefits through 
Section 3697A.
    The VFW believes that Congress must remove the cap to VA's 
educational counseling and mandate that VA contact veterans at 
different touch points prior to utilizing their educational benefits in 
an effort to deliver this counseling. Veterans who do not wish to 
receive educational counseling must still have the option to refuse it, 
but the VFW believes that creating an ``opt-out'' system ensures that 
all potential student-veterans understand their benefit and understand 
the importance of their educational choice.
    Unfortunately, even with robust consumer education, student-
veterans may still become the victims of fraud, waste, or abuse. 
Veterans may be coerced into choosing an academic program of little 
value to their career aspirations based on misinformation or dubious 
enrollment practices. If a veteran feels he or she has been a victim of 
fraud, waste or abuse, VA must offer a clear method of reporting and 
recourse through which to track student-veteran complaints. VA must 
then leverage the information gleaned from these complaints to find 
remedies for students by working with State Approving Agencies, 
accrediting bodies, the departments of Education, Justice and Defense, 
and all other pertinent stakeholders. If a veteran receives an 
overpayment in education benefits or files a fraudulent benefits claim, 
VA has the ability to quickly take action against the veteran. VA must 
have the same capability to protect its beneficiaries against schools 
that fail to deliver on their educational promises.
    The VFW proudly supports H.R. 4057, which offers a critical first 
step in ensuring that student-veterans are properly informed about 
their benefits and have proper recourse for fraud, waste and abuse. 
However, in addition to creating Section 3698 in title 38, the VFW 
wants to see Section 3697A amended to ensure that VA must contact 
veterans prior to delivering G.I. Bill benefits, ensuring they can 
``opt-out'' of counseling. The VFW believes that VA is already taking 
proactive steps to ensure current service-members receive this kind of 
information through the transition assistance program (TAP) and that 
veterans who apply for G.I. Bill benefits are exposed to critical 
information before tapping into their benefits. We applaud these steps, 
but would prefer a legislative solution to ensure that policies remain 
consistent beyond VA's current administration. World War II veteran and 
G.I. Bill success story Sen. Frank Lautenberg will introduce 
legislation with many of these ideas to help improve consumer education 
and consumer protection for student-veterans. We encourage the 
Subcommittee to work with the Senator and his staff to discuss how to 
best implement the kinds of protections we know our veterans need.
    Since the original G.I. Bill of World War II, our Nation has seen 
time and again that educating our veterans helps ensure future 
prosperity. We have a unique opportunity today to ensure that our 
veterans can use the benefits they have earned to receive the quality 
education we have promised to them. The VFW looks forward to working 
with the Subcommittee on H.R. 4057 and other pieces of legislation to 
ensure that we keep our promise.

    H.R. 4072, Consolidating Veteran Employment Service for Improved 
Performance Act of 2012:
    H.R. 4072 will protect veterans' workforce programs by moving the 
agency authority from Department of Labor to Department of Veterans 
Affairs. The VFW supports this bill, believing that placing all veteran 
issues under a single authority will improve oversight and efficiency.
    However, the VFW has concerns regarding implementation of H.R. 4072 
should it become law by itself or in conjunction with H.R. 3610. First, 
the VFW requests that Congress gives clarity in scope of the 
jurisdictional shift by including Section 1144 of title 10, the TAP 
program, in Section 2, paragraph (a) of H.R. 4072, as well as including 
conforming amendments that will affect title 10. Also, if DVOP and LVER 
positions are consolidated, as recommended in H.R. 4072, National 
Veterans' Employment and Training Service Institute must be modified to 
ensure that all current and future employees are fully trained to the 
new standard. The VFW must also have assurances that no positions will 
be lost in combining the two job descriptions into one. Congress must 
also pay attention to H.R. 3610 to ensure that if both bills are 
enacted that H.R. 4072 is amended to prevent the defunding of the DoL-
VETS workforce investment programs.
    The VFW believes that shifting responsibility for veterans' 
employment programs to VA will ultimately ensure better service for our 
nation's veterans. However, we must ensure that any legislation that 
passes ensures that veterans' workforce programs remain fully funded, 
and that any transition of authority happens with minimal interruptions 
for both the veterans who rely on DoL-VETS services and the highly-
trained employees who deliver those services.
    Mr. Chairman, this concludes my statement and I am happy to answer 
any questions the Subcommittee may have.

    Information Required by Rule XI2(g)(4) of the House of 
Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any Federal grants in Fiscal Year 2012, nor has it 
received any Federal grants in the two previous Fiscal Years.

                                 <F-dash>
                Prepared Statement of Steve L. Gonzalez
    Chairman Stutzman, Ranking Member Braley and distinguished Members 
of the Subcommittee:
    On behalf of the 2.4 million members of The American Legion I thank 
you for this opportunity to submit The American Legion's views on the 
legislation being considered by the Subcommittee today. We appreciate 
the efforts of this Subcommittee to address the different needs of the 
men and women who are currently serving and those who served during 
past conflicts.
                               H.R. 3329
    To amend title 38, United States Code, to extend the eligibility 
period for veterans to enroll in certain vocational rehabilitation 
programs.
    The number of servicemembers, National Guard, and reservists who 
separate from active duty with service-connected disabilities has risen 
as a result of the engagement of the U.S. Armed Forces in Iraq and 
Afghanistan. The program's purpose is to counsel and rehabilitate 
veterans, with an emphasis on employment and independent living. The 
program provides comprehensive services and assistance to enable 
veterans with service-connected disabilities and employment handicaps 
to achieve maximum independence in daily living, to become employable, 
and to obtain and maintain suitable employment.
    However, the period of eligibility for VA Vocational Rehabilitation 
and Employment (VR&E) benefits is 12 years from the date of separation 
from the military or the date the veteran was first notified by VA of a 
service-connected disability rating. Many servicemembers and veterans 
do not understand their eligibility to VR&E services and the benefits 
of the program until later in life when they become so disabled that 
their disabilities create an employment barrier and, by, changing 
section 3103 of title 38, United States Code, veterans will be given 
ample opportunity to pursue these benefits in a reasonable time frame.
The American Legion supports this bill.
            H.R. 3483: Veterans Education Equity Act of 2011
    To amend title 38, United States Code, to provide equity for 
tuition and fees for individuals entitled to educational assistance 
under the Post-9/11 Educational Assistance Program of the Department of 
Veterans Affairs who are pursuing programs of education at institutions 
of higher learning, and for other purposes.
    Currently, the Post 9-11 Veterans' Educational Improvements 
Assistance Act capped the education benefit amount for veterans who 
enroll in private schools at $17,500 and limited the education benefit 
for those who enroll in public schools to the amount charged for 
resident tuition and fees. The Veterans' Education Equity Act of 2011 
would remedy this inequality and allow all veterans to receive up to 
$17,500 in education benefits. However, if in-state tuition exceeds 
$17,500, the bill would cover the full cost of tuition.
    The current law unintentionally burdens a significant number of 
America's servicemembers and veterans, requiring them to pay out-of-
pocket thousands of dollars in nonresidential tuition rates. This 
legislation is absolutely essential to thousands of veterans who were 
promised funding for their college education. Already numerous veterans 
have had to drop out, transfer, or assume tremendous financial burdens 
due to the recent change in law. This legislation is vital to give all 
veterans an equal opportunity to afford the school of their choice.
    The American Legion supports this bill.
   H.R. 3610: Streamlining Workforce Development Programs Act of 2011
    The Streamlining Workforce Development Programs Act of 2011 (H.R. 
3610), aims to consolidate and streamline redundant and ineffective 
Federal workforce development programs to increase accountability, 
reduce administrative bureaucracies and put Americans back to work. The 
legislation consolidates 33 programs into 4 funding streams or 
Workforce Investment Funds and, is as follows:

    <bullet>  A Workforce Investment Fund, which would provide formula 
funding to states for job training services to adults, unemployed 
workers, and youth seeking employment. The bill authorizes $4.3 billion 
annually for fiscal years (FYs) 2013-2018;
    <bullet>  A State Youth Workforce Investment Fund, which would 
provide formula funds to states to serve the nation's disadvantaged 
youth, with a focus on school completion. The bill authorizes $1.9 
billion annually for FYs 2013-2018;
    <bullet>  A Targeted Populations Workforce Investment Fund, which 
would provide formula funds to states for assistance to special 
populations, including Native Americans and migrant and seasonal farm 
workers. The bill authorizes $581 million annually for FYs 2013-2018; 
and
    <bullet>  A Veterans Workforce Investment Fund, which would provide 
formula funds to states for employment and training services to U.S. 
veterans. The bill authorizes $218 million annually for FYs 2013-2018.

    In comparison to the other three investment funds, the Veterans 
Workforce Investment Fund will be underfunded, ill-equipped, and a 
disservice to America's servicemembers and veterans utilizing this 
program to reenter the workforce. Even though the key provision of this 
legislation is to address the overlapping programs provided by the 
Federal government, it does little, if anything, to address the 
differences in eligibility, objectives, and service delivery to their 
respective clients, in this case, America's veterans.
    The American Legion opposes this bill.
                               H.R. 3670
    To require the Transportation Security Administration to comply 
with the Uniformed Services Employment and Reemployment Rights Act
    Uniformed Services Employment and Reemployment Rights Act (USERRA) 
became law in 1994 in an effort to protect military reservists' 
civilian employment when they are called on to serve the Nation in a 
full-time capacity. In the Post-9/11 era, operation tempos have 
increased dramatically, and reserve forces, to include the National 
Guard, have been called on regularly to serve both at home and abroad 
as an operational force. USERRA is designed to protect the employment 
of these servicemembers as they serve by requiring employers to retain 
the positions of reservists who have been called to active duty. 
However, due to a loophole in the law, there is one employer who is 
exempt from these provisions: the United States Transportation Security 
Administration (TSA).
    As an agency of the United States government, TSA has a 
responsibility to fully comply with the law, and, according to USERRA, 
to be a ``model employer'' in the protection of employment and 
reemployment rights of our nation's veterans and Reservists.
    The American Legion supports this bill.
                               H.R. 3524
    To amend title 38, United States Code, to provide certain rights 
for persons who receive treatment for illnesses, injuries, and 
disabilities incurred in or aggravated by service in the uniformed 
services, and for other purposes.
    During the war in Iraq and Afghanistan, more veterans are returning 
to the United States with disabilities such as traumatic brain injury 
and Post-Traumatic Stress Disorder, or PTSD. While people with these 
disabilities do not necessarily show physical signs of injury, these 
conditions are still considered disabilities under the Washington Law 
Against Discrimination (WLAD), RCW 49.60. The WLAD also prohibits 
discrimination based on disability.
    Reemployment rights have been a source of struggle between 
employers and returning servicemembers for a long time. The House 
Committee on Veterans' Affairs often hears about veterans' struggling 
to obtain employment. But for those who do have a job and are deployed, 
they often return to find themselves unemployed. Anecdotally, the House 
Committee on Veterans' Affairs has been informed that employers don't 
want to deal with deployments, have spent time and resources training 
temporary staff, and may not want to reemploy the servicemember for 
other reasons; USERRA enforcement helps alleviate these concerns.
    Veterans and military personnel face a number of issues when 
returning to civilian life. The Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA) is a Federal law designed to 
protect military personnel with respect to their civilian careers. 
Specifically, the Act intends to ensure that military personnel (1) are 
not disadvantaged in their civilian careers because of their military 
service; (2) are promptly reemployed in their civilian jobs upon their 
return from military duty; and (3) are not discriminated against in 
employment based on past, present, or future military service.
    However, USERRA does not require employers to allow veterans with 
service-connected disabilities to be absent from the workplace to 
receive treatment for their disabilities and therefore may often be the 
target of employment discrimination. There is a need to clarify and 
strengthen USERRA to require employers to accommodate the absences of 
service-connected veterans for medical services.
    The American Legion supports this bill.
H.R. 4048: Improving Contracting Opportunities for Veteran-Owned Small 
                         Businesses Act of 2012
    To amend title 38, United States Code, to clarify the contracting 
goals and preference of the Department of Veterans Affairs with respect 
to small business concerns owned and controlled by veterans.
    America has benefited immeasurably from the service of its 22 
million living veterans, who have made great sacrifices in the defense 
of freedom, preservation of democracy, and the protection of the free 
enterprise system. Due to the experience veteran's gain in the 
military, the success rate of veteran-owned businesses is higher than 
non-veteran-owned businesses. The current Global War on Terror has had 
a devastating impact on the Armed Forces and has exacerbated this 
country's veterans' unemployment problem, especially within the 
National Guard and Reserve components. According to the most current 
Federal data available, veterans owned 2.4 million businesses. Another 
1.2 million firms were at least 50 percent veteran owned \1\ within the 
fifty states and District of Columbia. According to this survey, 
veteran-owned and co-owned firms accounted for 13.5 percent of all non-
farm businesses in the United States, employed 11 million people (4.9 
percent of total U.S. employment) and generated $1.655 trillion in 
receipts. \2\
---------------------------------------------------------------------------
    \1\ http://web.sba.gov/faqs/faqIndexAll.cfm?areaid=24
    \2\ Survey of Business Owners - Veteran-Owned Firms: 2007. U.S. 
Census Bureau. http://www.census.gov/econ/sbo/get07sof.html?17
---------------------------------------------------------------------------
    The barriers to entry for small businesses are numerous: weak 
policies and rules that limit the effectiveness of tools that are 
supposed to facilitate contracting opportunities; inadequate workforce 
training to help contracting officers, small business advocates, and 
program offices to successfully use contracting tools; and a lack of 
coordination among and accessibility to agency training and outreach 
events designed to help small businesses navigate the contracting 
system. Action must be taken to remove these barriers and ensure small 
businesses get access to Federal contracts. The American Legion fully 
understands and support Title 38 section 8127 and 8128 does not 
automatically award VA government contracts to SDVOSB / VOSB; however, 
when qualified SDVOSB / VOSB are being overlooked or ignored by the VA 
this is cause for great concern.
    VA and SBA should develop a comprehensive partnership to assist 
veterans who are interested in participating in Federal procurement, 
with each department utilizing their resources to ensure proper 
implementation. As interpreted by Federal Court, the VA is mandated by 
law to purchase all products and services from SDVOSB / VOSB as 
mandated by the Veteran First law, as long as those SDVOSB / VOSB meet 
both the legal and contract requirements. Any regulations, policies, 
and procedures disseminated by the VA that deny SDVOSB / VOSB their 
contracting preference and priority as defined by the United States 
Court of Federal Claims is a violation of law.
    The American Legion supports this bill.
                H.R. 4051: TAP Modernization Act of 2012
    To direct the Secretary of Labor to provide off-base transition 
training, and for other purposes.
    Unfortunately, many of the thousands of servicemembers who are 
currently leaving the service are from combat arms and non-skilled 
military specialties. These military acquired skills are not readily 
transferable to the civilian labor market. However, these individuals 
do possess significant skills in the areas of leadership, strategic 
planning, risk assessment, and management. These are skills that any 
employer would find beneficial to accomplishing their organizational 
goals.
    Annually, the Department of Defense (DoD) discharges approximately 
160,000 servicemembers. New delivery methods and innovative ways are 
needed to reach America's servicemembers through the Transition 
Assistance Program (TAP). H.R. 4051 allows for veterans and their 
spouses to be better informed on education, employment and business 
opportunities once they transition into the civilian workforce; as well 
as provide information on military occupations that require licenses, 
certificates, or other credentials at the local, state, or national 
levels.
    The American Legion supports this bill.
  H.R. 4052: Recognizing Excellence in Veterans Education Act of 2012
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to establish an honorary Excellence in Veterans 
Education Award.
    The American Legion has no position on this bill.
   H.R. 4057: Improving Transparency of Education Opportunities for 
                          Veterans Act of 2012
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to develop a comprehensive policy to improve outreach 
and transparency to veterans and members of the Armed Forces through 
the provision of information on institutions of higher learning, and 
for other purposes.
    In 1945, The American Legion helped pave the way for affordable 
post-secondary education with the passage of the first GI Bill. In 
2009, the Post-9/11 GI Bill brought a new era of assistance for a new 
generation of servicemembers and veterans to pay for post-secondary 
education.
    The Post-9/11 GI Bill has changed the role of an institution in 
administering benefits. Tuition and fee benefits under the Post-9/11 GI 
Bill are paid directly to the post-secondary institution, while the 
monthly housing allowance, books and supplies stipend, and rural 
relocation payment are paid directly to the student by the Department 
of Veterans Affairs (VA). The VA determines student eligibility and 
works with the School Certifying Official (SCO) at each post-secondary 
institution to have the student's enrollment certified and administer 
benefits. Because the tuition and fee portion of the benefit is paid 
directly to the post-secondary institution, institutions have the 
information necessary to identify Post-9/11 GI Bill beneficiaries.
    Since the Post-9/11 GI Bill went into effect in August 2009, there 
has been dramatic growth in both the number of beneficiaries and 
benefits payments under the program. In fiscal year 2010, over $5 
billion in education benefits were expended for the Post-9/11 GI Bill 
alone. An additional $3 billion supported the other remaining education 
benefit programs administered by the VA. The increase in beneficiaries 
and Federal dollars expended has led to demand for more information 
for: (1) veterans and military servicemembers looking to use their 
educational benefits; and (2) policymakers to assess the effectiveness 
of benefits programs and return on investment.
    Currently, there are some data collection mediums in its infancy 
stages (e.g., Scorecard); while there are others who have done 
extremely well at data collection (e.g., College Navigator and College 
Portrait) who has been able to capture total estimated costs; student 
demographics; student success and progress; and educational outcomes; 
allowing you to be an informed consumer when choosing your post-
secondary institution. Contrary to popular belief, transparency is not 
a vile word, but rather a word and action that will provide enough 
information that the decision maker(s) can mitigate the adverse effect 
of potential decisions, in this case, choosing the appropriate post-
secondary institution.
    The American Legion supports this bill.
   H.R. 4072: Consolidating Veteran Employment Services for Improved 
                        Performance Act of 2012
    To amend title 38, United States Code, to improve employment 
services for veterans by consolidating various programs in the 
Department of Veterans Affairs, and for other purposes.
    Many of the benefits and services provided to the men and women now 
leaving active duty are rooted in programs and organizations 
established in the closing days of World War II, more than half a 
century ago. Since that time, profound changes have occurred in the 
Nation and the armed services and in the individuals who served in 
uniform. Our country's economic and social environments have changed 
dramatically; however, the policy and operational direction governing 
the provision of employment services to veterans remain from an earlier 
era. Service members and veterans' employment services, as they are now 
constituted, organized, and delivered, will not be adequate or 
effective for helping servicemembers and veterans find jobs in the 21st 
century.
    If priority of service is intended to enhance a veteran's 
probability of securing civilian employment as he/she transitions from 
the military, then the emphasis must be placed on priority for 
delivering services at the time of transition.
    The American Legion supports placing all DoL-VETS programs 
dedicated to serving veterans under Department of Veteran Affairs; in 
turn, increasing the coordination between the various education, 
rehabilitation and employment programs whose goals are to enable 
veterans to successfully compete in the workforce. Veterans' employment 
services need to be totally reengineered to meet the new reality of a 
highly automated, integrated, and customer-focused environment. 
Components of Federal programs must be better integrated and 
consolidated to better serve transitioning veterans, as well as those 
dealing with disabilities or facing employment barriers. Furthermore, 
The American Legion finds that divided responsibility for employment 
assistance of veterans leaves neither DoL nor VA fully and completely 
accountable because neither has ultimate control over program success 
or failure. As such, veterans will be served better if DoL-VETS were 
placed under the management of the Department of Veterans Affairs.
    The American Legion supports this bill.
    The American Legion appreciates the opportunity to comment on the 
bills being considered by the Subcommittee. I would be happy to answer 
any questions you might have. Thank you.
Executive Summary
    The American Legion supports H.R. 3329. The American Legion 
believes servicemembers and veterans do not understand their 
eligibility to VR&E services and the benefits of the program until 
later in life when they become so disabled that their disabilities 
create an employment barrier and, by, changing section 3103 of title 
38, United States Code, veterans will be given ample opportunity to 
pursue these benefits in a reasonable time frame. The American Legion 
supports H.R. 3483. The American Legion believes the current law 
unintentionally burdens a significant number of America's 
servicemembers and veterans, requiring them to pay out-of-pocket 
thousands of dollars in nonresidential tuition rates. This legislation 
is absolutely essential to thousands of veterans who were promised 
funding for their college education. The American Legion opposes H.R. 
3610. Key provision of this legislation is to address the overlapping 
programs provided by the Federal government to veterans; however, it 
does little, if anything, to address the differences in eligibility, 
objectives, and service delivery to their respective clients, in this 
case, America's veterans.
    The American Legion supports H.R. 3670. The American Legion 
believes as an agency of the United States government, TSA has a 
responsibility to fully comply with the law, and, according to USERRA, 
to be a ``model employer'' in the protection of employment and 
reemployment rights of our nation's veterans and Reservists.
    The American Legion supports H.R. 3524. The American Legion 
believes there is a need to clarify and strengthen USERRA to require 
employers to accommodate the absences of service-connected veterans for 
medical services. The American Legion supports H.R. 4048. The American 
Legion believes any regulations, policies, and procedures disseminated 
by the VA that deny SDVOSB / VOSB their contracting preference and 
priority as defined by the United States Court of Federal Claims is a 
violation of law; furthermore, enforcement of the rule of law is vital 
to Department of Veterans Affairs compliance. The American Legion 
supports H.R. 4051. The American Legion believes H.R. 4051 allows for 
veterans and their spouses to be better informed on education, 
employment and business opportunities once they transition into the 
civilian workforce; as well as provide information on military 
occupations that require licenses, certificates, or other credentials 
at the local, state, or national levels.
    The American Legion has no position on H.R. 4052. The American 
Legion supports H.R. 4057. The American Legion believes that 
transparency which provides enough information to the decision maker(s) 
to allow servicemembers and veterans to make fully-informed decisions 
about institutions of higher learning can help to mitigate some of the 
issues associated with this choice, and help to ensure that their 
choice which is in line with their goals and objectives. The American 
Legion supports H.R. 4072. The American Legion supports placing all 
DoL-VETS programs dedicated to serving veterans under Department of 
Veteran Affairs; in turn, increasing the coordination between the 
various education, rehabilitation and employment programs whose goals 
are to enable veterans to successfully compete in the workforce.
                                 <F-dash>
                 Prepared Statement of Jason R. Thigpen
    Distinguished Committee members - My name is Sergeant Jason R. 
Thigpen of the U.S. Army National Guard. I am the Co-Founder and 
President of the Student Veterans Advocacy Group. Thank you for 
allowing me the opportunity to testify here today, on a bill we helped 
draft, HR 3483 - ``The Veterans Education Equity Act of 2011''.
    The Student Veterans Advocacy Group is an organization run by 
student Veterans, for student Veterans and their dependents. Our 
mission is to ensure all Veterans, and/or their dependents, are 
provided the full educational benefits intended and promised to them 
upon the completion of their time-in-service, under conditions other 
than a dishonorable discharge.
    The detrimental impact suffered by student Veterans across North 
Carolina, and approximately 40 other states, due to the change in 
Federal law, the Post-9/11 Veterans Educational Assistance Act of 2010 
(Public Law 111-377) on January 4, 2011. As a direct result of this 
change in law thousands of student Veterans, and prospective student 
Veterans alike, faced the never-before issue of in-state residency for 
tuition purposes.
    In a sense, our active-servicemembers and current student Veterans 
whom, by-in-large, had no idea their State of residency for tuition 
purposes would invariably be the determining factor as to whether they 
could afford, much less, attain the educational benefits promised to 
them - for the sacrifices they made to protect our nation.
    One student Veteran emailed stating,

    ``After proudly serving my country for more time deployed than home 
with my family, while losing friends in Iraq, and then moving my family 
to North Carolina for a better tomorrow . . . it's just not fair for my 
country to take the education benefits from me, leaving me to have to 
move my family back to Washington and in with our family just so I 
could afford to pay the $10,000 out of my pocket, for something 
promised to me of which I sacrificed blood, sweat, and tears for. It's 
just not right. This is not the kind of principles I was taught from my 
time in service.''

    As student Veterans attending UNC-Wilmington, as supporters for 
both our active-servicemembers and Veterans, and as disabled American 
Veteran - I was nearly brought to tears when hearing another student 
Veteran say,

    ``I'm supposed to graduate in December 2012, and may not be able to 
now.''
    Another student Veteran emailed stating,

    ``Had it not been for close friends and family, in the last few 
months, helping me out, I would be living out of my car. I'm not quite 
sure how these sudden changes in the GI Bill happened, but it's not 
what I was promised when I signed up. It's almost like being tossed in 
the deep in of the pool with a ruck-sack full of boulders.''
    I met with a student Veteran, also attending UNC-Wilmington, 
regarding this issue. He was literally crying, preventing him from even 
speaking for nearly five minutes. I was so affected by his pain tears 
came to my eyes. Three-quarters of the way into the semester he states,

    ``I may have to drop out of school by weeks-end . . . I received an 
email from the school's finance office that said I still have a balance 
of about $3,500 owed to the school, which must be paid within one week 
in order to not be dropped by the school.''
    According to Public Law 111-377, the Post-9/11 Veterans Educational 
Assistance Act of 2010,

    ``The Congressional Budget Office estimates a potential cost 
savings of $1 million over the 2011-2015 period, and a savings of $734 
million over the 2011-2020 period.''
    From the inception of the GI Bill in the 1940s, nearly 8 million 
servicemembers were transformed from the educational benefits, never 
known before. There was nearly a 7-dollar yield per 1-dollar investment 
into our Veterans, due to the GI Bill. Not only did the GI Bill allow 
the military to become competitive with respect to many other jobs 
available nationwide, but it created an advantage for servicemembers to 
attain a college degree. This invariably lead to them getting better 
grades, better jobs, owning more businesses, and thusly paying more 
taxes, leading into one of the greatest investments, providing economic 
success for both a short and long-term basis.
    According to a working group comprised of UNC system officials 
named UNC SERVES, in their April 2011 Report to the President:

    ``Veterans earn better grades and have a 75 percent graduation 
rate. With the exception of white males, veterans in all other race and 
gender groups earn more money than their non-veteran counterparts. 
Veterans start more small businesses. In general, Veterans outperform 
non-Veterans.''
    ``To realize this potential our state must actively support 
military-affiliated students in its systems of public higher education. 
We want these students to choose a UNC education and we want them to 
live and work in North Carolina. The UNC SERVES Working Group believes 
that educating servicemembers yields a high return on investment for 
North Carolina and the nation. And, in doing so the University makes a 
significant down payment on the promise of UNC Tomorrow to be more 
demand-driven, relevant and responsive to the needs of North 
Carolina.''

    Additionally, one must consider the estimated economic impact on 
the state, expected to be nearly $26.5 Billion in 2013. Setting aside 
the simple fact that the educational benefits were promised, as in 
signing a promissory note, which is past due, Veterans just want to 
collect what was promised to them. It stands to reason that when 
changing such key variables, which have such a strong bearing on the 
economical prosperity of Our State and/or Nation's economy - when 
taking away Veterans educational benefits - the forecasted models 
previously used are no longer valid. As a result, our Nation has 
sacrificed the Billions of dollars, previously forecasted, for a ten-
year savings plan of about $734 Million.
    The outcome of which - is many of our Veterans will no longer 
achieve their educational goals, leaving more unemployed, whereby 
owning fewer businesses, directly resulting in an inverse affect, 
contradicting the economic forecasts previously researched and offered, 
yielding a negative return.
    Without change, there is no savings of $734 Million, due to the 
detrimental affects, both societal and economical alike, Our State and 
Nation will suffer.
    We now have an opportunity to resolve this, without the worry of 
seeking the estimated $137 Million per year needed to fund this bill. 
By utilizing the following cost-saving measures with respect to the 
current Federal budget, we can more than fully fund this bill . . . .we 
can save nearly $175 Million more at a time our Nation could use it.

       1. Based on the 2010 figures of over 75.6 Million outpatient 
visits to VA medical treatment facilities - reports of over-mailing, 
most likely due to a software printing error, of medical appointment 
reminders with blank pages following the actual reminders being mailed 
out to the patients, sometimes up to four per patient per month. 
Conservative estimate of this occurring 1.5 times per outpatient visit 
yields a saving of: (Office of VA, Veterans Health Administration)
        75.6 (# of outpatient visits in 2010) * 1.5 (occurrences) = 
$113.4 Million * .75 (total cost estimate per mailing) = $85.05 Million
       2. Transportation of brokered claim files among VA Regional 
Offices - Which could easily be done electronically from one 
centralized location saving: = $740,000 (est. spent by VARO each year)
       3. Overpayments of near $85 Million in transportation costs to 
VA Health Facilities, which could be recaptured by offering competitive 
awarding bid contracts, at a savings of: (Veterans Health 
Administration - Audit of Oversight Patient Transportation Contracts, 
'10) = $85 Million
       4. By creating more competitive contract administration in the 
VHA's Home Resp. Care Program, the cost could be reduced substantially 
and prevent overpayment of nearly $17 Million, saving: = $17 Million
       5. Through more stringent oversight of the acquisition 
processes, all inclusive, of medical equipment and supplies, there 
could be savings of: = $ 41 Million
       6. Through the utilization of better controls in clinical 
sharing agreements for both monitoring and negotiated practices when 
using non-competitive of the same for professional personnel, could 
save: = $ 60 Million
       7. Rather than making ``market'' purchases of heart-related 
items/replacements, using national contracts through competition would 
yield a substantial savings of nearly: = $ 22 Million
    TOTAL POTENTIAL SAVINGS FOUND: = $ 310.79 Million (per year)

    TOTAL YEARLY OFFSET TO SIGNING OUR BILL, HR 3483 = $137 MILLION 
LEAVING A DIFFERENCE REMAINING FOR OTHER VA PROGRAMS OF $ 173.79 
MILLION.
    Signing this bill into law would equalize education benefits for 
Veterans who attend public or private institutions of higher learning. 
In addition, the bill would reduce or eliminate the financial burden 
Veterans must pay out-of-pocket for their education. Currently, 
Veterans who enroll in private institutions are eligible for more 
benefits than Veterans who enroll at public institutions, including 
both community colleges and universities alike. This legislation would 
enable all veterans, regardless of whether they choose to attend a 
public or private institution, to be eligible to receive up to $17,500 
in education benefits per academic year.

    The result is a better future economical outlook and investment in 
our Nation, for now and tomorrow. With your help and sponsorship of HR 
3483 - ``The Veterans Education Equity Act of 2011'' . . . .you have a 
true chance to be heroes for thousands of our student Veterans across 
this great nation.

    Thanks so much for your time and consideration.

    Authored and advocated by:

    Jason R. Thigpen
    Co-Founder/President
    Student Veterans Advocacy Group
    Web site: www.mysvag.org
    Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e882899b87869c80818f988d86a89b9c9d8c8d869c9e8d9c8d9a89869b898c9e878b898b918f9a879d98c6879a8f">[email&#160;protected]</a>
    Phone: (910) 392-5936
Executive Summary--Student Veterans Advocacy Group
    Distinguished Committee members - My name is Sergeant Jason R. 
Thigpen of the U.S. Army National Guard. I am the Co-Founder and 
President of the Student Veterans Advocacy Group. Thank you for 
allowing me the opportunity to testify here today, on a bill we helped 
draft, HR 3483--``The Veterans Education Equity Act of 2011''.
    The detrimental impact suffered by student Veterans across North 
Carolina, and approximately 40 other states, due to the change in 
Federal law, the Post-9/11 Veterans Educational Assistance Act of 2010 
(Public Law 111-377) on January 4, 2011. As a direct result of this 
change in law thousands of student Veterans, and prospective student 
Veterans alike, faced the never-before issue of in-state residency for 
tuition purposes.
    From the inception of the GI Bill in the 1940s, nearly 8 million 
servicemembers were transformed from the educational benefits, never 
known before. There was nearly a 7-dollar yield per 1-dollar investment 
into our Veterans, due to the GI Bill. Not only did the GI Bill allow 
the military to become competitive with respect to many other jobs 
available nationwide, but it created an advantage for servicemembers to 
attain a college degree. This invariably lead to them getting better 
grades, better jobs, owning more businesses, and thusly paying more 
taxes, leading into one of the greatest investments, providing economic 
success for both a short and long-term basis.
    According to a working group comprised of UNC system officials 
named UNC SERVES, in their April 2011 Report to the President: 
``Veterans earn better grades and have a 75 percent graduation rate. 
With the exception of white males, veterans in all other race and 
gender groups earn more money than their non-veteran counterparts. 
Veterans start more small businesses. In general, Veterans outperform 
non-Veterans.''
    Without change, many of our Veterans will no longer achieve their 
educational goals, leaving more unemployed, whereby owning fewer 
businesses, directly resulting in an inverse affect, contradicting the 
economic forecasts previously researched and offered, yielding a 
negative return. We now have an opportunity to resolve this, without 
the worry of seeking the estimated $137 Million per year needed to fund 
this bill. By utilizing the following cost-saving measures with respect 
to the current Federal budget, we can more than fully fund this bill . 
. . .we can save nearly $175 Million more at a time our Nation could 
use it.
    Signing this bill into law would equalize education benefits for 
Veterans who attend public or private institutions of higher learning. 
In addition, the bill would reduce or eliminate the financial burden 
Veterans must pay out-of-pocket for their education. Currently, 
Veterans who enroll in private institutions are eligible for more 
benefits than Veterans who enroll at public institutions, including 
both community colleges and universities alike. This legislation would 
enable all veterans, regardless of whether they choose to attend a 
public or private institution, to be eligible to receive up to $17,500 
in education benefits per academic year. The result is a better future 
economical outlook and investment in our Nation, for now and tomorrow. 
With your help and sponsorship of HR 3483 - ``The Veterans Education 
Equity Act of 2011'' . . . .you have a true chance to be heroes for 
thousands of our student Veterans across this great nation.

    Authored by:

    Jason R. Thigpen
    Co-Founder/President

                                 <F-dash>
               Prepared Statement of Hon. Steve Gunderson
    MR. CHAIRMAN. On behalf of the Association of Private Sector 
Colleges and Universities (APSCU), and approximately 230,000 veteran-
students who choose to attend private sector colleges and universities 
(PSCUs) using their Post-9/11 GI Bill benefits, I want to thank 
Chairman Marlin Stutzman (R-IN) and Ranking Member Bruce Braley (D-IA) 
for the opportunity to further express support for legislation that 
would truly strengthen consumer protections for our veterans and ensure 
that every institution of higher education lives up to the standard of 
educating our nation's best and brightest. Please, also, allow me to 
briefly recognize the other organizations for their leadership on this 
issue, and in whose company we graciously joined in signing the recent 
letter to Committee Chairman Jeff Miller (R-FL) and Ranking Member Bob 
Filner (D-CA). Most notably, to the Veterans of Foreign Wars who have 
been tireless advocates for our veteran-students and were responsible 
for bringing this broad coalition together to advocate good policy 
instead of politics-as-usual. Finally, Terry Hartle and the American 
Council on Education deserve recognition for their outstanding research 
and education efforts about military and veteran education.
    APSCU is the primary advocacy organization for our nation's private 
sector colleges and universities (PSCUs), sometimes referred to as 
``proprietary'' or ``career'' schools. We represent 1,650 schools, 
2,000 members, and about one-half of the 3.8 million PSCU students 
nationwide. Mr. Chairman, the roots of our schools can be traced back 
to the early 1800s when Americans needed skills to succeed in 
burgeoning commercial trades and women aspired to work outside of the 
home yet were not welcome to attend most of the all-male traditional 
colleges. Throughout the centuries, as the educational needs of our 
global society evolved, PSCUs became early pioneers of a student-
centric, flexible postsecondary delivery models. Today, our schools 
continue to break new ground by offering cutting-edge programming and 
technology to keep pace with the expectations of a 21st century student 
body and workforce. Our schools cater to the needs of our students by 
providing a veritable al la carte menu of educational options, which 
empowers each student to choose the delivery of education that best 
meets their needs and provides access to an education often otherwise 
beyond their reach. In the opinion of some, PSCUs are the ``schools of 
last resort,'' and for countless students and graduates, PSCUs are the 
only schools who open their doors to a population of Americans who 
desperately need a second-chance, such as a single-mom desperate to 
make a better life for her children or a high-school dropout who could 
use a helping hand to get back on track. The PSCU model of 
postsecondary inclusivity and access appeals not only to those in need 
of a second-chance, but also to working professionals eager to reach 
the next professional step, deployed servicemembers who use education 
as a portal from the front lines of battle, or veterans transitioning 
from soldier to civilian. We can also boast about the PSCU graduates or 
students who have used their education to reach professional heights 
most people only dream about achieving, such as: former Assistant 
Secretary of the U.S. Department of Veterans Affairs and current 
Democratic candidate for Illinois' 8th Congressional District, Lt. Col. 
Tammy Duckworth (ANG); the first black, female American tennis star 
player to achieve a World No. 1 rank and Chief Executive Officer of her 
interior design firm, Venus Williams; and celebrity chef, 
restauranteur, author, and television personality, Bobby Flay.
    Today however, we shine the spotlight on the educational needs of 
our country's often unsung heroes: our veterans. Heroes like Cpl. 
Alexander Garrido (USN) who is a veteran of Operation Iraqi Freedom 
(OIF) and is now working his way through his Bachelor's Degree in 
Criminal Justice after receiving his Associates Degree in 2011. 
Alexander is one of the two million veterans who enlisted in the 
military to serve in the Post-9/11 wars, OIF and Operation Enduring 
Freedom (OEF), and since the enactment of the Post-9/11 GI Bill have 
continued to alter the traditional perception of what a college student 
looks like, as the number of students who attend college or university 
immediately after high school, attend full-time, live on campus, and 
rely on their parents to pay for their education grows smaller and 
smaller. For many, being a wounded combat-veteran and not setting foot 
in a classroom in 15 years would have deterred the pursuit of a 
postsecondary degree, but Alexander discovered that Keiser University 
in Miami allowed him to learn at his own pace, one-class-at-a-time. The 
school was instrumental in Alexander's achieving Dean's List and 
finishing with high honors. Alexander is a wonderful example of the 
230,000 students PSCUs have educated under the new Post-9/11 GI Bill. 
Some on Capitol Hill, and even in this room, question the value of the 
education that PSCUs offer to veteran-students. Let me be clear: APSCU 
firmly believes in the fundamental right of our veterans to use the 
educational benefits they earned through their extraordinary service to 
our country at the school that serves their needs best, however every 
postsecondary institution must be held to the highest standard when it 
comes to educating America's ``New Greatest Generation.'' Every sector 
of higher education has dealt with individual episodes of abuse or 
misbehavior, and it is incumbent upon Congress to ensure that the 
actions of the few are not held against the many, and that fact and 
data preside over anecdote. So, what are the facts? The number of 
students who used Post-9/11 GI benefits to attend PSCUs almost doubled 
between the first- and second-year of the benefits, from 76,746 to 
152,130. The share of students who used Post-9/11 GI Bill benefits to 
attend PSCUs also increased slightly from 23 percent to 25 percent in 
the same time-frame. It is critical to note that while there was growth 
in the number and percentage of students educated at PSCUs using Post-
9/11 GI benefits, the percentage of the total amount of benefits 
received by PSCUs remained constant at 37 percent. In other words, 
PSCUs were able to educate more students with the same share of total 
benefits. About one-third, or 30 percent, of Yellow Ribbon Program 
participants are PSCUs. In addition, PSCUs represent 45 percent of all 
schools that offer the Yellow Ribbon Program to an unlimited number of 
veterans and that make the maximum Yellow Ribbon contribution. To truly 
appreciate the extent to which PSCUs participate in the Yellow Ribbon 
Program, 77 percent offer it to an unlimited number of veterans and 61 
percent make the maximum school contribution.
    Veterans have historically attended PSCUs because we have 
consistently offered flexible administrative and academic policies, 
career-focused curricula, credit for past training and experience, and 
support services that strive to meet their unique academic and personal 
needs. After being mission-focused, many veterans feel more comfortable 
in career-focused programs, which allow them to hone the skills learned 
in the military and receive the necessary training to transition into 
the workforce. PSCUs also know that veterans may require support with 
integration into the higher education culture, such as helping cope 
with service-related disabilities, assistance socializing with peers or 
instructors, or other creating a school-based veteran support network. 
According to a number of publications ranging from the RAND 
Corporation's ``Servicemembers in School: Military Veteran Experiences 
Using the Post-9/11 GI Bill and Pursuing Postsecondary Education'' to 
The Chronicle of Higher Education, veteran-students largely chose PSCUs 
and community colleges to pursue their postsecondary degrees, citing 
cost, convenience, geography, and support systems. PSCUs also know that 
veterans may require support with integration into the higher education 
culture, such as helping cope with service-related disabilities, 
assistance socializing with peers or instructors, or other creating a 
school-based veteran support network. In a February 9, 2012 Military 
Times commentary entitled, ``Colleges Can Learn From For-Profits 
Emphasis on the Consumer'' the author notes that, ``the consumercentric 
attributes of some for-profit schools offer lessons for their public 
and nonprofit counterparts regarding how higher education institutions 
best serve the needs of our troops and veterans.''
    But, the power to offer such a distinctive, viable postsecondary 
alternative is meaningless if it fails to achieve students' primary 
objective: job placement. Our country is currently experiencing an 
employment paradox: an 8.3 percent national unemployment rate yet 
hundreds-of-thousands of jobs remained unfilled. So, during our five-
year long recession, sectors such as manufacturing, and jobs including 
electricians, plumbers, and medical technicians, have fallen victim to 
a widening skills gap, as the population ages and industries are 
transformed by the adoption of new technology, which outpaces the 
skill-sets of workers. Many prognosticate that our future workforce 
will likely endure an even wider skills gap if the K-12 educational 
system continues to focus largely on preparing students for college 
degree attainment without the adoption of meaningful academic 
standards, accountability for student outcomes, or recognition of the 
dichotomy between the skills necessary for academic success in 
postsecondary education and the skills demanded by the employers. The 
workforce of tomorrow will be comprised of the human byproducts of an 
educational system that has largely failed to teach the skills 
necessary to succeed in high-demand fields requiring specialized 
training. As Dr. Tony Carnevale Director of the Georgetown University 
Center on Education and the Workforce has noted, ``In a recession, the 
economy goes to sleep, but when it awakens, there will be a need for 
higher-skilled people to fill skill-intensive jobs.'' Who better than 
the men and women returning home from the Post-9/11 wars to translate 
the intensive training and preparation into a postsecondary degree and 
into high-demand jobs?
    As the previous panelists shared, veterans of OEF and OIF 
experience a higher unemployment rate than their non-veteran peers, and 
the unemployment rate for young veterans aged 18-24 stands at 20 
percent compared to 16 percent for their non-veteran peers. Post-9/11 
era veterans have returned to civilian life deserving employers to line 
up to hire them, but instead face the sad reality of the unemployment 
line. While the unemployment rate for young combat veterans is down 
from a staggering 31 percent in December 2011, some veteran employment 
experts predict that it could reach 50 percent in the next two years, 
especially for National Guard and reservists, who currently make up 
half of our current U.S. military force. The attacks on September 11th 
awakened a visceral sense of patriotism not felt by our country since 
the attack on Pearl Harbor, and for many young men and women it became 
the ``Call of Duty,'' which transformed recent high school graduates 
into soldiers fighting for the protection of our country's most 
cherished tenants. But while they were deployed, the economy and the 
employment climate deteriorated. Our returning heroes, many of whom 
enlisted immediately following high school, experienced hurdles finding 
meaningful employment because of a number of factors, including 
veterans' inability to translate their military skills into language 
employers understand, some employers' reticence to hire a veteran 
because of a perceived mental or physical impairment, and, notably, the 
recession. Afghanistan and Iraq veterans were more likely than non-
veterans to be employed in recession-impacted job sectors, such as 
mining, construction, manufacturing, transportation and utilities, 
information, and professional and business services, and less likely to 
be employed in industries that experienced growth during the recession, 
such as health care and education. Again, two million veterans will 
have returned from the Post-9/11 wars once the drawdown is complete, 
and as the Department of Defense proceeds with a planned reduction in 
force, it is imperative that Congress work to ensure that our veterans, 
particularly young combat veterans, are not only provided with the 
tools and resources to access a postsecondary education through their 
generous benefits, but also the tools and resources to make an 
informed, thoughtful decision about which educational opportunity will 
best prepare them for the workforce.
    As part of a diverse coalition comprised of veteran service and 
postsecondary organizations, APSCU sent letters to the Chairman Miller 
and Ranking Member Filner, as well as to the Senate Veterans' Affairs 
Committee and the White House, affirming our commitment to protect 
every veteran who seeks to use his or her Post-9/11 GI Bill benefits, 
regardless of which higher education institution they choose to attend, 
and enabling veterans to make informed decisions about their higher 
education options. APSCU appreciates the speed with which Congressman 
Bilirakis (R-FL) responded to the recommendations proposed in our 
letter by introducing H.R. 4057, the Improving Transparency of 
Education Opportunities for Veterans Act of 2012, and the priority 
given to H.R. 4057 by Chairman Stutzman and Ranking Member Braley 
during the hearing. The transition from soldier to student is often 
wrought with unexpected challenges for many veterans because 
institutions of higher education are unprepared to fulfill the unique 
needs of veteran-students and veteran-students are unprepared to 
navigate the wave of educational options before them. As a result, many 
veterans fail to achieve their academic goals. H.R. 4057 directs the 
Secretary of the VA to develop a comprehensive policy to ensure that 
veteran-students have the tools necessary to make informed decisions 
about their postsecondary education. Ultimately, there is a shared 
responsibility for the academic success of our veteran-students, 
including the Department of Veterans Affairs (VA), the student, and the 
institution. It should be incumbent upon the VA to ensure that veterans 
are provided with the information and resources about their educational 
options, the veterans to utilize the information to make informed 
education choices, and the institutions to provide the quality of 
education veterans deserve with the benefits they earned.
    APSCU member institutions take great care and responsibility to 
ensure that the transition from servicemember to student-veteran, 
especially those entering postsecondary education fresh from the 
battlefields of the Post-9/11 wars, is tailored to meet the unique need 
of the student, and that the transition from student-veteran to 
employee is successful. Our veterans have earned their education 
benefits through their tremendous sacrifice to our country and 
subsequently, it is their choice to select the school and education 
that will lead to academic and professional success. We must ensure 
that our veterans are provided with every advantage when they are 
presented with the numerous and distinct postsecondary choices where 
they will ultimately invest their education benefits and invest in 
their futures. Additionally, every institution of higher education 
entrusted with a key transitional role in the lives of our veterans, as 
soldiers become students, must be held accountable for the outcomes of 
their veteran-students. APSCU supports the Subcommittee's efforts to 
ensure that our veteran-students are supported and protected at every 
institution of higher education.
Executive Summary
    The Association of Private Sector Colleges and Universities (APSCU) 
is the primary advocacy organization for our nation's private sector 
colleges and universities (PSCUs), sometimes referred to as 
``proprietary'' or ``career'' schools. We represent 1,650 schools, 
2,000 members, and about one-half of the 3.8 million PSCU students 
nationwide. APSCU, and our member institutions, want to ensure that our 
veteran-students are well-prepared to enter postsecondary education and 
that every institution of higher education lives up to the standard of 
educating our nation's best and brightest. Our schools cater to the 
unique needs of non-traditional students by providing a wide range of 
educational options, which empowers each student to choose the type of 
education that fits their needs best and provides much-needed access to 
an underserved population.
    Today however, we shine the spotlight on the educational needs of 
our country's often unsung heroes: our veterans. Two million veterans 
enlisted in the military following September 11, 2001 to serve in 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF). 
Since the enactment of the Post-9/11 GI Bill, veterans have continued 
to alter the traditional perception of what a college student looks 
like, as the number of students who attend college or university 
immediately after high school, attend full-time, live on campus, and 
rely on their parents to pay for their education grows smaller and 
smaller. PSCUs have educated 230,000 veteran-students under the new 
Post-9/11 GI Bill, and APSCU believes in the fundamental right of our 
veterans to use the educational benefits they earned through their 
extraordinary service to our country at the school that serves their 
needs best. However every postsecondary institution must be held to the 
highest standard when it comes to educating America's ``New Greatest 
Generation.'' The number of students who used Post-9/11 GI benefits to 
attend PSCUs almost doubled between the first- and second-year of the 
benefits, from 76,746 to 152,130. The share of students who used Post-
9/11 GI Bill benefits to attend PSCUs also increased slightly from 23 
percent to 25 percent in the same time-frame. It is critical to note 
that while there was growth in the number and percentage of students 
educated at PSCUs using Post-9/11 GI benefits, the percentage of the 
total amount of benefits received by PSCUs remained constant at 37 
percent. In other words, PSCUs were able to educate more students with 
the same share of total benefits. Additionally, about one-third, or 30 
percent, of Yellow Ribbon Program participants are PSCUs. In addition, 
PSCUs represent 45 percent of all schools that offer the Yellow Ribbon 
Program to an unlimited number of veterans and that make the maximum 
Yellow Ribbon contribution. To truly appreciate the extent to which 
PSCUs participate in the Yellow Ribbon Program, 77 percent offer it to 
an unlimited number of veterans and 61 percent make the maximum school 
contribution.
    Veterans have historically attended PSCUs because we have 
consistently offered flexible administrative and academic policies, 
career-focused curricula, credit for past training and experience, and 
support services that strive to meet their unique academic and personal 
needs. After being mission-focused, many veterans feel more comfortable 
in career-focused programs, which allow them to hone the skills learned 
in the military and receive the necessary training to transition into 
the workforce. PSCUs also know that veterans may require support with 
integration into the higher education culture, such as helping cope 
with service-related disabilities, assistance socializing with peers or 
instructors, or other creating a school-based veteran support network. 
PSCUs also know that veterans may require support with integration into 
the higher education culture, such as helping cope with service-related 
disabilities, assistance socializing with peers or instructors, or 
other creating a school-based veteran support network.
    Two million veterans will have returned from OEF/OIF once the 
drawdown is complete, and as the Department of Defense proceeds with a 
planned reduction in force, it is imperative that Congress work to 
ensure that our veterans, particularly young combat veterans, are not 
only provided with the tools and resources to access a postsecondary 
education through their generous benefits, but also the tools and 
resources to make an informed, thoughtful decision about which 
educational opportunity will best prepare them for the workforce. The 
transition from soldier to student is often wrought with unexpected 
challenges for many veterans because institutions of higher education 
are unprepared to fulfill the unique needs of veteran-students and 
veteran-students are unprepared to navigate the wave of educational 
options before them. As a result, many veterans fail to achieve their 
academic goals. H.R. 4057 directs the Secretary of the Veterans' 
Affairs to develop a comprehensive policy to ensure that veteran-
students have the tools necessary to make informed decisions about 
their postsecondary education. Ultimately, there is a shared 
responsibility for the academic success of our veteran-students, 
including the Department of Veterans Affairs (VA), the student, and the 
institution. It should be incumbent upon the VA to ensure that veterans 
are provided with the information and resources about their educational 
options, the veterans to utilize the information to make informed 
education choices, and the institutions to provide the quality of 
education veterans deserve with the benefits they earned.

                                 <F-dash>
               Prepared Statement of Dr. Allen L. Sessoms
    Chairman Stutzman, Ranking Member Braley, and distinguished members 
of the Subcommittee. I am Dr. Allen Sessoms, President of the 
University of the District of Columbia, the only public institution of 
higher education here in our Nation's Capital. I am testifying on 
behalf of the American Association of State Colleges and Universities, 
commonly known as `AASCU.' AASCU represents 420 institutions and 
university systems across 49 states, the District of Columbia, Puerto 
Rico, Guam and the Virgin Islands.
    Thank you for holding this hearing and providing me the opportunity 
to present testimony in support of H.R. 3483, The Veterans Education 
Equity Act of 2011, introduced by the Honorable G.K. Butterfield of 
North Carolina. I ask that my testimony be entered into the record.
    If enacted, H.R. 3483 would remedy a serious inequity that 
currently exists under the Post-9/11 GI Bill educational benefits 
program.
    In short, The Veterans Education Equity Act addresses the harm to 
veterans enrolled at an out-of-state institution of higher education 
resulting from the passage of the Veterans Educational Assistance 
Improvements Act, Public Law 111-377. After passage of the 9/11 
Veterans Educational Assistance Act of 2008, the Department of Veterans 
Affairs began the unenviable task of implementing the legislation in a 
very short period of time. The VA established a tuition and fee payment 
schedule for each state in order to do so. In creating this structure, 
the VA separately determined the highest amount in tuition and in 
required fees charged to a student attending a public institution 
rather than combining tuition and required fees into one amount. This 
structure resulted in veterans attending public institutions having all 
or nearly all of their tuition and fee charges paid via their Post-9/11 
GI Bill benefits regardless of whether they were an in-state or out-of-
state student.
    In January 2011, this changed when the Veterans Educational 
Assistance Improvements Act was signed into law. The major focus of the 
legislation was to revamp the tuition and fee structure first 
established by the VA. The legislation established two criteria. Those 
students who attend public institutions receive benefits equal to in-
state tuition and fee charges, while veterans attending private 
institutions receive the lesser of $17,500 or their actual charges for 
tuition and fees. Congress when drafting this legislation thus created 
an inequity that resulted in veterans who attend an institution located 
outside of their home state saw a tremendous reduction in their benefit 
amount. This benefit is worth, on average, about $ 8,244 per year. On 
the contrary, if one of our Veterans chooses to attend an out-of-state 
private institution, he or she will automatically qualify for up to 
$17,500 per year. Simply put, a Veteran who chooses to attend a public 
institution is entitled to, on average, less than half of the benefit a 
Veteran who chooses to attend private institution.
    In addition to the disparate treatment of our Veterans attending 
public versus private institutions, the current Post-9/11 GI Bill 
benefit structure also asks our Veterans to pick up the difference 
between in-State and out-of-State tuition. This can amount to over 
$13,000 per year in some States, and averages $4,282 across the 
country. Not only are we providing our Veterans with different tuition 
benefits depending on the type of institution they choose to attend, we 
are also asking them to pick up the tab if they choose to attend a 
public institution in a different State.
    In a metropolitan area such as the National Capital Region, where 
students regularly travel across State lines to earn their degrees, 
this significantly limits the number of institutions our Veterans may 
realistically choose from. For example, Veterans attending the 
University of the District of Columbia, but living in Maryland or 
Virginia, are required under District of Columbia law to pay the non-
resident tuition rate of $13,380. This amounts to $7,000 per year for a 
full-time baccalaureate student. The Yellow Ribbon program does provide 
a $500 tuition assistance benefit to our non-resident Veterans; however 
this is only a fraction of the non-resident tuition premium.
    The current Post 9/11 GI Bill tuition structure also harms those 
who have recently relocated to a State and enroll in that State's 
public institution, but do not yet qualify for in-State tuition. Many 
states have enacted minimum residency requirements students must meet 
to be eligible for in-State tuition rates. For example, in the District 
of Columbia, to receive the in-State tuition rate, a Veteran must 
reside in the District for a full year to become eligible. This may 
cause a recently relocated Veteran to put off pursuing a degree until 
he or she is eligible for a lower tuition rate.
    Passage of this bill is especially important at a time when 
unemployment for our veterans is extremely high. According to recent 
statistics from the U.S. Chamber of Commerce's ``Hiring Our Heroes'' 
program, unemployment for veterans aged 18-24 is 30%. For those in the 
National Guard, it is 14%. These numbers are well above the national 
average. Other research has shown that individuals with more than a 
high school diploma are more likely to be employed. Passing H.R. 3483 
will give our Veterans a greater opportunity to select the 
postsecondary program and institution best suited for them and by so 
doing, put them on the path to employment.
    As a grateful Nation, we are committed to providing our Veterans 
with the maximum benefits they rightly deserve. Let's make sure we also 
are providing the flexibility our Veterans need to use them. On behalf 
of the 420 members of the American Association of State Colleges and 
Universities, I urge Congress to pass the Veterans Education Equity Act 
of 2011 without delay.

                                 <F-dash>
                  Prepared Statement of Curtis L. Coy
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
provide the views of the Department of Veterans Affairs (VA) on pending 
legislation concerned with Veterans education, employment, and small 
business contracting issues. Joining me today are C. Ford Heard, 
Associate Deputy Assistant Secretary for Procurement Policy, Systems 
and Oversight, Office of Acquisitions, Logistics and Construction, and 
Keith Wilson, Director, Education Service, Veterans Benefits 
Administration.
    VA is providing our insight on several bills on the agenda. Other 
bills under discussion today affect programs or laws administered by 
the Department of Labor (DoL), Department of Education (ED) and the 
Transportation Security Administration (TSA) of the Department of 
Homeland Security (DHS). Respectfully, we defer to those agencies' 
views with respect to the following bills: H.R. 3524 (rights for 
persons receiving treatment for illnesses, injuries, and disabilities 
affected by service in the uniformed services - DoL), H.R. 3610 
(consolidation and streamlining Federal workforce - DoL and ED), H.R. 
3670 (requiring the TSA to comply with the Uniformed Services 
Employment and Reemployment Rights Act - DHS), and H.R. 4051 (providing 
for off-base transition training - DoL). VA regrets we did not have 
sufficient time to formulate costs for four measures, H.R. 3483, H.R. 
4048, H.R. 4052 and H.R. 4072. I want to begin by stating that every 
initiative has the admirable goal of assisting our Nation's Veterans 
and Servicemembers.
H.R. 3329
    H.R. 3329 would amend section 3103, title 38, United States Code, 
to extend the period during which a Veteran may be afforded a 
rehabilitation program under chapter 31 of that title. Chapter 31 
entitles a person with a service-connected disability and an employment 
handicap to participate in a rehabilitation program depending on the 
degree of disability and severity of employment handicap. Under current 
law, a Veteran generally may be afforded such a program for up to 12 
years, beginning on the date of the Veteran's discharge or service-
connected disability notification. H.R. 3329 would extend that period 
of eligibility to 15 years.
    VA supports extending the period of eligibility for vocational 
rehabilitation services, provided that Congress finds funding offsets. 
Individuals may need vocational rehabilitation services during mid-life 
when disabilities worsen or when changing careers, or later in life 
when in need of independent living services. By extending the period of 
eligibility, VA's Vocational Rehabilitation and Employment (VR&E) 
program will be able to provide individuals who meet the eligibility 
and entitlement criteria for services under chapter 31 with the 
assistance they need.
    VA estimates that enactment of H.R. 3329 would result in benefit 
costs to VA of $4.4 million for the first year, $25 million for five 
years, and $57.9 million over ten years. There are no significant 
administrative costs associated with this bill because the caseload 
increase would be minimal.
H.R. 3483
    H. R. 3483, the ``Veterans Education Equity Act of 2011,'' would 
revise the formula for the payment by VA of tuition and fees for 
individuals entitled to educational assistance under the Post-9/11 GI 
Bill and pursuing programs of education at public institutions of 
higher learning (IHLs).
    Currently, resident and non-resident students pursuing a program of 
education at public IHLs receive the actual net cost for in-state 
tuition and fees charged by the institution. This bill would allow non-
resident students to receive an amount above the net in-state charges 
in some instances. H.R. 3483 would amend section 3313 (c)(1) of title 
38, United States Code, to require VA to pay individuals pursuing a 
program of education at public IHLs, the lesser of 1) the actual net 
cost for tuition and fees assessed by the institution for the program 
of education, or 2) the greater of either the actual net cost for in-
state tuition and fees, or $17,500 (for the academic year beginning on 
August 1, 2011, with such amount to be increased each subsequent year 
by the average percentage increase in undergraduate tuition costs).
    VA would be required to implement these changes to the payment of 
educational assistance for the academic year beginning on or after the 
date of enactment.
    While VA supports the intent to provide payment equity to 
individuals training under the Post-9/11 GI Bill, VA cannot support 
this legislation as written.
    Separate rules for tuition-and-fee charges would add another level 
of complexity to the program for both beneficiaries and schools. We 
continue to receive complaints from beneficiaries with regard to 
understanding exactly how much they will receive in tuition and fees 
under the Post-9/11 GI Bill program. This bill would exacerbate that 
problem.
    Furthermore, VA continues to work aggressively on the Long-Term 
Solution (LTS) to further enhance processing of Post-9/11 GI Bill 
claims. As of June 2011, VA and the Space and Naval Warfare Systems 
Center Atlanta (SPAWAR) have developed five major releases for the LTS 
system. VA's plans to achieve full automation of a subset of Post-9/11 
GI Bill claims is expected with release 6.0 in July 2012. This enhanced 
functionality, originally planned for June 2011, was delayed to 
accommodate changes to the Post-9/11 GI Bill required by P.L. 111-377, 
the Post-9/11 Veterans Educational Assistance Improvements Act of 2010.
    The enactment of this legislation would severely hamper VA's 
deployment efforts and delay automation of claims. The changes made by 
this legislation would lead to very complicated processing scenarios in 
the LTS. Some of the major rules in the LTS system regarding payment 
amounts would need to be updated; as a result, and would cost 
additional money for system testers. Additionally, since the amount of 
educational assistance would be based on the actual net cost for 
tuition and fees versus the greater of the actual net cost for in-state 
tuition and fees and $17,500, VA would have to apply a blended set of 
rules to each claim that falls under these provisions.
    As written, the effective date for the proposed legislation would 
be the date of enactment. However, VA estimates that we would need one 
year from date of enactment to make the system changes necessary to 
implement the proposed legislation. VA would be happy to work with the 
Subcommittee to provide technical assistance.
    In addition, although we regret we were unable to estimate the 
costs of this proposal in time for this hearing, VA notes that any 
change in benefit levels that would increase the total cost of the 
program would necessitate the identification of offsets. VA will 
provide a cost estimate at a later time.
H.R. 4048
    Section 8127 of title 38, United States Code, requires VA to 
establish annual acquisition dollar goals for VA contracts with small 
businesses owned and controlled by Veterans and service-disabled 
Veterans. In addition, section 8127 provides acquisition set-aside 
authority for such businesses and establishes priority for them over 
all other small business preferences in VA acquisitions.
    H.R. 4048, the ``Improving Contracting Opportunities for Veteran-
Owned Small Businesses Act of 2012,'' would amend section 8127 by 
adding new subsection (k) providing that ``[f]or purposes of meeting 
the goals under subsection (a), the Secretary shall include the 
acquisition of goods and services through the use of a Federal Supply 
Schedule of the General Services Administration.''
    VA is continuing to analyze this legislation, and will provide its 
views in writing once we complete that analysis.
H. R. 4051
    H. R. 4051, the ``TAP Modernization Act of 2012,'' would direct the 
DoL to provide the Transition Assistance Program (TAP) during a three-
year period to Veterans and their spouses at locations other than 
military installations in three to five states selected by DoL. DoL 
would select states that have the highest rates of Veteran unemployment 
and would provide a sufficient number of training locations to 
facilitate access by participants to meet the need in each state. DoL 
also would include in any TAP contract a requirement for experts in 
subject matters relating to human resources practices, including resume 
writing, interviewing and job searching skills, and the provision of 
information about post-secondary education.
    Reports to Congress would be required in each year of the training, 
and after the termination of the three-year period of TAP training 
required by this Act, the Comptroller General of the United States 
would submit to Congress a report on the training, to include the 
feasibility of carrying out off-base transition training at locations 
nationwide.
    VA defers to the DoL on the merits of the bill, however, VA is 
required to participate in TAP briefings. Therefore, we note the 
following impact on VA. Assuming the effective date of this legislation 
would be October 1, 2012, VA's estimated administrative expenses would 
be $1.3 million the first year and $4.5 million over three years.
H.R. 4052
    H.R. 4052, the ``Recognizing Excellence in Veterans Education Act 
of 2012,'' would add a new section 3698 to title 38, United States 
Code, directing VA to establish an honorary ``Excellence in Veterans 
Education Award'' to recognize IHLs that provide superior services to 
Veterans. The award would be valid for three years (however, it may be 
withdrawn at any time VA deems appropriate) and the IHL that received 
it would be noted on the list of institutions approved for Veteran 
education benefits, which is maintained on VA's Internet Web site. VA 
would grant the Award to IHLs only if: (1) the head of the IHL has a 
student Veteran advisory board or a student Veteran advisor from whom 
the head seeks advice; (2) the IHL participates in the Yellow Ribbon 
G.I. Bill Education Enhancement Program (Yellow Ribbon Program) under 
the Post-9/11 GI Bill, contributes the maximum amount under the 
program, and ensures that all such amounts are made available to all 
Veterans enrolled at the IHLs who qualify for the Yellow Ribbon 
program; (3) the IHL has a Veterans support program that provides 
services VA considers appropriate; (4) the IHL is a member of the 
Servicemembers Opportunity College; (5) the average graduation rate for 
all of the IHL enrolled students is at least as great as the average 
national graduation rate for all students enrolled in the same type of 
institution, as determined by VA; and (6) any other criteria VA 
considers appropriate.
    VA has concerns with some of the provisions in the bill as written.
    Implementing a program that awards IHLs for their service to 
Veterans will give them incentive to provide better service. By listing 
exceptional institutions on VA's GI Bill Web site, Veterans would have 
more knowledge regarding the best institutions available for them to 
attend. We are concerned, however, about the criterion regarding 
measurement of the graduation rates. The legislation would not require 
IHLs to measure the Veteran-graduation rates, and VA does not currently 
track them. VA recommends that language be included to require IHLs to 
track and report such rates.
    With regard to the criteria pertaining to the IHL participation in 
the Yellow Ribbon Program, it appears that a school would be required 
to provide Yellow Ribbon benefits to every Veteran attending more than 
= time in order to qualify for the Award. We note that currently there 
are few schools that provide Yellow Ribbon benefits to every eligible 
Post-9/11 GI Bill Veteran. Also, because Veterans' in-state costs are 
fully covered at most public schools, many public institutions do not 
participate in the Yellow Ribbon Program. Therefore, it appears these 
schools would be excluded from the excellence award although they may 
provide other forms of superior service to Veterans. Similarly, many 
institutions that are not IHLs would be excluded from this recognition.
    This legislation requires that VA determine if the IHL has a 
student Veteran advisory board and a Veterans support program that 
provides services VA considers appropriate. Since this information is 
not currently collected, tracking the availability of such information 
would be a significant administrative undertaking for VA and schools. 
VA would need additional resources to implement the legislation.
    VA will provide a cost estimate at a later time.
H.R. 4057
    H.R. 4057, the ``Improving Transparency of Education Opportunities 
for Veterans Act of 2012,'' would add a new section to chapter 36 of 
title 38, United States Code, directing VA to develop a comprehensive 
policy to improve outreach and transparency to Veterans and members of 
the Armed Forces through the provision of information on IHLs. 
Specifically, the policy would include the following elements: (1) the 
most effective way to inform individuals of the educational and 
vocational counseling provided by VA, (2) a centralized way to track 
and publish feedback from students and State Approving Agencies (SAAs) 
regarding the quality of instruction and accreditation, recruiting 
practices, and post-graduation employment placement of the IHLs, (3) 
the value of and manner in which a SAA shares information regarding 
that agency's evaluation of an IHL with an accrediting agency 
recognized by the ED, (4) the manner in which information regarding 
IHLs is provided to individuals participating in the Transition 
Assistance Program, and (5) the most effective way to provide Veterans 
and Servicemembers with information regarding available VA 
postsecondary education and training opportunities.
    In order for VA to develop the aforementioned comprehensive policy, 
H.R. 4057 would direct the Department to conduct a market survey to 
determine the availability of a commercial, off-the-shelf, online tool 
that would allow a Veteran or Servicemember to assess whether that 
individual is academically ready to attend postsecondary education and 
training opportunities, or would need any remedial preparation before 
beginning such opportunities. The survey would also determine whether a 
similar tool would be available to provide Veterans and Servicemembers 
with a list of providers of postsecondary education and training 
opportunities based on criteria selected by those individuals.
    This measure also would direct VA, not later than 90 days after the 
date of enactment, to submit to the House and Senate Veterans' Affairs 
Committees a report describing the comprehensive policy to improve 
outreach and transparency required by this bill, VA's plan to implement 
such policy, and the results of the market survey, as well as whether 
VA plans to implement the tools described in the survey, if available.
    VA supports providing Veterans with better information about their 
educational opportunities, but does not believe legislation is 
necessary because of policies and programs already in place at VA, ED, 
and the Department of Defense (DoD). VA has outreach programs within 
its Education Service, VR&E Service, and Benefits Assistance Service 
(BAS). These are proven outreach mechanisms that can easily emphasize 
this information.
    If the intent for this bill is to increase outreach efforts in a 
more targeted nationwide method, VA believes existing mechanisms would 
satisfy that intent. For example, ED currently provides information 
about the quality and accreditation of IHLs participating in the 
Federal student financial aid programs. The National Center for 
Education Statistics (NCES) is the primary Federal entity for 
collecting and analyzing data related to education. Section 1094 of 
title 20, United States Code, requires institutions to complete surveys 
conducted as a part of the Integrated Postsecondary Education Data 
System (IPEDS). VA believes that ED is best-positioned to explain the 
informational resources available that fulfill the intent of the 
legislation. VA continues to work and coordinate with ED and can 
enhance the level of information sharing between agencies in order to 
simplify the information for Veterans and members of the Armed Forces 
to interpret and use.
    VA's improvement measures for the Transition Assistance Program 
(TAP) are in line with the proposed legislation. TAP is currently being 
revised and enhanced as an initiative for both VA and DoD.
    VR&E Service currently has commercial, off-the-shelf tools 
available to evaluate and assist Veterans and Servicemembers in 
determining academic readiness.
    In previous years, VA conducted customer satisfaction surveys with 
beneficiaries to determine if they are satisfied with the overall 
customer experience and determine which areas of service need 
improvement. To acquire the information for this legislation, a similar 
survey could be completed with students and SAAs about the quality of 
the instruction and accreditation, recruiting practices and post-
graduation employment placement provided by the IHLs.
    VA has concerns with providing a report within 90 days of 
enactment, as would be required by H.R. 4057. Until VA has an 
opportunity to discuss the reporting requirements with ED, VA is unable 
to clearly identify what resources would be needed to meet the 90-day 
reporting requirement.
    It seems to us that each Department (VA, ED, DoL, DoD) would need 
to agree to share data through a central repository, make collection 
and presentation of such data consistent with student privacy laws, and 
develop a method to track and collect post-graduate employment 
information. Discussions must first take place between agencies to 
determine what systems can be integrated or if systems need to be 
developed to capture feedback from students and SAAs.
    Information sharing between agencies and a centralized tracking and 
feedback system regarding quality of instruction, accreditation, 
recruiting practices, and post-graduate employment will require 
extensive coordination between several Federal Agencies. A system 
meeting the criteria of this legislation does not currently exist to 
our knowledge.
    Assuming enactment on October 1, 2012, VA estimates the 
administrative costs associated with H.R. 4057 would be $2.3 million in 
FY2013, $4.3 million over five years, and $7.5 million over ten years. 
Information technology costs cannot be provided since it is unclear if 
systems could be integrated or if systems need to be developed to 
capture feedback from students and SAAs.
H.R. 4072
    H.R. 4072, the ``Consolidating Veteran Employment Services for 
Improved Performance Act of 2012,'' would transfer a number of 
functions performed under programs relating to Veterans employment and 
all personnel, assets, and liabilities pertaining to such programs from 
the DoL to VA. Specifically, these programs from chapters in title 38, 
United States Code, would include: (1) job counseling, training, and 
placement services for Veterans under chapter 41; (2) employment and 
training of Veterans under chapter 42; (3) administration of employment 
and employment rights of members of the uniformed services under 
chapter 43; and (4) homeless Veterans reintegration programs under 
chapter 20.
    VA and DoL share a strong interest in providing Veterans with the 
information, education, and skills to transition successfully to 
civilian careers. VA is ready to discuss these organizational issues 
with the Subcommittee and our DoL partners at any time.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or the other Members of the Subcommittee may 
have. Thank you.'

                                 <F-dash>
                Prepared Statement of MG Ronald G. Young
    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Committee, thank you for your invitation to participate in this 
hearing and share the Department views on a number of pieces of 
legislation that have been introduced.
    In my capacity as Director of Family Programs and Policy for the 
Assistant Secretary of Defense, Reserve Affairs, I have oversight into 
only one of the bills before your Committee today, but welcome the 
opportunity to provide you with the requested comments and concerns of 
the Department of Defense as a whole.
    The Department has no comment regarding H.R. 3329 extending the 
period of eligibility, from twelve years to fifteen years, for veterans 
to enroll in certain vocational rehabilitation programs. This provision 
would not impact benefits provided by the Department of Defense.
    The Department has no comment on H.R. 3483, as the changes to the 
Post-9/11 Educational Assistance Program would not impact benefits 
provided by the Department of Defense to Service members. All changes 
proposed in this legislation would solely impact benefits provided by 
other Federal agencies.
    The Department of Defense opposes a provision in H.R. 3610, a bill 
that would, among other things, repeal section 509 of title 32, United 
States Code, ``National Guard Youth Challenge Program (NGYCP) of 
opportunities for civilian youth.'' Mandated by the Congress since 
1993, over 100,000 students have successfully graduated from the 
program, with 80% earning their high school diploma or General 
Equivalency Diploma. On average, 26% go on to college, 20% enter the 
military, and the remaindered join the workforce in career jobs.

    <bullet>  There are 33 ChalleNGe sites operating in 27 states and 
one territory.
    <bullet>  The program design provides a framework and direction to 
intervene in the lives of high school dropouts.
    <bullet>  Findings for the ChalleNGe program indicate that its 
goals and objectives are being achieved.
    <bullet>  NGYCP graduates attained an average of a two grade 
equivalency gain in pre and post-testing of the Test of Adult Basic 
Education.
    <bullet>  72% of NGYCP graduates reported positive placement 
activities within 30 days of graduation.
    <bullet>  The ChalleNGe program continues to enable high school 
dropouts to become productive, contributing members of their 
communities.

    The high number of high school dropouts each year is a national 
security issue and can cost the American economy billions in lost 
productivity and earnings over the students' lifetime. The 12 million 
students projected to drop out over the next decade will cost our 
economy more than $3 trillion. According to a recent MDRC study, the 
National Guard Youth Challenge Program is one of the most effective 
intervention programs for youth. In addition, a recent RAND Cost 
Benefits Analysis study reported that the ChalleNGe program generates 
$2.66 in benefits for every dollar spent on the program. The estimated 
return on investment (net benefits divided by costs) in the ChalleNGe 
program is 166 percent. It is for these reasons that we oppose 
eliminating the ChalleNGe program.
    H.R. 3670 would require the Transportation Security Administration 
(TSA) to comply with the Uniformed Services Employment and Reemployment 
Rights Act (USERRA). If the legislation is passed, I am not aware of 
any costs the Department of Defense would incur. The Department's lead 
agency on USERRA, Employer Support of the Guard and Reserve (ESGR), 
currently handles inquiries and USERRA cases. Over the last three 
fiscal years, ESGR handled 20 USERRA cases that involved TSA. During 
this same period, 75% of all cases were resolved, including 
administrative closures. Eleven of the cases occurred in FY11, with 8 
of the 11, approximately 73%, resulting in resolution or an 
administrative closure. If this legislation is enacted, ESGR would 
continue to assist Guard and Reserve Service members employed by TSA in 
addressing all USERRA issues. Furthermore, if H.R. 3670 were to amend 
public law 107-71, the Department of Defense would provide the 
appropriate USERRA training resources and assistance in order to inform 
and educate TSA supervisors and employees on their rights and 
responsibilities under the Federal law.
    The Department does not oppose H.R. 3524, providing certain rights 
for persons receiving treatment for illnesses, injuries, and 
disabilities incurred in or aggravated by service in the uniformed 
services. However, the Department suggests the legislation further 
clarify that for persons absent from a position of employment in the 
Federal government by reason of receipt of medical treatment for a 
Service connected disability and who is entitled to be retained by the 
Federal employer, will not be on furlough, but rather placed in an 
appropriate administrative leave category.
    The Department does not have comment regarding H.R. 4048, which 
clarifies contracting goals and preferences with respect to veteran-
owned small businesses. If passed into law, the Department would comply 
with these requirements.
    The Department does not have comments regarding H.R. 4051, which 
directs the Secretary of Labor to provide transition assistance 
training. This legislation would not impact the transition assistance 
programs currently being provided by the Department of Defense.
    The Department does not have comments regarding H.R. 4052, to 
recognize excellence in veterans education. This legislation would not 
impact Department of Defense programs.
    The Department concurs with the objective of H.R. 4057, to improve 
outreach and transparency of educational opportunities to Service 
members and veterans during the transition assistance program. However, 
the Department of Defense defers to the Departments of Veterans Affairs 
and Education regarding how best to provide greater information to 
these populations.
    Regarding H.R. 4072, the Department of Defense believes that 
separating service-members, including the Guard and Reserves, need 
effective services to help them successfully transition to the civilian 
workforce. However, the Department of Defense defers to the Departments 
of Labor and Veterans Affairs on the specifics of this bill. Thank you 
for the opportunity to be here with you today, and for your support of 
our Service members, veterans, their families, and employers. I look 
forward to your questions.
                                 <F-dash>
                   Prepared Statement of Ismael Ortiz
    Chairman Stutzman, Ranking Member Braley and members of the 
Subcommittee. Thank you for the opportunity to provide the views of the 
Department of Labor (DoL or Department) on pending legislation aimed at 
helping Veterans and transitioning Service Members succeed in the 
civilian workforce.
    President Obama and Secretary Solis are committed to ensuring that 
the men and women who serve this country have the employment support, 
assistance and opportunities they deserve. As a result, the 
Administration has undertaken initiatives to train, transition and 
employ Veterans; encouraged the Federal hiring of Veterans; and called 
upon the private sector to hire and employ America's Veterans. DoL, 
through the Veterans' Employment and Training Service (VETS) and other 
agencies, is playing an important role in these and other initiatives 
by providing Veterans and transitioning Service Members with resources 
and expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights.
    While this hearing is focused on numerous bills before the 
Subcommittee, I will limit my remarks to those pieces of legislation 
that have a direct impact on the Department of Labor, including H.R. 
3524, H.R. 3610, H.R. 4051, and H.R. 4072 and will provide the relevant 
cost estimates at a later time. I respectfully defer to the Department 
of Veterans' Affairs (VA), Department of Education (ED) and the 
Transportation Security Administration (TSA) of the Department of 
Homeland Security (DHS) on the remaining pieces of legislation.
          HR 3524--Disabled Veterans Employment Protection Act
    H.R. 3524, the ``Disabled Veterans Employment Protection Act,'' 
would amend the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) of 1994 (P.L. 103-353) to extend USERRA protections to 
individuals with service-connected illness, injury, or disabilities by 
creating a new section 4320 in Title 38, United States Code (38 U.S.C. 
4320). The legislation would also amend USERRA's anti-discrimination 
provisions in section 4311 to define ``service-connected disability'' 
as any injury, disease, illness or other disorder formally determined 
by the Secretary of Veterans Affairs to have been incurred in or 
permanently aggravated by a period of active service in the uniformed 
services. Consistent with USERRA's existing language regarding persons 
absent from work while fulfilling military obligations, persons 
undergoing treatment for a service-connected disability would be deemed 
to be on furlough during such absence, and would retain all seniority 
and non-seniority benefits similar to current USERRA protections.
    This bill, as drafted, would have a significant impact on 
relationships between employees with past, present, or future military 
obligations and their current and prospective employers. Both parties 
would have to become familiar with their respective rights and 
obligations under the new law, in addition to making any necessary 
adjustments in work schedules or similar arrangements to comply with 
the law. As drafted, the bill raises technical concerns about its 
interaction with USERRA's reemployment eligibility provisions, as well 
as with the Family and Medical Leave Act. We look forward to working 
with the Subcommittee to provide any requested technical assistance and 
to better understand the intent of the legislation, to help ensure that 
it does not unintentionally harm Veterans' employment relationships.
    HR 3610--Streamlining Workforce Development Programs Act of 2011
    H.R. 3610, the ``Streamlining Workforce Development Programs Act of 
2011,'' consolidates over two-thirds of current workforce programs and 
repeals several programs that target particular populations. We will 
comment here only on the parts of the bill that affect VETS programs. 
As part of this consolidation, the bill repeals the authorization for 
most Veterans grant programs, including the Transition Assistance 
Program, the Disabled Veterans Outreach Program, the Homeless Veterans 
Reintegration Program, and the Veterans Workforce Investment Program. 
Instead, the bill establishes a single Veterans' Workforce Investment 
Fund to States that will serve as the primary resource for supporting 
the workforce system's services to Veterans. This funding will be 
allotted based on the percentage of each States' relative share of the 
Nation's unemployed Veterans.
    H.R. 3610 requires each local area to hire one or more Local 
Veterans' Employment Representative (LVER) staff as part of its 
Veterans Workforce Investment Fund activities. LVER staff would conduct 
outreach to employers and facilitate services to Veterans, including 
disabled Veterans. Currently, the intensive services that are needed by 
disabled Veterans are provided by specialized staff as part of the 
Disability Veterans' Outreach Program (DVOP). The passage of H.R. 3610 
would repeal the Disabled Veteran Outreach Program without assuring 
that the same services would be provided by the remaining LVER staff.
    Other provisions contained in H.R. 3610 would result in significant 
changes to current Veterans services, such as the elimination of HVRP 
program which provides an intensive, holistic case management approach 
to serving homeless Veterans with the critical component of placement 
into meaningful sustainable jobs that break the cycle of homelessness. 
This could leave thousands of homeless Veterans without the intensive 
services this program provides.
    H.R. 3610 would also repeal the Transition Assistance Program 
(TAP). During FY2011, VETS provided 4,203 TAP Employment Workshops to 
nearly 145,000 participants, at both domestic and overseas locations. 
If the bill were passed, the Department would not have the 
authorization or funding to provide these needed services.
    While DoL is committed to Federal fiscal responsibility and 
supports efforts to streamline the training and employment services 
provided to Veterans, the Administration is still reviewing this bill 
in light of its broader scope and significant implications for the 
workforce system. The Department believes it is absolutely critical 
that any reform allow for sufficient accountability and ensure that 
Veterans receive the services they need to obtain a job. DoL looks 
forward to working with the Subcommittee to ensure that Veterans and 
others receive the high-quality services they need to succeed in the 
workforce.
                 HR 4051--TAP Modernization Act of 2012
    H.R. 4051, the ``TAP Modernization Act of 2012,'' would require the 
Secretary of Labor to provide the Transition Assistance Program (TAP) 
under title 10, U.S.C., section 1144 (10 U.S.C. 1144) ``to eligible 
individuals at locations other than military installations in not less 
than three and not more than five States selected by the Secretary'' 
during the three year period beginning on the date of the enactment of 
this bill.
    Unlike the TAP Employment Workshops currently provided to 
transitioning Service Members and their spouses under 10 U.S.C., 1144, 
an ``eligible individual'' for this program would be a Veteran or the 
spouse of a Veteran. The Transition Assistance Program Employment 
Workshop is designed specifically for transitioning Service Members and 
their spouses and as such, the curriculum is not appropriate for all 
Veterans. However, One-Stop Career Centers typically provide specific 
workshops on resume writing, interviewing, and how to conduct a job 
search. Thus, the relevant components of the Employment Workshop are 
already available to all Veterans.
    If the intent of the legislation is to increase outreach to 
unemployed Veterans, DoL is already involved in Veteran-targeted 
outreach initiatives. These include the Gold Card initiative, which 
provides up to 6 months of case management and intensive services to 
eligible Post 9/11 era Veterans, and an initiative with the Army to 
provide additional employment assistance to Army Veterans who are 
drawing unemployment compensation benefits.
    As workshops are already provided for job seekers at One-Stop 
Career Centers, coupled with the ongoing initiatives specifically 
focused on unemployed Veterans, this proposed legislation appears to be 
duplicative. We look forward to working with the Subcommittee to 
identify any needed program improvements.
    HR 4072--Consolidating Veteran Employment Services for Improved 
                        Performance Act of 2012
    H.R. 4072, the ``Consolidating Veteran Employment Services for 
Improved Performance Act of 2012,'' would transfer all 
responsibilities, functions, personnel, assets, and liabilities of the 
programs under title 38, Chapters 41, 42, 43 and 20 of the United 
States Code from the Department of Labor to VA by October 2013. The 
intent of this legislation appears to be to transfer all Veteran 
related services and programs from DoL to VA.
    Within the Department of Labor, VETS has primary responsibility for 
many of these programs, including the Jobs for Veterans State Grants 
(JVSG) Program, Transition Assistance Program Employment Workshops 
(TAP), the Homeless Veterans' Reintegration Program (HVRP) and the 
Uniformed Services Employment and Reemployment Rights Act (USERRA). 
However, other DoL agencies, such as the Employment and Training 
Administration (ETA) and the Office of Federal Contract Compliance 
Programs (OFCCP), are also directly involved in the administration of 
programs that would be transferred by H.R. 4072.
    VETS' core mission is employment for Veterans. The agency's 
functions to meet that core mission fall into two categories: (1) 
employment and training services; and (2) labor law enforcement. In 
doing its work, it is of course essential that VETS coordinates its 
activities with other Federal agencies, such as the VA and DoD in the 
Transition Assistance Program, to ensure our men and women who served 
in the Armed Forces are taken care of.
    The ``One-Stop System'' is the cornerstone of the Nation's 
workforce system and is administered by DoL, along with partner 
programs funded by the Departments of Education, Health and Human 
Services, Housing and Urban Development, and Agriculture. The One-Stop 
system, which consists of over 2,500 One-Stop Career Centers throughout 
the country, ensures the coordinated delivery of employment and 
training services to employers and individuals seeking upward mobility.
    Much of what DoL does for Veterans and other eligible persons 
concentrates on maximizing the employment and training opportunities 
developed though our relationship with State Workforce Agencies. For 
instance, VETS offers employment and training services to eligible 
Veterans primarily through the Jobs for Veterans State Grant (JVSG) 
program. This program provides grants to State Workforce Agencies to 
hire, train, and support employment staff. The DVOPs and LVERs funded 
by these grants provide intensive services to those Veterans that face 
barriers to employment and reach out and educate employers on the 
benefits of hiring Veterans.
    DoL is not only an employment and training agency; it is also a 
worker protection agency with a vital role in enforcing the employment 
rights for Veterans and Service Members. VETS is responsible for 
promulgating regulations interpreting, administering, and helping 
enforce the Uniformed Services Employment and Reemployment Rights Act 
of 1994 (USERRA). USERRA provides employment and reemployment rights to 
eligible Service Members and Veterans by protecting those individuals 
from adverse discrimination due to their past, present, or future 
military service, status or obligations. VETS' professional 
investigative staff accepts and investigates complaints filed by 
individuals who believe that their employment or reemployment rights 
have been violated by public or private-sector employers. In addition, 
VETS staff provides technical assistance and briefings on the law to 
the public. Many employment disputes arise from misunderstandings on 
employee and employer rights and obligations under the law, and, as a 
result, VETS seeks to resolve issues at the earliest possible 
opportunity. Since September 11, 2001, VETS has received and 
investigated on average, approximately 1,375 cases per year. VETS 
conducts thorough and complete investigations, including obtaining all 
documentary evidence and witness statements. VETS also has subpoena 
authority and uses it when necessary.
    VETS works with the employers and claimants to achieve a 
satisfactory resolution. When VETS is unable to resolve the issue, the 
claimant may request that the case be referred to either the U.S. 
Department of Justice (for non-Federal employers) or the Office of 
Special Counsel (OSC) (for Federal-sector employers) for those agencies 
to determine whether they will provide representation in Federal 
District Court or before the Merit Systems Protection Board, 
respectively. In the alternative, the claimant may elect to pursue 
relief as a pro se litigant or through private counsel at his or her 
own expense.
    In addition to its USERRA responsibilities, VETS is also 
responsible for investigating complaints received pursuant to the 
Veterans' Employment Opportunities Act of 1998 (VEOA; 5 U.S.C. 3330a) 
from preference-eligible Veterans who have alleged that their Veterans' 
preference rights in Federal hiring or during a reductions-in-force 
(RIFs) have been violated. The proposed HR 4072 fails to include VETS' 
Veterans' preference among those functions to be transferred to VA.
    Another enforcement program that would be transferred to the VA 
under the bill is DoL's Office of Federal Contract Compliance Programs 
(OFCCP) enforcement of Sections 4212 (a)(1) and 4212 (a)(2)(A) of the 
Vietnam Era Veterans' Readjustment Assistance Act of 1974 (VEVRAA). 
VEVRAA prohibits Federal contractors and subcontractors 
(``contractors'') from discriminating against protected Veterans \1\ 
and requires them to ensure equal opportunity for protected Veterans in 
all aspects of employment, such as recruitment, including listing job 
openings with appropriate employment services, hiring, training, and 
promotion. \2\
---------------------------------------------------------------------------
    \1\ Those with disabilities, those recently discharged, and those 
who served during a war, campaign or expedition for which a campaign 
badge is authorized.
    \2\ Coverage of contractors and Veterans varies according to when 
the contract was entered into. For contracts entered into before 
December 1, 2003, the contract dollar threshold is $25,000, and the 
Veterans covered are: (1) special disabled Veterans; (2) Veterans of 
the Vietnam era; (3) Veterans who served on active duty in the Armed 
Forces during a war or in a campaign or expedition for which a campaign 
badge has been authorized; and (4) Veterans separated from the service 
for one year or less. For contracts entered into on or after December 
1, 1993, the contract dollar threshold is $100,000, and the Veterans 
covered are: (1) disabled Veterans; (2) Veterans who served on active 
duty in the Armed Forces during a war or in a campaign or expedition 
for which a campaign badge has been authorized; (3) Veterans who, while 
serving on active duty in the Armed Forces, participated in a United 
States military operation for which an Armed Forces service medal was 
awarded pursuant to Executive Order No. 12985; and (4) Veterans 
separated from the service for three years or less.
---------------------------------------------------------------------------
    OFCCP enforces two other laws that require nondiscrimination and 
affirmative action by contractors, in addition to VEVRAA: Executive 
Order 11246 (which covers race, national origin, color, sex, and 
religious discrimination) and Section 503 of the Rehabilitation Act of 
1973 (which covers disability discrimination). Today, OFCCP conducts a 
robust program that monitors the more than 179,000 contractor 
establishments (or facilities), with contracts totaling over $700 
billion - covering approximately one quarter of American workers--for 
compliance with all three of these laws.
    If enforcement of Sections 4212(a)(1) and 4212(a)(2)(A) of VEVRAA 
were to be moved from DoL to the VA, care must be taken to avoid 
adverse effects on contractors' compliance with those sections. Under 
its two other authorities, OFCCP already conducts thousands of 
investigations of contractors' employment practices every year, and 
practices related to the employment of protected Veterans is fully 
integrated into OFCCP's systems.
Conclusion:
    VETS has a core mission of providing employment and reemployment 
services to Veterans and transitioning Service Members, as well as 
protecting their employment rights. In doing this, VETS partners with 
other DoL agencies as well as VA and DoD. DoL looks forward to working 
with the Subcommittee and our partners to ensure that we provide 
effective assistance to Veterans.
    Mr. Chairman, this concludes my statement. I would be happy to 
entertain any questions you or the other Members of the Committee may 
have.

                                 <F-dash>
                       Statements For The Record

                           HON. MIKE MCINTYRE
    Testimony to the House VA Committee
    March 5, 2012

    Chairman Miller, Ranking Member Filner, and Members of the 
Veterans' Affairs Committee:

    I submit this testimony in support of the Veterans Education Equity 
Act of 2011, H.R. 3483, legislation I sponsored with Congressman G.K. 
Butterfield. This important measure would equalize veterans' tuition 
benefits under the Post 9/11 G. I. Bill and change an inequity in 
existing law which allots more education funds to veterans enrolled in 
private colleges than those in public institutions. I would also like 
to highlight my constituent, Sgt. Jason Thigpen, who is testifying 
today, and the organization he started, the Student Veterans Advocacy 
Group at the University of North Carolina at Wilmington, which was 
instrumental in formulating this legislation.

    As you know, the Post 9/11 Veterans' Educational Improvements 
Assistance Act capped the education benefit amount for veterans who 
enroll in private colleges at $17,500 and limited the education benefit 
for those who enroll in public colleges to the amount charged for 
resident tuition and fees. The current law unintentionally burdens a 
significant number of American veterans, requiring them to pay 
thousands of dollars out-of-pocket in non-residential tuition rates. 
This could add up to more than $100,000 in certain states.

    The Veterans' Education Equity Act of 2011 would remedy this 
inequality and allow all veterans to receive up to $17,500 in education 
benefits. However, if resident tuition exceeds $17,500, the bill would 
cover the full cost of tuition. The bill makes no changes to existing 
law for veterans who choose to attend private colleges and 
universities.

    This legislation is absolutely essential to thousands of veterans 
who were promised funding for their college education. Already, 
numerous veterans have had to drop out, transfer, or assume tremendous 
financial burdens due to the recent change in law. This legislation is 
vital to give all veterans an equal opportunity to afford the school of 
their choice. Therefore, I respectfully request your important 
consideration and support of this measure that will restore equal 
education benefits for all veterans.

    Mike McIntyre
    Member of Congress

                                 <F-dash>
              U.S. TRANSPORTATION SECURITY ADMINISTRATION

    MAR -6 2012

    The Honorable Marlin Stutzman
    Chairman
    Subcommittee on Economic Opportunity
    Committee on Veterans' Affairs
    U.S. House of Representatives
    Washington, DC 20515

    Dear Chairman Stutzman:

    Thank you for your letter of February 17,2012, regarding the 
Subcommittee on Economic Opportunity's legislative hearing scheduled 
for March 8, 2012. I appreciate the opportunity to share the 
Transportation Security Administration's (TSA) views on H.R.3670.
    Enclosed for your consideration is the TSA's Statement for the 
Record regarding H .R. 3670, legislation which would grant 
Transportation Security Officers rights under the Uniformed Services 
Employment and Reemployment Rights Act. We share the Subcommittee's 
support of our Nation's veterans, and TSA is proud that more than 
15,000 veterans are counted among the Agency's employees. Representing 
nearly 25 percent of our workforce, veterans are working throughout TSA 
to provide the highest level of security for the traveling public.
    I hope this information is helpful. If we may be of further 
assistance, please call the Office of Legislative Affairs at 571-227-
2717.

    Sincerely yours,

    Peter W. Hearding
    Deputy Assistant Administrator
        for Legislative Affairs

    Enclosure
    Thank you, Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee for the opportunity to submit 
this written statement for the record about the ways the Transportation 
Security Administration (TSA) supports our military personnel in the 
employment process in addition to facilitating travel for soldiers and 
their families throughout the United States.
    TSA is proud to count many uniformed servicemembers among our 
employees. Over 10,000 veterans--or approximately 20% of the 
Transportation Security Officer (TSO) workforce--serve on TSA's front 
line securing our Nation's transportation sector. TSA has endeavored to 
ensure that our policies and procedures are consistent with the law, 
and structured to promote the substantive rights to which veterans' are 
specifically entitled under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA).
Employment Protection for Service Members
    TSA is authorized under the Aviation and Transportation Security 
Act (ATSA) to set the qualifications, conditions and standards of 
employment for TSOs, notwithstanding any other provision of law. ATSA, 
'111(d), 49 U.S.C. '44935, note. If enacted, H.R. 3670 would amend 
'111(d) of ATSA to expressly state that the TSA Administrator would be 
required to comply with USERRA. Specifically, if amended, '111(d) of 
ATSA would read as follows (new text added by H.R. 3670 is in bold 
font):

       (1) GENERAL AUTHORITY--Except as provided in paragraph (2), 
andnotwithstanding any other provision of law, the Under Secretary of 
Transportation for Security may employ, appoint, discipline, terminate, 
and fix the compensation, terms, and conditions of employment of 
Federal service for such a number of individuals as the Under Secretary 
determines to be necessary to carry out the screening functions of the 
Under Secretary under section 44901 of title 49, United States Code. 
The Under Secretary shall establish levels of compensation and other 
benefits for individuals so employed.
       (2) UNIFORMED SERVICES EMPLOYMENT AND REEMPLOYMENT RIGHTS ACT--
In carrying out the functions authorized under paragraph (1), the Under 
Secretary shall be subject to the provisions set forth in chapter 43 of 
title 38, United States Code.

    TSA's policies for veterans afford TSOs the same substantive rights 
enumerated in H.R. 3670. In 2006, TSA established policies and 
procedures for employment and reemployment of members of the uniformed 
service-consistent with the provisions of USERRA (38 U.S.C. '' 4301-
4344) in the form of TSA Management Directive 1100.30-17, Uniformed 
Services Employment and Reemployment, which is supplemented by a more 
detailed Handbook and available to all TSA employees. The policy, 
updated and expanded in 2009, addresses: predeployment procedures for 
both the employee and management; leave and other benefits afforded to 
servicemembers; and the responsibilities of employees, human resources 
specialists and supervisors/managers regarding reemployment rights of 
servicemembers. The Handbook also addresses the special considerations 
that apply to returning employees who suffer a service-connected 
disability including reassignment to another position for which the 
employee qualifies if the employee can no longer perform the essential 
functions of the position held prior to his or her military service.
    Through the application of this policy, TSA demonstrates its 
commitment to treating both TSO and non-TSO uniformed service employees 
with equal respect. TSOs who believe their USERRA rights have been 
violated may contact the Department of Labor (DoL) for assistance and 
TSA works closely with DoL to address any disputes that arise. TSA has 
worked diligently to educate supervisors and human resources 
specialists policies related to uniformed services employment and 
reemployment while establishing relationships with the interagency 
partners. As a result, most issues are resolved before they reach the 
DoL complaint stage. Based upon the fact that TSA has these policies in 
place, we believe that H.R. 3670 is unnecessary.
Facilitating Travel through Risk-Based Security Measures
    In addition to supporting our veteran employees by protecting their 
USERRA rights, TSA is also committed to expediting the screening 
process for our uniformed servicemembers. U.S. servicemembers are 
entrusted with the responsibility to protect our citizens with their 
lives. TSA recognizes that these members pose very little risk to 
security and has developed procedures at our security checkpoints to 
allow military personnel to move safely and expeditiously through our 
nation's airports.

    -- Military personnel traveling in uniform with a valid military ID 
are not required to remove their footwear unless it alarms the walk 
through metal detector at the checkpoint while family members who want 
to accompany a deployed military servicemember to the boarding gate, or 
greet them returning from deployment at the arrival gate, may receive 
passes to enter the secure area of the airport after being properly 
screened.
    -- To facilitate the screening of injured and wounded 
servicemembers, TSA has partnered with the Department of Defense (DoD) 
to develop a process to inform us when our injured military heroes are 
traveling through our Nation's airports.
    -- TSA will soon begin incorporating active duty U.S. Armed Forces 
members with a valid Common Access Card, traveling out of Ronald Reagan 
Washington National Airport into the TSA Pre 4 <SUP>TM</SUP>. If TSA is 
able to verify the servicemember is in goodstanding with the Department 
of Defense, they will receive TSA Pre 4 <SUP>TM</SUP> screening 
benefits, such as no longer removing their shoes or light jacket and 
allowing them to keep their laptop in its case and their 3-1-1 
compliant bag in a carry-on. Building on its initial success, TSA 
envisions expanding TSA Pre 4 <SUP>TM</SUP> benefits to active duty 
servicemembers at additional participating airports in the coming 
months.

    Of course, nothing will guarantee that a passenger receives 
expedited screening. To remain effective, TSA must retain the ability 
to employ random and unpredictable security measures at any point in 
the process. TSA's goal at all times is to maximize transportation 
security to stay ahead of evolving terrorist threats while protecting 
privacy and facilitating the flow of legitimate commerce.
    This Subcommittee plays a vital role in advancing legislation that 
assists our Nation's military personnel and enables us to repay the 
debt of gratitude owed to those who defend the rights and liberties 
enjoyed by all Americans. The Subcommittee's continued vigilance on 
behalf of veterans ensures that those who nobly defend our Nation are 
rewarded for their service. Thank you for the opportunity to submit 
this written statement to discuss how the Transportation Security 
Administration (TSA) supports our military personnel in the employment 
process in addition to facilitating travel for soldiers and their 
families throughout the United States.

                                 <F-dash>
                        TERRY ``T.P'' O'MAHONEY

    March 7, 2012

    The Honorable Jeff Miller
    Chairman, House Committee on Veterans' Affairs
    2416 Rayburn House Office Building
    Washington, DC 20515

    Dear Chairman Miller:

    On behalf of the nearly 1.8 million veterans in Texas, I would like 
to thank you for the significant leadership, vision and hard work you 
have given to improve their lives and the lives of their families.
    As Chairman of the Texas Veterans Commission, and as a former 
member of the Texas Workforce Commission, I would also like to commend 
you for sponsoring House Resolution 4072. Your legislation very closely 
tracks the ``Texas Model'' of placing the veteran employment function 
within the state's veteran affairs agency.
    Since 2006, when those functions were combined within the Texas 
Veterans Commission, Texas has excelled at finding employment for our 
veterans. Today, we lead the nation, by far, in finding jobs for our 
Texas veterans. In the last fiscal year, 38,714 veterans found work 
with assistance provided by over 170 Veteran Employment Specialists at 
TVC. When veterans help veterans, amazing things happen: one of every 
three jobs created in the top 10 funded states were created in Texas; 
Texas spends one-third as much as the median cost to hire a veteran 
among the top 10 states; and, though Texas received 7 percent of the 
nation's veteran employment funding in the last year, it accounted for 
18 percent of the veterans entering into employment after receiving 
assistance from veteran employment specialists.
    It is with this experience in mind, and in the hope of assisting 
your effort to build on the success of this model, that I respectfully 
offer the following observations and principles for HR 4072:

    1. The ``one-stop'' concept should be preserved.When the veterans' 
employment function was combined within the Texas Veterans Commission, 
state legislators were careful to ensure that veteran employment 
specialists continue to work within the workforce centers.
    2. Remove the option allowing non-veterans to serve as veteran 
employment specialists.You may want to consider removing the language 
in HR 4072 (Sec. 4) that would allow states to hire a non-veteran to 
serve as a veteran employment specialist if no veteran is available. It 
has been our experience in Texas that qualified veterans are always 
available to assist their fellow veterans.
    3. Ensure that ``intensive services'' are preserved.Veterans who, 
for a variety of reasons, have significant barriers to employment 
should be accommodated. Accordingly, Texas Veterans Commission 
recommends that you consider including intensive services as part of 
the ``Principal Duties'' outlined in the consolidation portion of your 
bill (Sec. 4).
    4. Ensure that the legislation provides the flexibility necessary 
to the states to implement the changes by the most appropriate and 
effective means.
    Because Texas is unique, we have a unique interest in ensuring that 
HR 4072 preserves our effective model for combining veterans employment 
and allows other states to capitalize on the success we've enjoyed. 
Specifically, Texas Veterans Commission is concerned that language in 
HR 4072 (Sec. 4) requiring that consolidation occur ``in a state under 
the applicable state employment service delivery systems'' could have a 
severe unintended consequence for Texas. Without greater specificity, 
the clause might be misinterpreted as a requirement to return Texas' 
veteran employment functions back to the Texas Workforce Commission. We 
simply request that alternative language specifying that the 
consolidation occur ``in a state under the appropriate veterans' 
employment agency,'' be considered as an alternative.
    5. Preserve and enhance veterans' employment funding through 
performance outcomes.
    I know you are as committed as we are to being fully prepared to 
meet the increased needs of a military drawdown. The costs of defending 
freedom will not end with the withdraw of troops from Iraq and the 
impending drawdown in Afghanistan. At the same time, taxpayers must be 
assured that funding for veteran employment assistance is used 
effectively. To promote the greatest return on investment for veteran 
employment dollars, Congress should require performance outcomes in the 
annual funding formula for states. Such a measure will incentivize 
states to excel at training and employing veterans.
    I sincerely thank you, the Committee, and your staff for your 
leadership and consideration. I stand ready to answer any questions or 
provide any information you may need to assist your efforts.
    Thank you for all you do on behalf of our nation's veterans.

    Sincerely,

    Terry ``T.P.'' O'Mahoney
    Chairman, Texas Veterans Commission

    cc: Committee on House Veterans' Affairs

                                 <F-dash>
                           DR. R. SCOTT RALLS

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to enter testimony into the record regarding H.R. 3483, the 
Veteran's Education Equity Act of 2011. I represent a System of 58 
colleges that provides education and workforce training to almost 
900,000 North Carolinians annually--approximately one out of every 
eight adults in our state.
    Ours is a system that grew out of an innovation to foster statewide 
economic prosperity through workforce development. Founded on the 
concept of educating and training persons for jobs they had not 
previously performed, our colleges have transformed into centers of 
education and innovation, responsive to a 21st century knowledge-based 
economy whose employers not only demand - but expect - a highly 
skilled, highly trained workforce that we are called upon to provide. 
Our ``open door'' philosophy is rooted in the belief ascribed to by one 
of our founders, Dr. Dallas Herring, where we take every student from 
where they are in life and take them as far as they can go to be 
productive members of our society.
    Since 2008, our colleges have grown by over 33,000 students, or 
roughly the size of one of our flagship state universities, North 
Carolina State University. Whether it is due to job layoffs, 
constricting family finances, or persons with 4-year degrees coming to 
our colleges to be retrained for job-ready fields of work, more 
individuals are turning to our community colleges as the pathway to 
further their educational goals. Those returning in increasing numbers 
also include our nation's servicemen and women.
    North Carolina is proud to be the most military friendly state in 
the union. With major military bases at Fort Bragg, Camp Lejeune, 
Seymour Johnson, and Cherry Point, our state takes tremendous pride in 
supporting members of our country's armed services and their families. 
Through partnerships like those at Coastal Carolina Community College 
in Jacksonville, Fayetteville Technical Community College in 
Fayetteville, Wayne Community College in Goldsboro or Craven Community 
College in New Bern, our colleges maintain close connections with our 
armed services to ensure that our military members are well served and 
equipped with the skills they need to be successful in their military 
careers and beyond.
    Equally important is the value we place on our United States 
veterans. Whether relocating in our state to begin retirement, or in 
many cases to begin a second career, our community colleges provide the 
instruction and training for our veterans to succeed in a new phase of 
their lives. As a System, we are concerned that changes made in the 
Post 9/11 Veterans Education Assistance Improvements Act of 2011 (PL 
111-377) caused unintended consequences to our non-resident veterans. 
While acting in good faith to contain the overall program costs, the 
bill had the net effect of reducing benefits for veterans who for 
tuition purposes are classified as out-of-state residents.
    The interpretation being made to limit tuition and fees at public 
institutions to the applicable institution's in-state tuition rate for 
both in-state and out-of-state Veterans unintentionally disadvantages 
out-of-state veterans who wish to attend public institutions in North 
Carolina. In the 2010-11 academic year, over 700 veterans attending 
North Carolina's community colleges were adversely affected by this 
interpretation. One student at Pitt Community College expressed the 
hardships she now faced in terms of deferring her education because of 
the inability to now afford tuition. ``I was told I had full benefits 
no matter where I lived . . . I feel this is (a) mistreatment to 
veterans who have served their country''. When discussing the plight of 
former military servicemen and women, another student-veteran remarked, 
``They are now being told that their out-of-state tuition won't be 
covered as it once was, causing many of them to be unable to afford 
their education.''
    Fortunately, the bill you have before you for consideration, H.R. 
3483, the Veterans Education Equity Act of 2011, will enable Veterans 
to receive this benefit that they previously enjoyed prior to changes 
to the Post 9/11 GI Bill. Due to the leadership of North Carolina 
Congressman G.K. Butterfield, and joined by Howard Coble, Walter Jones, 
Larry Kissell, Mike McIntyre, Brad Miller, David Price, Mel Watt and 50 
other Representatives, H.R. 3483 will allow the affected veteran 
population to receive the greater of (1) actual net costs for in-state 
tuition or (2) $17,500 for the academic year beginning on August 1, 
2011.
    University of North Carolina System President Tom Ross and I co-
authored a letter to the state's congressional delegation respectfully 
requesting action to remedy this situation for our veterans. Recently, 
our college presidents, working in concert with our local college 
boards of trustees, endorsed H.R. 3483 as a part of our system's 
Federal agenda. Trustees had the opportunity to visit with our 
delegation last month to reiterate their support for this legislation. 
While this cannot be done without a cost, we sincerely believe that an 
educational opportunity for all of our servicemen and women is a price 
worth paying. It is in our state's best interest to educate 
servicemembers. As President Ross and I acknowledged last year, 
servicemembers are our best students--they graduate on time and they 
continue to grow our state's economy. With thousands of men and women 
set to return from tours of duty overseas, we owe it to them to 
reinstate this education benefit as recognition of their service to our 
country. This seems to be a small price to pay in exchange for what 
they have given to us.
    Thank you for the opportunity to express our system's support of 
this important piece of legislation.
    Please insert the total number of undergraduate military 
servicemembers using GI Bill grants charged out-of-state tuition rates 
for each of the following school years:


----------------------------------------------------------------------------------------------------------------
                    College                        2006-07      2007-08      2008-09      2009-10      2010-11
----------------------------------------------------------------------------------------------------------------
Alamance                                                   *            1            0            0            1
----------------------------------------------------------------------------------------------------------------
Asheville-Buncombe                                         6            8           10           19           27
----------------------------------------------------------------------------------------------------------------
Beaufort Co.                                               0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Bladen
----------------------------------------------------------------------------------------------------------------
Blue Ridge                                                 0            0            0            1            1
----------------------------------------------------------------------------------------------------------------
Brunswick                                                  0            1            0            0            1
----------------------------------------------------------------------------------------------------------------
Caldwell                                                   2            1            0            2            5
----------------------------------------------------------------------------------------------------------------
Cape Fear                                                n/a          n/a          n/a           49          108
----------------------------------------------------------------------------------------------------------------
Carteret
----------------------------------------------------------------------------------------------------------------
Catawba Valley                                             0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Central Carolina
----------------------------------------------------------------------------------------------------------------
Central Piedmont                                          16           12           11           15           29
----------------------------------------------------------------------------------------------------------------
Cleveland
----------------------------------------------------------------------------------------------------------------
Coastal Carolina                                           7           10           11           35           59
----------------------------------------------------------------------------------------------------------------
Coll. Of Albermarle                                       26           14           10            8            6
----------------------------------------------------------------------------------------------------------------
Craven                                                     *            *            *           22           69
----------------------------------------------------------------------------------------------------------------
Davidson County                                            *            *            *            3            *
----------------------------------------------------------------------------------------------------------------
Durham
----------------------------------------------------------------------------------------------------------------
Edgecombe
----------------------------------------------------------------------------------------------------------------
Fayetteville                                               *            *            *           63          155
----------------------------------------------------------------------------------------------------------------
Forsyth                                                    2            1            2            5           10
----------------------------------------------------------------------------------------------------------------
Gaston                                                     *            1            4            6            9
----------------------------------------------------------------------------------------------------------------
Guilford                                                  10            2            3            7           22
----------------------------------------------------------------------------------------------------------------
Halifax                                                    0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Haywood                                                    0            2            0            3            3
----------------------------------------------------------------------------------------------------------------
Isothermal
----------------------------------------------------------------------------------------------------------------
James Sprunt                                               0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Johnston                                                   0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Lenoir                                                     0            0            0            2            1
----------------------------------------------------------------------------------------------------------------
Martin                                                     *            1            0            0            0
----------------------------------------------------------------------------------------------------------------
Mayland
----------------------------------------------------------------------------------------------------------------
McDowell
----------------------------------------------------------------------------------------------------------------
Mitchell
----------------------------------------------------------------------------------------------------------------
Montgomery
----------------------------------------------------------------------------------------------------------------
Nash                                                       0            0            3            5            1
----------------------------------------------------------------------------------------------------------------
Pamlico                                                    0            0            0            0            1
----------------------------------------------------------------------------------------------------------------
Piedmont                                                   1            0            0            3            4
----------------------------------------------------------------------------------------------------------------
Pitt                                                      15           19           17           30           53
----------------------------------------------------------------------------------------------------------------
Randolph                                                   4            2            8           13           22
----------------------------------------------------------------------------------------------------------------
Richmond                                                   0            0            0            1            3
----------------------------------------------------------------------------------------------------------------
Roanoke-Chowan                                             0            1            0            1            1
----------------------------------------------------------------------------------------------------------------
Robeson                                                    0            0            0            0            1
----------------------------------------------------------------------------------------------------------------
Rockingham
----------------------------------------------------------------------------------------------------------------
Rowan-Cabarrus                                             *            *            *            9           16
----------------------------------------------------------------------------------------------------------------
Sampson
----------------------------------------------------------------------------------------------------------------
Sandhills                                                  *            *            *            *            *
----------------------------------------------------------------------------------------------------------------
South Piedmont
----------------------------------------------------------------------------------------------------------------
Southeastern                                               0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Southwestern                                               1            0            0            2            0
----------------------------------------------------------------------------------------------------------------
Stanly                                                     0            0            0            3            4
----------------------------------------------------------------------------------------------------------------
Surry                                                      0            0            0            0            0
----------------------------------------------------------------------------------------------------------------
Tri-County
----------------------------------------------------------------------------------------------------------------
Vance-Granville                                            *            *            2            2            3
----------------------------------------------------------------------------------------------------------------
Wake                                                      25           42           47           57           85
----------------------------------------------------------------------------------------------------------------
Wayne                                                      0            0            0            5           13
----------------------------------------------------------------------------------------------------------------
Western Piedmont                                           *            *            *            1            1
----------------------------------------------------------------------------------------------------------------
Wilkes                                                     0            0            1            3            1
----------------------------------------------------------------------------------------------------------------
Wilson                                                     *            0            0            0            0
----------------------------------------------------------------------------------------------------------------
          TOTAL                                          115          118          129          375          715
----------------------------------------------------------------------------------------------------------------


    * no data available

    [GRAPHIC] [TIFF OMITTED] 73293.005
    

                                 <F-dash>
                IRAQ AND AFGHANISTAN VETERANS OF AMERICA
    Testimony of Ramsey Sulayman
    Mr. Chairman, Ranking Member, and members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's 200,000 Member 
Veterans and supporters, I thank you for inviting me to submit this 
testimony and share the views of our members' on these important pieces 
of legislation.
    My name is Ramsey Sulayman and I am a legislative associate with 
Iraq and Afghanistan Veterans of America (IAVA). I am a major in the 
United States Marine Corps Reserve, have seen life on active-duty and 
the reserves, and I deployed as part of Operation Iraqi Freedom, 
serving as an infantry platoon commander and company executive officer 
with a reconnaissance unit operating on the western border with Syria. 
The view expressed in this testimony are those of IAVA and do not 
reflect any position held by the Marine Corps. The Marine Corps has two 
missions: winning battles and making Marines. The first mission is what 
we are known for: Marines have demonstrated their prowess in war for 
over 236 years. The second is a duty I believe continues throughout 
life. As the saying goes, there are no ex-Marines. I'm proud to 
continue to serve through my work at IAVA and to say to all members of 
our armed forces, past and present, ``I've got your back.''


--------------------------------------------------------------------------------------------------------------------------------------------------------
                        Bill #                                            Name/Subject                               Sponsor                Position
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 3329                                                        Extend VocRehab eligibility to 15 years            Rep. Sanchez, Linda      Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 3483                                                  In state tuition fix to the Post-9/11 GI Bill          Rep. Butterfield           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 3524                                                                                               Leave for veterRep. Braley treatment Supporturies
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 3610                                                   Moving Vet employment services to the States                 Rep. Foxx            Oppose
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 3670                                                        Extending USERRA protections to the TSA                 Rep. Walz           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 4048                                                       Veterans preference to the GSA catalogue              Rep. Johnson           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 4051                                                                         Extending TAP off base             Rep. Stutzman           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 4052                                                           Recognizing GI Bill friendly schools             Rep. Stutzman           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 4057                                                        Consumer education for student veterans            Rep. Bilirakis           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 4072                                                                    Moving VETS program from DoL to VA        Rep. Miller           Support
--------------------------------------------------------------------------------------------------------------------------------------------------------

    H.R. 3329--IAVA supports H.R. 3329, extending veterans' eligibility 
to apply for VA Vocational Rehabilitation and Employment benefits from 
12 to 15 years. Given the experience from past wars, most notably 
Vietnam, we should lay the foundation to help veterans of Iraq and 
Afghanistan who may not show disabling conditions for years to come. 
Extending the eligibility to apply for Voc Rehab benefits is a prudent, 
low-cost step that can be taken before any need arises; which is to 
say, before it is too late to do much good.
    H.R. 3483--IAVA supports H.R. 3483, the Veterans Education Equity 
Act of 2011, and its attempt to address an inequity with the Post-9/11 
GI Bill. Currently, GI Bill payments for out-of-state students are 
limited to the cost of in-state tuition. Veterans attending a private 
school in the same state can receive up to $17,500 in tuition and fee 
assistance. Veterans who choose to attend a public school in a state 
where they do not legally reside often incur a sizable debt burden to 
make up the difference between in-state and out-of-state tuition rates. 
Ideally, we would prefer that all schools that receive GI Bill funds 
treat all veterans and their dependants as in-state residents. However, 
bringing the out of state tuition and fee cap on par with the cap for 
private schools is an acceptable compromise.
    H.R. 3524--IAVA supports H.R. 3524, the Disabled Veterans 
Employment Protection Act. The decrease in the rate of fatalities 
during the wars in Iraq and Afghanistan in comparison with historical 
levels has been a welcome development. However, many more 
servicemembers survive with either physical or mental health injuries. 
When these veterans re-enter civilian life and the workforce, their 
injuries still require treatment and this often entails extended 
absence from a veteran's place of employment. H.R. 3524, assures that 
veterans can more fully recover from their service-connected injuries 
while remaining employed.
    H.R. 3610--IAVA opposes H.R. 3610. IAVA recognizes that the intent 
of H.R. 3610 reflects valid concerns about tailoring employment help 
for veterans to local economies: the needs in Silicon Valley might 
differ substantially from the manufacturing centers in Michigan. 
However, IAVA opposes the methods H.R. 3610 proposes to meet this goal. 
We believe that transferring veterans employment funding and services 
to the states removes valuable Congressional oversight and risks 
lowering standards for these programs. Among our most pressing concerns 
is that states could choose not to receive grant funds, thereby 
eliminating services altogether. Our fears are not allayed by the 
argument that such a circumstance is ``unlikely.'' Furthermore, the 
fact that spending is now solely at the discretion of the states means 
the funds currently used to help veterans could be used for other 
purposes, thereby diluting their effect and lessening the help 
available for transitioning or displaced veterans. Additionally, 
programs that are now successful could have their funding cut or their 
focus shifted as states focus on other employment priorities. 
Therefore, IAVA opposes passage of H.R. 3610.
    H.R. 3670--IAVA supports H.R. 3670. USERRA is a critical 
reemployment safeguard for members of the Guard and Reserves. IAVA 
believes that USERRA protections should be extended to all state and 
Federal employees. H.R. 3670 addresses this gap in USERRA protection 
for the Transportation Security Administration (TSA). In 2010, the 
Department of Homeland Security employed nearly 47,000 veterans, many 
of them in the TSA. It is only reasonable that Guardsmen and Reservists 
who are employed by the Federal government receive the same protections 
as their peers who are employed in the private sector.
    H.R. 4048--IAVA supports H.R. 4048, extending veterans preference 
to veteran-owned small businesses that wish to list services to the 
Federal government in the GSA catalogue. Extending contracting 
preference to veteran-owned business has historically been an effective 
and sensible method of ensuring that veterans find quality employment 
after leaving service. At a time where veteran unemployment is 
staggering, this bill will provide more opportunities for veteran 
business owners to offer goods and services to the country that they 
have fought to protect.
    H.R. 4051--IAVA supports H.R. 4051, the TAP Modernization Act of 
2011. It's smart policy to allow veterans who have already been through 
the Transition Assistance Program (TAP) and their spouses the 
opportunity to retake the program. TAP is taken at the very end of a 
servicemember's time in service and during a transition that, even in 
the best of circumstances, is hectic. The opportunity to retake TAP as 
a refresher is a valuable resource. IAVA endorses H.R. 4051, but we 
believe that the pilot program should be scaled up quickly, ahead of 
schedule and to more locations if it proves successful. IAVA 
understands that limiting the scope and geography of the pilot program 
is necessary initially; however, we suggest incorporating a set of 
benchmarks to determine the efficacy of the program prior to the three 
and a half year deadline set in the current version of the legislation.
    H.R. 4052--IAVA supports H.R. 4052, the Recognizing Excellence in 
Veterans Education Act of 2012. The Post-9/11 GI Bill is the most 
significant veterans' benefits in the last half-century. One of the key 
obstacles for many veterans to effectively utilize the Post-9/11 GI 
Bill is the lack of good information available to help them make sound 
educational and job training choices. H.R. 4052, will help bring 
clarity to this process. This program will serve as a beacon marking 
veteran-friendly schools with the Excellence in Veterans Education 
Award. The criteria for awarding the Excellence in Veterans Education 
Award are excellent indicators that an educational institution places 
value on its student veterans, from the academic (graduation rates) to 
the financial (full participation in the Yellow Ribbon program).
    H.R. 4057--IAVA supports H.R. 4057, the Improving Transparency of 
Educational Opportunities for Veterans Act of 2012. IAVA's main 
priority is to ensure transparency and accountability in GI Bill 
benefits and their use. IAVA believes that the GI Bill is the most 
effective program available for transforming our generation of veterans 
into the ``New Greatest Generation.'' IAVA also realizes that, like the 
original GI Bill, unscrupulous actors whose goals are to take advantage 
of veterans by poaching their hard earned benefits is a threat to the 
Post-9/11 GI Bill. If we do not preserve the integrity and 
effectiveness of the Post-9/11 GI Bill, we will lose this 
transformational benefit. IAVA advocates a three-prong strategy to 
ensure that VA educational benefits are used wisely: 1) data 
collection, 2) consumer education, and 3) regulation enforcement 
through market means.
    H.R. 4057 stresses the first two and IAVA supports this approach. 
We believe that the availability of clear and equivalent data, 
available in an easily accessible and transparent format, is an 
essential element to ensure smart use of VA educational benefits. All 
schools, regardless of profit goal or government support, should have 
to provide this information so that students can assess how a given 
school meets their needs. IAVA believes that College Navigator, a site 
run by the Department of Education, is an excellent model. However, the 
data is inconsistent; not all schools report the same data. Mandating 
that all schools report the same data is crucial.
    While IAVA supports the goals of H.R. 4057, as well as the 
legislation itself, we would like to address some areas of potential 
concern. We are pleased to see a broad definition of post-secondary 
education and training opportunities, but are concerned that emphasis 
on ``commercially available off-the-shelf online tool(s)'' will have 
limitations. We are concerned that an existing tool currently in the 
government's toolbox (like College Navigator) might be bypassed for a 
commercial option, like GIBill.com or EducationConnection.com, which 
are a funnel sites for mostly for-profit schools.
    H.R. 4072--IAVA supports H.R. 4072, the Consolidating Veterans' 
Employment Services for Improved Performance Act of 2012. Given that 
the unemployment rate for OIF/OEF-era veterans has hovered around 25% 
higher than the civilian rate, IAVA continues to scan the horizon for 
innovative approaches to solve the veteran unemployment crisis. H.R. 
4072 takes a different tactic than most, focusing on a veterans' first 
point of contact when they leave service: veteran employment services. 
Two of the critiques we at IAVA hear most often from veterans is that a 
multitude of overlapping services cloud options rather than clarify 
them. Additionally, competing programs and services muddle rather than 
sharpen the focus on getting vets employed. By bringing the Department 
of Labor Veterans Employment and Training Service (DoL VETS) into the 
Department of Veterans Administration (VA), duplication of effort will 
be minimized by creating synergies and leveraging resources within one 
department while still maintaining the capability to leverage across 
executive branch departments.
    This idea is not new, but has never coalesced into action. Now is 
the time for action. Under the current system, DoL VETS receives 
funding from DoL to execute VA priorities. It is like having one member 
of the House of Representatives located in the Senate. Aligning the 
resources of VETS with the veteran-centric mission of the VA results is 
an obvious streamlining of control, communication and resources.
    IAVA recognizes that there are many questions to be answered and 
details to be considered. However, we feel that H.R. 4072 is thorough 
in its application and intent. H.R. 4072 transfers VETS on a one-for-
one basis in funding and importance from DoL to VA and IAVA's support 
for H.R. 4072 is contingent on that point. VETS must remain well funded 
and maintained at the organizational rank at VA that it currently 
occupies at DoL.
    Caring for the men and women who defend freedom is a solemn 
responsibility that belongs to lawmakers, business leaders, and 
everyday citizens alike. In the past several years, we have seen a 
turning point in the way we care and provide for our nation's warriors. 
Despite critical successes, however, veterans' education and employment 
services are still not up to standard. We must remain ever vigilant and 
continue to show the men and women who volunteer to serve their country 
that we have their backs. Thank you for your time and attention.

                                 <F-dash>
                       DISABLED AMERICAN VETERANS
    Mr. Chairman and Members of the Subcommittee:

    On behalf of the Disabled American Veterans (DAV), a non-profit 
organization comprised of 1.2 million service-disabled veterans focused 
on building better lives for America's disabled veterans and their 
families, I am pleased to offer our statement for the record on the 
bills under consideration today.
H.R. 3329, Vet Success Enhancement Act of 2011
    H.R. 3329 would amend section 3103, title 38, United States Code, 
to extend the eligibility period for veterans to enroll in vocational 
rehabilitation programs from the current twelve-year period to fifteen-
years.
    The Department of Veterans Affairs (VA) Vocational Rehabilitation 
and Employment's (VR&E's) VetSuccess program assists veterans with 
service-connected disabilities in preparing for, finding and keeping 
jobs suitable to their skill sets. For veterans with severe service-
connected disabilities that impact their ability to immediately work, 
other services are offered to help them live as independently as 
possible. Veterans are eligible for VR&E's VetSuccess program if they 
have an other than dishonorable discharge as well as a service-
connected disability rating of at least 10 percent, or a memorandum 
rating of 20 percent or more from the VA. The VetSuccess program is 
also open to active duty military who expect they will be separated 
with an honorable discharge and who also have a memorandum rating of 20 
percent or more from the VA.
    Under current law, the basic period of eligibility for VetSuccess 
cannot exceed 12 years from either the date of separation from active 
duty, or the date the veteran was notified by VA of their service-
connected disability rating. This 12-year eligibility period can only 
be extended if a Vocational Rehabilitation Counselor determines that a 
veteran has a serious employment handicap.
    We certainly appreciate the intent to extend the eligibility period 
offered by this legislation, but in accordance with DAV Resolution No. 
222, we would recommend it be amended to completely remove any time 
limit for eligibility to VR&E benefits for qualified disabled veterans. 
Despite efforts to keep veterans informed of their benefits, not all 
disabled veterans are aware of their possible entitlements to VR&E 
programs at the time they are awarded service-connection for 
disabilities. Many veterans do not necessarily see themselves as 
needing vocational rehabilitation until later in life, which often 
occurs after the 12-year eligibility rule excludes them from the 
benefit. Just as VA puts no time limit on when a veteran may submit a 
claim for disability compensation, we assert that there should be no 
time limit for access to VR&E benefits either. Moreover, removing the 
time limits on eligibility could also help reduce the backlog of 
disability compensation claims since veterans seeking VR&E benefits 
after 12 (or even 15) years have passed would not have to submit new 
claims, or reopen old ones, in hopes of being granted a new service-
connection to once again make them eligible for VR&E benefits.
    Although passage of H.R. 3329 would be a positive step forward, DAV 
recommends that the legislation be amended to remove any delimiting 
period for eligibility to VR&E benefits.
H.R. 3483, Veterans Education Equity Act of 2011
    H.R. 3483, the Veterans Educational Equity Act of 2011, would 
provide equity under the Post-9/11 G.I. Bill to veterans attending 
college who do not meet residency requirements at public schools.
    The Post-9/11 G.I. Bill offers veterans of the current conflicts 
the opportunity to further their education. Recent changes allow 
veterans attending private schools to receive up to $17,500 in tuition 
and fee payments from VA. However, those attending public schools are 
only entitled to receive the highest in-state tuition and fee payments, 
regardless of whether or not they meet residency requirements for the 
state. As a result, many who do not qualify for in-state tuition face 
significant out-of-pocket costs to attend the public school of their 
choice, as opposed to those who chose education to attend private 
school that may nearly be fully financed. If adopted, this bill would 
extend the $17,500 reimbursement cap for student-veterans attending 
public schools who do not meet residency requirements for in-state 
tuition.
    Although DAV does not have a specific resolution pertaining to this 
legislation, we are not opposed to its favorable consideration.
H.R. 3524, Disabled Veterans Employment Protection Act
    H.R. 3524 would extend Uniformed Services Employment and 
Reemployment Rights Act (USERRA) protections--including retention, 
seniority and benefits--to covered individuals who are absent from 
employment for medical treatment of a service-connected disability. The 
bill would allow employees taking such leave to either take unpaid 
leave or they could choose to use any vacation, annual, medical, or 
similar leave with pay that accrued prior to their medical treatment. 
The bill would limit the application of this Act to periods of absence 
for not more than 12 workweeks during any 12-month period.
    Currently under USERRA, employers are required to make reasonable 
accommodations for disabled veterans; however, employers are not 
specifically required by law to allow veterans with service-connected 
disabilities to be absent from the workplace to receive medical 
treatment for them.
    DAV strongly supports passage of H.R. 3524, consistent with DAV 
Resolution 197, which calls for extending job protections under USERRA 
to cover employee leaves of absence due to medical treatments related 
to service-connected disabilities.
H.R. 3610, Streamlining Workforce Development Programs Act of 2011
    H.R. 3610 would consolidate Federal job training programs in an 
effort to improve their effectiveness and reduce costs. The bill would 
consolidate 33 of the 47 Federal job training programs into several 
block grant funds for distribution to the states. The Workforce 
Investment Funds would provide job training services to adults, 
unemployed workers, and youth seeking employment. The State Youth 
Workforce Investment Fund would assist disadvantaged youth with a focus 
on school completion. The Veterans Workforce Investment Fund would 
deliver employment and training services to veterans. Lastly, the 
Targeted Populations Workforce Investment Fund would assist special 
populations such as Native Americans and seasonal farm workers. The 
legislation would require state and local leaders to set ``common 
performance measures'' for all employment and job training programs and 
an independent evaluation of DoL programs every five years. Governors 
would determine the workforce areas that best serve their states and 
use the various block grants accordingly. States would then submit one 
statewide workforce development plan to the Federal government for all 
job training and related programs.
    DAV has concerns about the effect such a consolidation would have 
on veterans' jobs and training programs administered by the DoL 
Veterans Employment and Training Service. Although DAV has long been 
concerned about the effectiveness of the DoL's ability to effectively 
manage veterans' employment and training programs, we do not believe 
that H.R. 3610 would create a more effective or accountable program to 
help our nation's veterans find meaningful employment. Instead, DAV 
supports alternate legislation, H.R. 4072, which would move DoL's 
current veteran employment programs into the VA, in order to create 
greater collaboration and synergy with related VA programs, such as the 
Vocational Rehabilitation and Employment and the Education services. As 
such, DAV does not support passage of H.R. 3610.
H.R. 3670
    H.R. 3670 would amend the Aviation and Transportation Security Act 
to require the Transportation Security Administration (TSA) to fully 
comply with USERRA when making and carrying out personnel decisions. 
When TSA was established to address aviation security following the 
attacks of September 11, 2001, Congress allowed transportation security 
officers to be included in a select category of Federal employees 
considered vital to national security, and therefore exempt from 
USERRA. As a result, TSA employees who may be called up from reserve to 
active duty status do not enjoy all of USERRA's job protections to 
prevent them from suffering loss as a result of their service. Although 
TSA claims to have adopted some of the USERRA protections voluntarily, 
this legislation would apply the full USERRA protections to all TSA 
employees.
    Consistent with the intent of DAV Resolution 213, DAV supports 
passage of H.R. 3670 in order to ensure that veterans, including 
disabled veterans, do not suffer employment losses as a result of 
continued service in our nation's armed forces.
H.R. 4048, Improving Contracting Opportunities for Veteran-Owned Small 
        Businesses Act of 2012
    H.R. 4048 would amend Section 8127 of title 38, United States Code, 
to require VA to include the value of goods and services procured 
through the Federal Supply Schedule (FSS) when determining whether they 
are meeting the goals established for contracting with veteran-owned 
and service-disabled veteran-owned businesses (SDVOSBs). The FSS is 
comprised of large contracts negotiated by the General Services 
Administration that allow Federal customers, including VA, to purchase 
more than four million products and services from over 8,000 commercial 
suppliers. Although VA as a matter of practice is currently including 
FSS purchases in its current annual reporting under Section 8127, this 
legislation would codify this practice for this and future 
Administrations.
    DAV does not have a resolution specific to this issue; however, we 
are not opposed to the passage of this legislation as it could prove 
beneficial to disabled veteran business owners.
H.R. 4051, TAP Modernization Act of 2012
    H.R. 4051 would direct the Secretary of Labor to establish a three-
year pilot program to provide Transition Assistance Program (TAP) 
training at off-base locations within three to five states having the 
highest rates of veteran unemployment. The selection of locations 
within each of the chosen states would have to be done at a sufficient 
number of locations to meet the needs of the state's specific 
population. While the purpose of the pilot program is to offer TAP at 
locations other than military installations, and thereby eliminate some 
of the obstacles and restrictions inherent in such locations, it could 
be offered at a National Guard or reserve facility as long as that 
facility is not located on an active duty military installation. Annual 
reports from the Secretary of Labor would be required each year by 
March 1, and following completion of the pilot program, the Government 
Accountability Office (GAO) would be required to evaluate and report to 
Congress on the feasibility of expanding the pilot program to other 
locations nationwide.
    DAV has long supported expanded access to TAP for all military 
personnel, including members of the National Guard and Reserves as 
detailed in Resolution No. 217. Consistent with the intention of this 
resolution, DAV supports passage of H.R. 4051 to further extend access 
to this important benefit.
H.R. 4052, Recognizing Excellence in Veterans Education Act of 2012
    H.R. 4052 would establish an honorary award within the VA to 
recognize institutions of higher learning that provide superior 
services to veterans, based upon specified criteria established by the 
Secretary.
    DAV has no resolution on this matter and has no position on this 
legislation.
H.R. 4057, Improving Transparency of Education Opportunities for 
        Veterans Act of 2012
    H.R. 4057 would direct VA to develop a comprehensive policy to 
improve outreach and transparency to help educate veterans and members 
of the Armed Forces about institutions of higher learning that they may 
be interested in attending. The legislation is designed to provide 
veterans considering enrolling in such institutions with information to 
guide their decisions, including the creation of a mechanism to allow 
veterans access to feedback from students as well as State Approving 
Agencies. The legislation would also require VA to conduct a market 
survey to determine whether an off-the-shelf online tool exists to help 
veterans in making decisions about postsecondary education and training 
opportunities.
    DAV has no resolution on this matter and has no position on this 
legislation.
H.R. 4072, Consolidating Veteran Employment Services for Improved 
        Performances Act of 2012
    H.R. 4072 would essentially move the Veterans Employment and 
Training Service (VETS) from the Department of Labor (DoL) to the VA, 
placing it inside the Veterans Benefits Administration (VBA). The bill 
would transfer all current functions, personnel, assets, and 
liabilities under the following programs from DoL to VA:

    <bullet>  Job counseling, training, and placement services for 
veterans under chapter 41 of title 38, United States Code.
    <bullet>  Employment and training of veterans under chapter 42 of 
such title.
    <bullet>  Administration of employment and employment rights of 
members of the uniformed services under chapter 43 of title 38.
    <bullet>  Homeless veterans reintegration programs under chapter 20 
of such title.

    Funding for these programs, which is currently requested as part of 
DoL's budget, would become part of VA's annual budget request. A new 
Deputy Under Secretary for Veterans' Employment and Training would be 
established within VA to oversee these functions, along with any other 
employment, unemployment, and training programs affecting veterans. 
This legislation would also consolidate the current positions of Local 
Veterans' Employment Representative (LVER) and Disabled Veterans 
Outreach Program (DVOP) Specialist into a new position called Veterans 
Employment Specialist. Current LVERs and DVOPs, who are employed 
directly by states, would be retained and reclassified to these new 
positions. Although their basic job functions would remain the same, 
rather than having LVERs work only with non-disabled veterans and DVOPs 
work only with disabled veterans, all Veterans Employment Specialists 
would be responsible for assisting all veterans. However, in performing 
their work, Veterans Employment Specialists would provide priority of 
service to disabled veterans as required by current law. Further, 
states would be required to give hiring preference for these positions 
to disabled veterans first, then to non-disabled veterans before non-
veterans.
    DAV has long been concerned about the effectiveness of the DoL's 
veteran employment and training programs. Both GAO and DoL's Office of 
Inspector General Office (OIG) have found numerous areas of concern 
over the years related to outreach, seamless transition, internal 
controls, and the measuring and reporting of performance goals and 
outcomes for veterans, yet such problems remain. Management problems at 
VETS and continuing high veteran unemployment rates further raise 
doubts about the effectiveness of DoL's VETS program. At the same time, 
VA has been expanding its focus on employment as evidenced by the 
Vocational Rehabilitation service's change to the Vocational 
Rehabilitation and Employment Service (VR&E), as well as the recent 
establishment of the position of Deputy Under Secretary for Economic 
Opportunity responsible for VR&E, Education and Home Loan Guaranty 
services.
    In this environment, DAV supports passage of H.R. 4072 with the 
following recommendation to strengthen the intent of the legislation. 
Rather than create a new Deputy Under Secretary within VBA, DAV 
recommends that a new Under Secretary for Economic Opportunities be 
created to oversee a new Veterans Economic Opportunities Administration 
(VEOA), consisting of the transferred VETS programs, along with the 
existing VR&E and Education services. Creation of this fourth 
administration with VA would help to increase collaboration and synergy 
amongst VA's employment, training and education programs benefiting 
veterans. In addition, it would allow VBA to keep its focus on the 
enormous challenge of transforming the broken claims processing system 
in order to reduce, and eventually eliminate, the staggering backlog of 
pending claims.
    In addition, DAV would urge the Committee to ensure that as this 
legislation moves forward, it retain and strengthen, whenever possible, 
the priority of providing services to disabled veterans, and the 
preference for hiring disabled veterans, within VA's employment 
programs and VA in general. Furthermore, it is vital that Federal 
funding for veterans employment programs be protected, which may 
require the creation of new line items within VA's budget submission.
    Mr. Chairman, this concludes my testimony.

                                 <F-dash>
                     PARALYZED VETERANS OF AMERICA
    Chairman Stuzman, Ranking Member Bilirakas, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA), thanks you for the 
opportunity to submit a statement for the record regarding the proposed 
legislation being considered by the Subcommittee. PVA appreciates the 
fact that you are addressing these important issues that affect the 
economic wellbeing of veterans. We support your effort to help these 
men and women that have honorably served their Nation as they 
transition successfully back to the civilian world.
                               H.R. 3329
    PVA supports H.R. 3329, legislation to extend the eligibility 
period for vocational rehabilitation programs from the current length 
of twelve years to the proposed length of fifteen years. Today's 
regulations require veterans to apply for Vocational Rehabilitation and 
Employment (VR&E) services within 12 years of the date of their 
military separation or upon notification by VA of a service-connected 
disability rating conferring eligibility. Although many veterans may 
not understand their eligibility or the value of VR&E services, other 
veterans who are initially eligible may not need the services until 
after the 12-year delimiting period has expired. Some service-connected 
injuries will have an aggravated effect on the veteran as they get 
older. This could create limitations on employment functions that a 
veteran once had at a younger age. Although the veteran still has the 
economic need and the desire to continue employment, their service-
connected disability will require the veteran to modify or learn new 
employment skills.
    Although PVA supports H.R.3329, The Independent Budget (IB), co-
authored by PVA, AMVETS, Disabled American Veterans, and Veterans of 
Foreign Wars, believes the time limit for accessing VR&E programs 
should be eliminated entirely. In fact, the FY2013 edition of the IB 
recommends that Congress eliminate the 12-year delimiting period for 
Vocational Rehabilitation and Employment services to ensure that 
veterans with employment barriers or problems with independent living 
qualify for services for the entirety of their employable lives.
        H.R. 3483, the ``Veterans Education Equity Act of 2011''
    PVA supports H.R. 3483, the ``Veterans Educational Equity Act of 
2011.'' This bill would change the existing law that allows for more 
educational funds to veterans who are enrolled in private colleges than 
those in public institutions. The current law unintentionally burdens 
some veterans by requiring them to pay additional fees not provided by 
the Post-9/11 GI Bill when attending some out-of-state public 
institutions. Many veterans that qualify for the Post-9/11 GI Bill do 
not live in their original home state. When these veterans attend a 
local institution they are penalized with a much higher tuition as an 
out-of-state student. This legislation will also allow the veteran to 
receive up to $17,500 in educational benefits; however, if the in-state 
tuition exceeds $17,500, this legislation would provide payment for the 
total tuition. Passage of H.R. 3483 will allow veterans to focus on 
obtaining their education without worrying about which state they must 
live in to avoid excessive unreimbursed tuition fees.
     H.R. 3524, the ``Disabled Veterans Employment Protection Act''
    PVA supports H.R. 3524, the ``Disabled Veterans Employment 
Protection Act.'' Of the men and women that have honorably served both 
at home and abroad, many are exiting military service with lifelong 
injuries or disabling conditions as a result of their service. 
Unfortunately, some employers have discriminated against these men and 
women as they must take time away from work to address their medical 
problems. PVA supports this legislation that will protect those 
veterans that must take time away from work to attend to their service-
connected injuries or medical conditions. We would also note that many 
of the same protections are already afforded to any individual with a 
disability under the provisions of the Americans with Disabilities Act.
   H.R. 3610, the ``Streamlining Workforce Development Programs Act''
    PVA opposes the provisions of H.R. 3610, the ``Streamlining 
Workforce Development Programs Act.'' At first glance, this legislation 
appears to be a response to the Government Accountability Office (GAO) 
report that identified 47 job training programs throughout the Federal 
government that seemingly overlap or provide similar services. However, 
viewing these programs as simply duplicative and redundant undervalues 
the nature of many of these programs and ignores the full scope of 
objectives of these programs and the populations of people in this 
country that they serve.
    H.R. 3610 would consolidate 33 of those programs outlined in the 
GAO report into what are described as four ``flexible'' funds. These 
funds include:

    <bullet>  Workforce Investment Fund providing job training services 
to adults, youth, unemployed workers;
    <bullet>  State Youth Workforce Investment Fund focused on 
disadvantaged youth to encourage school completion;
    <bullet>  Veterans Workforce Investment Fund for employment 
services to veterans; and,
    <bullet>  Targeted Populations Workforce Investment Fund to assist 
ex-offenders, refugees, migrant and seasonal farmworkers and Native 
Americans.

    Additionally, the legislation would require the development of 
common performance measures for all employment and job training 
programs and would give states greater flexibility in determining 
workforce system service areas.
    PVA has the unique perspective of examining the proposed 
legislation both through the lens of a veterans' service organization 
as well as an organization that serves the broader community of people 
with disabilities. First, we oppose this legislation viewing it from 
the perspective of the disability community. While it seems that the 
legislation proposes to shore up some requirements of state workforce 
plans--plans which state governors are required to submit to the 
Department of Labor in order to receive funding under this 
legislation--to directly address the employment training and job 
placement needs of people with disabilities, it is unclear how those 
individuals with the most significant disabilities, such as PVA members 
with catastrophic spinal cord injury, would fare under this system. It 
is particularly troubling that this bill eliminates Title VI of the 
Rehabilitation Act--the Supported Employment program--created 
specifically for those individuals with the most severe disabilities 
who often face the greatest challenges in obtaining and retaining 
employment. Too often, under broad, generic job training programs, 
those who are hardest to serve become casualties of the performance 
measurement system.
    Second, we oppose this legislation viewed from the perspective of 
the veterans' community. We appreciate the fact that the bill 
eliminates the weaker phrasing of state plan provisions in current law 
that only requires ``an assurance that veterans will be afforded the 
employment and training activities by the State to the extent 
practicable'' and instead requires these activities to be ``in 
accordance with the Jobs for Veterans Act.'' Presumably, this provision 
is intended to draw the attention of state workforce plan developers to 
the specific requirements of the Jobs for Veterans Act. However, H.R. 
3610 excepts sections 4103A and 4104 of title 38--the provisions that 
govern the Disabled Veteran Outreach Program (DVOP) and Local Veterans 
Employment Representatives (LVER) from the above stated provision. Of 
great concern is that the bill actually repeals the DVOP and LVER 
sections from law altogether.
    It appears that funds in the newly consolidated Veterans Workforce 
Investment Fun would be used to hire ``one or more local veterans' 
employment representatives to carry out employment, training, and 
placement services.'' Local workforce areas would be required to give 
preference in hiring to service disabled veterans, veterans or if none 
of the above are available to anyone with expertise in serving 
veterans. These staff would be ``administratively responsible'' to the 
director of the one stop center.
    In addition to repealing the DVOP and LVER programs, H.R. 3610 also 
repeals the Veterans Workforce Investment Program included in the 
Workforce Investment Act, the Homeless Veterans Reintegration Program 
(HVRP) as well as employment and job training assistance under Section 
1144 of Title 10. The underlying assumption of these repeals seems to 
be that these are duplicative and redundant programs identified by the 
GAO report and thus can be dealt with under the four consolidated 
workforce investment funds. However, we would highlight the fact that 
the HVRP is perhaps the most cost-effective, cost-efficient program in 
the Federal government. Every year the HVRP is funded well-below its 
authorized level, and yet, its outcomes reflect great success in 
serving homeless veterans.
    H.R. 3610 takes a broad swipe at consolidating programs deemed to 
be ``unnecessary and duplicative.'' Unfortunately, the bill flatly 
ignores the fact that many of these programs are the best option 
available for veterans and people with disabilities.
                               H.R. 3670
    PVA supports H.R. 3670, legislation to protect the employment and 
reemployment rights of veterans and members of the Guard and Reserve 
who have taken time away from employment to fulfill their obligation to 
the nation. The Uniformed Services Employment and Reemployment Rights 
Act (USERRA) was passed to protect the men and women that take time 
away from their place of employment to fulfill their military 
obligations. Every day veterans of the current conflict return to their 
home communities and to their jobs they left because of the protection 
provided by USERRA.
    The Transportation Security Administration (TSA) was created in the 
wake of 9/11 to strengthen the security of the nation's transportation 
system. In the rapid assembly and deployment of the TSA to provide 
needed transportation security, some of the existing Federal 
requirements were waived to expedite the formation of this new agency. 
The protection of workers provided by USERRA was one of those Federal 
requirements. It is unfortunate that this Federal agency has grown to 
more than 50,000 employees and is not required to comply with USERRA. 
As a result we have veterans that are returning from protecting their 
country (some in harm's way) and are not allowed to return to their 
chosen careers in the TSA. Perhaps the exclusion of Federal 
requirements was necessary in order to rapidly stand up this agency in 
2002, but it makes no sense to allow the agency to continue to be 
exempt from USERRA. PVA supports this legislation that will ensure that 
veterans have a job to return to after serving their nation.
  H.R. 4048, ``Improving Contracting Opportunities for Veteran-Owned 
                     small Businesses Act of 2012''
    PVA supports H.R. 4048, the ``Improving Contracting Opportunities 
for Veteran-Owned Small Business Act of 2012.'' This legislation would 
ensure that proper priorities outlined in title 38 U.S.C, '8127 are 
followed when the VA chooses to initiate a contract under the Federal 
Supply Schedule. PVA has long been a proponent of contracting 
preference being provided to service-disabled veteran-owned and 
veteran-owned small businesses. This preference should be applied in 
any contracting activity that the VA conducts.
            H.R. 4051, the ``TAP Modernization Act of 2012''
    PVA supports H.R. 4051, the ``TAP Modernization Act of 2012.'' This 
legislation would require the Department of Labor (DoL) to conduct the 
Transition Assistance Program (TAP) training off military bases in 
locations away from current locations that have traditionally offered 
TAP. This legislation could prove particularly beneficial for Guard and 
Reserve members that are returning to their communities away from 
mobilization stations and major military installations after their 
deployment. A large number of these veterans are from rural areas and 
do not have the access to support programs for veterans that would be 
available in metropolitan areas. Additionally, not every Guard and 
Reserve member has had the benefit of the broad array of information 
that is provided through the TAP program. This legislation would 
require a three-year pilot program to be presented in three to five 
states selected by the VA. Considering the current unemployment rate of 
veterans, we believe that it is imperative that the VA make an effort 
to provide this service in five states. This effort will be evaluated 
by the Comptroller General to determine its value with assisting 
unemployed veterans.
    The expansion of TAP through this legislation would also coincide 
with the roll-out of the new version of TAP by the DoL's Veterans 
Employment and Training Service (VETS). After twenty years of 
presenting the same basic TAP program, VETS, in coordination with the 
VA and the Department of Defense (DoD) have created a new TAP to ensure 
its relevance and compatibility to today's job market. This new TAP is 
currently being evaluated after being tested in several locations and 
will be in use nationwide in 2013. Taking a new TAP program out to 
areas away from major cities or military bases will reach a new 
audience of veterans that critically need all information pertaining to 
support, programs and opportunities currently available for veterans.
 H.R. 4052, the ``Recognizing Excellence in Veterans Education Act of 
                                 2013''
    PVA does not oppose H.R. 4052, the ``Recognizing Excellence in 
Veterans Education Act of 2013.''
                               H.R. 4057
    PVA supports H.R. 4057, legislation to direct the Secretary of 
Veterans Affairs to develop a comprehensive policy to improve outreach 
and transparency for effectively informing veterans about educational 
and vocational counseling opportunities and requires VA to create a 
central means for tracking feedback about the quality of higher 
education institutions. It also instructs the VA to examine the best 
ways in which state approving agencies share information about their 
evaluations of institutions of higher learning and the manner in which 
information about these institutions is provided to TAP participants. 
Finally, it requires the VA to include in this policy the most 
effective way to provide veterans and members of the military with 
information regarding postsecondary education and training 
opportunities available to them. The need for transparency of this 
information along with outreach to the veteran by the VA is critical.
    Although the VA should not be providing information to influence 
specific choices the veteran may make for their future, many 
educational and training programs are aggressively pursuing the veteran 
often with misleading promises. Without the latest information readily 
available and presented to veterans explaining the relevancy and the 
successful outcomes from the wide range of available career programs, 
veterans could make decisions that could be detrimental to their future 
success. However, this effort will require additional designated 
funding in order for it to receive priority in the VA. Without funding, 
it could become another attempt to help veterans that never 
materializes.
H.R. 4072, the ``Consolidating Veteran Employment Services for Improved 
                       Performance Act of 2012''
    PVA supports H.R. 4072, the ``Consolidating Veterans Employment 
Services for Improved Performance Act of 2012.'' The proposed 
legislation would shift the organization and responsibilities of the 
Veterans Employment and Training Service (VETS) out of DoL and into the 
Department of Veterans Affairs (VA). Additionally, the legislation 
would consolidate the duties of the Disabled Veterans Outreach Program 
(DVOP) specialists and the Local Veterans Employment Representatives 
(LVER) into a single veterans employment representative. This 
legislation closely resembles a recommendation included in The 
Independent Budget for FY2012. The IB states:

       In order to achieve better outcomes for veterans, all veterans' 
programs designed to enhance economic security, such as those focused 
on employment, education, and business assistance, should be 
centralized into a single new administration inside the Department of 
Veterans Affairs.

    While the IB recommendation called for this alignment to be 
commensurate with the three administrations within VA, we support the 
plan outlined in this legislation that would place principle control 
for VETS under the Veterans Benefits Administration.
    Both Congress and the Administration have demonstrated their 
concern for the employment of veterans. With new initiatives from 
Federal agencies to assist veterans, and directions from the 
Administration to address unemployment among veterans, veterans still 
maintain an unemployment rate several percentage points above the 
national average. Combining the Federal government's efforts to assist 
veterans with employment, entrepreneurship, career counseling, and 
education and training programs should create a synergistic effect and 
at the same time eliminate any duplication of programs. This will 
maximize the combined Federal effort and as one united effort, should 
be easier to monitor results and make necessary modifications in 
programs if needed. Ultimately, the move of VETS to the VA will ensure 
that veterans receive the highest priority in these employment, 
education and training programs.
    Once again, PVA would like to thank you for the opportunity to 
comment on the proposed legislation. We appreciate the strong focus 
that the Subcommittee has placed on expanding opportunities for success 
of veterans in education, the workforce, and the business community.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding Federal grants and 
contracts.
                            Fiscal Year 2012
    No Federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program--
$262,787.
                            Fiscal Year 2010
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program--
$287,992.

                                 <F-dash>
                     WOUNDED WARRIOR PROJECT (WWP)
    Chairman Stutzman, Ranking Member Braley, and members of the 
Subcommittee:
    Wounded Warrior Project (WWP) welcomes this opportunity to share an 
important perspective on H.R.4057 and is pleased to offer our views on 
this legislation. This bill would require VA to develop a comprehensive 
policy to ensure better outreach and greater transparency by providing 
information on institutions of higher learning to veterans who consider 
accessing their educational benefits. Consistent with the important 
goal of establishing a comprehensive policy to foster transparency 
relating to veterans' higher education options, we recommend that the 
bill be revised, as discussed below, to help ensure that post 9-11 
warriors gain access to additional information critical to their 
academic success.
    As an organization dedicated to honoring and empowering Wounded 
Warriors, and appreciative of the critical importance of education in 
helping warriors achieve their goals, WWP welcomes this Committee's 
consideration of H.R. 4057 and the importance of developing more 
information to assist veterans in using their education benefits.
    The post-9/11 GI bill plays a vital role in enabling access to 
higher education for veterans who have served in Afghanistan and Iraq 
to advance their education, and achieve economic empowerment, and 
veterans are availing themselves of that valuable benefit. The FY2013 
budget projects post-9/11 expenditures will approach $10 billion. A 
2010 RAND study focused on veterans' experience using the post-9/11 GI 
bill found that close to a quarter of surveyed students identified the 
post-9/11 GI bill benefits as a major aspect of their decision to 
enroll in higher education. \1\ While institutions of higher education 
receive substantial Federal monies for their warrior populations, who 
often face injuries that hinder their academic success, the 
availability of specialized services to support those veterans has not 
kept pace with the program's growth.
---------------------------------------------------------------------------
    \1\ J Steele, N Salcedo, J Coley. ``Military Veterans' Experiences 
Using the Post-9/11 GI Bill and Pursuing Postsecondard Education.'' 
RAND Corportation, November 2010. Accessed: http://www.rand.org/
content/dam/rand/pubs/monographs/2011/RAND--MG1083.pdf
---------------------------------------------------------------------------
    As returning veterans, and particularly Wounded Warriors, begin to 
make the often difficult transition from military service, the generous 
benefits available under the post 9/11 GI Bill offer a promising path 
to employment and new careers opportunities and advancement. With the 
increasingly large number of veterans taking advantage of their 
educational benefits, VA should be establishing metrics to measure 
veterans' success and to track the availability of appropriate campus-
based support.
    In our experience, the road to higher education, and to making 
informed choices among often wide-ranging options, can be very 
difficult to navigate. For those without counseling options such as 
those provided through VA's vocational rehabilitation program, there 
may be little to guide the individual in making informed choices, 
particularly as it relates to the extent of pertinent support a school 
provides veterans. Even the most careful researcher would have great 
difficulty identifying the kinds and levels of support at most 
institutions. Student-veterans themselves are often uncertain of what 
specialized services, if any, are available. In a survey of over 500 
WWP alumni who have enrolled in courses of higher education, more than 
44% indicated that they were unsure if their campus had a dedicated 
disability services support staff member, over 55% were unsure if 
mental health services were offered on campus, and over a quarter of 
respondents did not know if the campus offered any type of academic 
support services such as tutoring. \2\ Veterans who may know of 
services they should be able to access on campuses often have trouble 
navigating the process of getting those benefits and lack a clear 
understanding of where to go for information.
---------------------------------------------------------------------------
    \2\ Wounded Warrior Project Policy & Programs Survey, November 
2011.
---------------------------------------------------------------------------
    The 2010 RAND study found that over 66% of veterans who were able 
to access a campus veterans program office found that resource to be 
``quite helpful'' or ``extremely helpful'' in pursuing their academic 
goals compared with only approximately 29% of respondents rating the VA 
phone hotline the same way. \3\ These data underscore how important 
campus investment and involvement with their student veteran population 
really is. We believe VA must do more to require institutional 
recipients of post-9/11 GI bill funds to make such services available 
to the student-veterans who enroll and ensure that information is 
easily accessible so that warriors are able to make informed decisions 
before applying and enrolling.
---------------------------------------------------------------------------
    \3\ Steele et al, 28.
---------------------------------------------------------------------------
    We applaud the principle underlying H.R. 4057 that veterans 
availing themselves of benefits under the GI bill should have ready 
access to relevant information. This is an important starting point, 
but, as drafted, the measure falls short of ensuring that its impact 
would address in a systematic manner the critical issues post-9/11 
warriors face. As more and more veterans enroll in institutions of 
higher education, it is important that VA collect pertinent--and 
accurate--data that is easily accessible to student-veterans. Because 
campus-based support services must be tailored to meet warrior-specific 
injuries and academic needs, we recommend that H.R. 4057 be amended to 
include language that would make modest but important improvements, 
specifically to require institutions of higher education to provide 
information on the following:

       1. The size of their student-veteran population and student-
veteran academic performance and retention and graduation rates; and
       2. The specific support services dedicated, and available to, 
student-veterans at such institution (and, as pertinent, at each campus 
of such institution).

    While we also appreciate the bill's effort to develop information 
on student-outreach, we recommend revising the language in new section 
3698(b)(5) that calls on VA to identify ``the most effective way'' to 
inform veterans of their educational benefits and post-secondary 
educational opportunities. Given the range of individual backgrounds 
and disabilities among warriors pursuing higher education, outreach 
strategies should be multi-faceted. We strongly advise against a one-
size-fits-all approach, and recommend accordingly that the language be 
revised to refer to ``effective ways'' in lieu of ``the most effective 
way'' to conduct outreach. In essence, VA should be encouraged to 
pursue wide-ranging approaches to reach out to and engage veterans.
    We would be pleased to work with the Committee to draft language in 
advance of any markup to address the important issues discussed above. 
With such changes, WWP would be pleased to enthusiastically support 
H.R. 4057.

                                 <F-dash>
                   MATERIAL SUBMITTED FOR THE RECORD
               Letters Submitted To Hon. G.K. Butterfield

    May 18, 2011

    The Honorable GK Butterfield
    United States House of Representatives
    Washington, DC 20515-3301

    Dear Mr. Butterfield:

    We write to bring your attention to an important and urgent matter 
for a select group of Veteransusing the Post 9/11 GI Bill benefit in 
North Carolina.

    On January 4, 2011, the President signed S. 3447, The Post-9/11 
Veterans EducationalAssistance Improvements Act of 2010 into law. The 
Act makes several improvements to theoriginal program and we are 
grateful for all that you did personally to strengthen it. 
Regrettably,the bill also has unintended consequences and we hope that 
we can work together to fix onespecific issue as expeditiously as 
practicable.
    Under Section 102 of the Act, Congress provides financial 
assistance to servicemembers for ahigher education at public, private 
and foreign institutions. The Act provides for a $17,500upper limit for 
tuition and fees for qualified servicemembers on an annual basis. The 
UnitedStates Department of Veterans Affairs (VA) interprets the Act to 
limit tuition and fees at publicinstitutions to the applicable 
institution's in-state tuition rate for both in-state and out-of-
stateVeterans. This is certainly reasonable for Veterans who are 
residents of the state of NorthCarolina. However, because North 
Carolina's in-state tuition rate is sharply lower than the out-of-state 
tuition rate, this change unintentionally disadvantages out-of-state 
Veterans who wish toattend public institutions in North Carolina. The 
out-of-state Veteran seeking a public highereducation in North Carolina 
must pay the difference between the in-state and out-of-state ratefrom 
other sources of funds, select another college, or delay a higher 
education. This is not whatwas intended.
    We strongly urge Congress to correct this oversight quickly by 
permitting the $17,500 upperlimit without deference to an in-state 
tuition rate for out-of-state Veterans seeking a highereducation at 
public institutions. We estimate that as many as 1000 students in North 
Carolina areaffected for the 2011-2012 academic year. What makes this 
situation particularly troubling isthat the VA notified colleges and 
universities in late March of their interpretation - long afterstudents 
have applied for and received notice of their favorable admission. This 
group ofstudents gained admission under one set of rules but will 
enroll under new rules that require asubstantial out of pocket expense 
through no fault of the student. Again, this cannot be what 
youintended.
    It is in North Carolina's best interest to educate servicemembers. 
Service members are our beststudents - they graduate on time and they 
continue to grow North Carolina's economy--so longas they remain here. 
Many of the affected students have lived in North Carolina as active 
dutyservicemembers for quite some time regardless of their official 
residency. And, many of themdo not make the decision to get their 
degree until it is too late to establish residency for tuitionpurposes 
in North Carolina. Not only do we owe them the education that they seek 
but we needthem to help us build North Carolina's future.
    We are aware of other efforts to make ``technical corrections'' to 
the The Post-9/11 VeteransEducational Assistance Improvements Act of 
2010. Thus far none of the existing bills include asolution for our 
issue in North Carolina. We respectfully request your help as we try to 
resolvethis issue as soon as practicable. Please feel free to call us 
or our staff, Kimrey Rhinehardt(UNC) at 919-943-0381 or Jennifer Willis 
(NCCCS) at 919-807-6957, to discuss this issuefurther.

    Sincerely,

    Thomas W. Ros,
    President
    The University of North Carolina

    Scott Ralls
    President
    The North Carolina Community College System

                        November 17, 2011

    Honorable G.K. Butterfield
    United States House of Representatives
    2305 Rayburn House Office Building
    Washington, D.C. 20515

    Dear Representative Butterfield,

    Iraq and Afghanistan Veterans of America (IAVA) is pleased to offer 
our support for your legislation to remedy the disparity between in-
state and out-of-state tuition rates faced by some veterans using the 
Post-9/11 GI Bill. The Veterans Education Equity Act of 2011 will help 
bring fairness and parity to the benefits used by those who have fought 
for our Nation as they make the transition to civilian life.
    The GI Bill was intended to help veterans attend institutions of 
higher learning, particularly public institutions, but the difference 
between in-state and out-of-state tuition rates has proven to be an 
obstacle for many veterans. Veterans classified as out-of-state 
students are reimbursed for tuition and fees at in-state tuition rates, 
which are often significantly lower. Qualifying for instate tuition is 
made all the more difficult because servicemembers move frequently 
around the country and the world. This scenario means that tuition at 
some of the leading universities in our country is still out of reach 
for some veterans unless they accrue significant debt. IAVA believes 
that veterans have already paid their debt through service to our 
Nation in a time of war.
    The Post-9/11 GI Bill offers our nation's veterans an exceptional 
opportunity to gain the formal education which, along with the skills 
and decision-making abilities gained through their military experience, 
will allow them to take their place as America's New Greatest 
Generation. IAVA has been a staunch advocate for granting out-of-state 
students tuition benefits equal to at least what students attending 
private schools receive. The Veterans Education Equity Act of 2011 will 
achieve this goal, helping remedy the disparity and easing the burden 
on veterans. It will also guarantee parity and the efficient use of 
benefits.
    IAVA believes that our New Greatest Generation deserves the chance 
to contribute to our Nation in peace with the distinction they did in 
war. We are proud to offer our assistance and thank you for this 
important legislation. If we can be of help, please contact Ramsey 
Sulayman, IAVA Legislative Associate, at (202) 544-7692, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a180b07190f132a030b1c0b4405180d44">[email&#160;protected]</a>

                        Sincerely,

                        Paul Rieckhoff
                        Founder and Executive Director
                        Iraq and Afghanistan Veterans of America (IAVA)

                        February 21, 2012

    The Honorable G.K. Butterfield
    United States House of Representatives
    2305 Rayburn House Office Building
    Washington, D.C. 20515

    Dear Representative Butterfield:

    On behalf of the more than two million men and women of the 
Veterans of Foreign Wars of the United States and our Auxiliaries, we 
thank you for introducing H.R. 3483, the Veterans Education Equity Act 
of 2011, which provides equality in educational assistance for veterans 
using Post-9/11 G.I. Bill benefits. This bill will lessen the tuition 
disparity between veterans attending out-of-state public institutions 
and veterans attending private institutions.
    The VFW played a significant role in the original passing of the 
Post-9/11 G.I. Bill and consequently has a vested interest in a fair 
implementation of its benefits. The benefit was designed to offer 
veterans of the current conflicts the opportunity to receive a free 
education at the public school of their choice. Unfortunately, veterans 
who do not qualify for residency status at many public schools must 
bear the burden of the additional tuition and fees not covered by the 
current payment model. Furthermore, veterans who choose to attend 
private schools can now receive up to $17,500 in reimbursement. As a 
result, veterans without residency status at public schools can often 
carry a significantly higher tuition burden than veterans at private 
schools.
    We believe that this disparity is unfair to veterans who choose to 
attend public schools, as the benefit intended, yet cannot establish 
residency. Due to the nature of military life, obtaining residency 
status can often be difficult. Servicemen and women must constantly 
move across the country and even around the world, which can prevent 
them from establishing domicile in any one state. We must take these 
extenuating circumstances into account and offer an equitable benefit 
for veterans who choose to attend both public and private schools.
    Recognizing that the men and women who serve today are the future 
leaders of our great nation, the VFW helped pass the Post-9/11 G.I. 
Bill, and we will continue to work to ensure the benefit is 
administered fairly. The VFW thanks you and your staff for your 
attention to this issue, and we stand ready to assist in ensuring our 
brave servicemembers receive the quality educationalopportunities they 
deserve through their earned military and veterans' benefits. We are 
pleased tooffer our support for H.R. 3483 and urge you to move the bill 
in Congress.

                        Sincerely,

                        Raymond C. Kelley, Director
                        VFW National Legislative Service

                        December 20, 2011

    Honorable G. K. Butterfield
    United States House of Representatives
    2305 Rayburn House Office Building
    Washington, DC 20515

    Dear Representative Butterfield:

    On behalf of the 2.4 million members of The American Legion I would 
like to express support for H.R. 3483, the Veterans Education Equity 
Act of 2011, which provides for the equalization of benefits for 
veterans who choose to attend public universities and colleges.

    Current law caps education benefits for veterans attending private 
institutions at $17,500 per year, while stipulating that veterans 
attending public colleges and universities receive only the amount 
charged for tuition and fees. The result of this is an undue burden in 
out- of-pocket expenses on some veterans who attend public colleges. By 
providing up to$17,500 for all veterans regardless of the institution 
they opt to attend, this measure remedies this issue while ensuring 
that educational benefits earned in service to our country are not 
undermined , but remain available and equitable for all veterans.

    Again, The American Legion fully supports enacting H.R. 3483 and 
applauds your leadership in addressing this critical issue facing our 
nation's veterans.

                        Sincerely,

                        FANG A. WONG
                        National Commander

                                 <F-dash>
   Letters Submitted To Hon. Marlin Stutzman from Eric K. Shinseki, 
                Secretary, Veterans Affairs, Washington

                                  THE SECRETARY OF VETERANS AFFAIRS
                                  WASHINGTON

                        April 2, 2012

    The Honorable Marlin Stutzman
    Chairman, Subcommittee on Economic Opportunity
    Committee on Veterans' Affairs
    U.S. House of Representatives
    Washington, DC 20515

    Dear Mr. Chairman:

    On March 8, 2012, Mr. Curtis L. Coy, Department of Veterans 
Affairs' (VA) Deputy Under Secretary for Economic Opportunity, Veterans 
Benefit Administration, testified before your Subcommittee on numerous 
bills of interest to the Department. At that time, Mr. Coy indicated 
that we would like to provide the Committee our views and cost 
estimates on additional bills after having the opportunity for further 
review. By this letter, we are providing our costs on two of these 
bills, which deal with VA educational assistance benefit issues: H.R. 
3483, the "Veterans Education Equity Act of 2011" and H.R. 4052, the 
"Recognizing Excellence in Veterans Education Act of 2012," as well as 
our views and costs on H.R. 4048, the "Improving Contracting 
Opportunities for Veteran-Owned Small Businesses Act of 2012." The 
Administration's position on H.R. 4072 is still under development.
                               H.R. 3483

    H.R. 3483 would change the educational assistance payable for 
certain individuals under the Post-9/11 GI Bill who are pursuing 
programs of education at institutions of higher learning. Specifically, 
the bill would change the tuition and fees payable for non-resident 
students attending a public institution that currently charges less 
than $17,500 annually for the comparable in-state tuition and fees at 
that institution.
    VA estimates benefits costs of enactment of H.R. 3483 to be $710.8 
million in the first year, $4.0 billion over five years, and $9.0 
billion over ten years.
                               H.R. 4052

    H.R. 4052 would direct VA to establish the "Excellence in Veterans 
Education Award," to recognize institutions of higher learning that 
offer exemplary services to Veterans. The award would be valid for 
three years and institutions that receive such award would be annotated 
on the list of institutions approved to receive VA education benefits 
that appears on a VA Web site.
    VA estimates, that if H.R. 4052 were enacted, VA would need 11 
additional Full-Time Equivalents (FTE) for data collection, analysis, 
and communication with institutions of higher learning and the bill 
would cost $726 thousand for the remaining six months of FY2012, $6.3 
million over five years, and $14.9 million over ten years.
                               H.R. 4048

    H.R. 4048 would require VA to report amounts associated with 
purchases from the Federal Supply Schedules in measuring VA's service-
disabled Veteran-owned and Veteran-owned small business contracting 
achievements. As that already is VA's practice pursuant to the Federal 
Acquisition Regulation, 48 CFR Chapter 1, Section 4.606, we consider 
this bill unnecessary. Enactment of H.R. 4048 would not result in any 
additional costs to VA.We appreciate this opportunity to comment on 
this legislation and look forward to working with you and the other 
Subcommittee Members on these important legislative issues.

                        Sincerely,

                        Eric K. Shinseki

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
